<html>
<title> - IS THIS ANY WAY TO TREAT OUR TROOPS? THE CARE AND CONDITIONS OF WOUNDED SOLDIERS AT WALTER REED</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
IS THIS ANY WAY TO TREAT OUR TROOPS? THE CARE AND CONDITIONS OF WOUNDED 
                        SOLDIERS AT WALTER REED 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 5, 2007

                               __________

                           Serial No. 110-40

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

40-852 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















































             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director



























































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 5, 2007....................................     1
Statement of:
    Geren, Peter, Under Secretary, U.S. Army.....................     1
    Kiley, Lieutenant General Kevin C., M.D., U.S. Army Surgeon 
      General; Major General George W. Weightman, Commander, 
      Walter Reed Army Medical Center; and Cynthia A. Bascetta, 
      Director, Health Care, U.S. Government Accountability 
      Office.....................................................    98
        Bascetta, Cynthia A......................................   113
        Kiley, Lieutenant General Kevin C........................    98
        Weightman, Major General George W........................   112
    Schoomaker, General Peter, Chief of Staff of the Army; and 
      General Richard A. Cody, Army Vice Chief of Staff..........   159
        Cody, General Richard A..................................   159
        Schoomaker, General Peter................................   159
    Shannon, Staff Sergeant John Daniel; Annette McLeod, wife of 
      Corporal Wendell ``Dell'' McLeod; and Specialist Jeremy 
      Duncan.....................................................    37
        Duncan, Specialist Jeremy................................    51
        McLeod, Annette..........................................    44
        Shannon, Staff Sergeant John Daniel......................    37
Letters, statements, etc., submitted for the record by:
    Bascetta, Cynthia A., Director, Health Care, U.S. Government 
      Accountability Office, prepared statement of...............   115
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    35
    Kiley, Lieutenant General Kevin C., M.D., U.S. Army Surgeon 
      General, prepared statement of.............................   101
    McLeod, Annette, wife of Corporal Wendell ``Dell'' McLeod, 
      prepared statement of......................................    46
    Shannon, Staff Sergeant John Daniel, prepared statement of...    40
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    30
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, various prepared statements........     3
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, various prepared statements...........    57
    Yarmuth, Hon. John A., a Representative in Congress from the 
      State of Kentucky, prepared statement of...................    82


IS THIS ANY WAY TO TREAT OUR TROOPS? THE CARE AND CONDITIONS OF WOUNDED 
                        SOLDIERS AT WALTER REED

                              ----------                              


                         MONDAY, MARCH 5, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., 
Joel Auditorium, Walter Reed Medical Center, Washington, DC, 
Hon. John F. Tierney (chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Waxman, Cummings, Lynch, 
Yarmuth, Braley, Norton, McCollum, Cooper, Van Hollen, Hodes, 
Welch, Shays, Platts, Duncan, Turner, and Foxx.
    Also present: Representatives Davis of Virginia; Cummings, 
and Norton.
    Staff present: Brian Cohen, senior investigator and policy 
advisor; Margaret Daum, counsel; Molly Gulland, assistant 
communications director; Earley Green, chief clerk; Leneal 
Scott, information systems manager; Dave Turk, staff director; 
Davis Hake, staff assistant; Andy Wright, clerk; David Marin, 
minority staff director; A. Brooke Bennett, minority counsel; 
Grace Washbourne, minority senior professional staff member; 
Nick Palarino, minority senior investigator and policy advisor; 
and Benjamin Chance, minority clerk.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs' field hearing entitled, 
``Is This Any Way to Treat Our Troops? The Care and Condition 
of Wounded Soldiers At Walter Reed,'' will come to order. I ask 
unanimous consent that the chairman and ranking minority member 
of the committee as well as the ranking minority member of the 
subcommittee be allotted 5 minutes to make opening statements. 
Without objection, that is ordered.
    I would also like to first introduce Under Secretary Peter 
Geren who would like to welcome people here in a brief 
statement.

      STATEMENT OF PETER GEREN, UNDER SECRETARY, U.S. ARMY

    Mr. Geren. Thank you, Mr. Chairman, members of the 
subcommittee. I am the Under Secretary of the Army now. Next 
Friday I will be the Acting Secretary of the Army. Last Friday 
night the Secretary asked me to take on the health care issues 
for the Army in the meantime, not wait until I become Acting 
Secretary next Friday.
    On behalf of the Army I want to welcome all of you to 
Walter Reed. As a former Member of Congress, I want you to know 
I appreciate and value the role that the Congress and this 
committee plays in the life of our Army. We treasure the 
partnership we have with the Congress. We understand that the 
Constitution has forged the partnership, from the beginning of 
this country until as long as this country lasts, between the 
Congress and our U.S. Army.
    We have let some soldiers down. And working with the 
Congress and with the leadership of the Army all the way down 
to the lowest ranking civilian or uniformed military, we're 
going to fix that problem. In fact we're in the process of 
fixing it. Your involvement is going to help us do that.
    We're glad so many of you are here today showing this kind 
of interest in Walter Reed. So many of you have been out here 
many, many times, been a part of the life of Walter Reed. We've 
worked with Members and staff over the last several years in 
dealing with related problems, and we appreciate very much the 
role that the Congress plays.
    There is a ballad that is part of the soldier's creed: I 
will never leave a fallen comrade. That is on the battlefield, 
it's in the hospital that's in the outpatient clinic. And that 
is part of the soul of every soldier. And anytime that vow is 
broken, I can tell you it hurts the heart of the Army.
    The men and women at Walter Reed are dedicated 
professionals. They make considerable sacrifice, both financial 
and personal, to meet the needs of the patients here at Walter 
Reed, to meet the needs of the families. They provide excellent 
health care. And when it comes to wounded warriors they set the 
standard for the world for health care. And they do this and 
turn down offers in private industry to make several times more 
money. They do it because they believe in the soldier's creed. 
They're dedicated to their fallen comrades and it hurts them 
deeply when they see any member of this service be slighted and 
not receive the care they deserve.
    So on behalf of the staff here, I also offer this welcome. 
They look forward to working with you. I want to thank them for 
their work and, again, Mr. Chairman, thank you and Chairman 
Waxman and ranking members. I appreciate your being here. Thank 
you for your time.
    Mr. Tierney. Thank you, Mr. Geren.
    Little bit of house cleaning here first. I ask unanimous 
consent that the hearing record be kept open for 5 business 
days so that all members of the subcommittee be allowed to 
submit a written statement for the record. Without objection, 
that's ordered.
    I also ask that the following written statements be made 
part of the hearing record: The Iraq and Afghanistan Veterans 
of America; Joe Wilson, Social Workers Psychiatric Continuity 
Service; Sergeant David Yancey, Mississippi National Guard; 
Sergeant Archie and Barbara Benware; and John Allen, former 
Sergeant First Class, North Carolina National Guard. Without 
objection, so ordered.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. I also ask unanimous consent that the 
gentleman from Maryland, Representative Elijah Cummings, and 
the delegate from the District of Columbia, Representative 
Eleanor Holmes Norton, members on the full committee on 
Oversight and Government Reform, be allowed to participate in 
the hearing. In accordance with our committee practices, 
they'll be recognized after all members of the subcommittee. 
Without objection, so ordered.
    So, getting down to business, let me first and foremost 
welcome everybody here and thank the brave soldiers at Walter 
Reed for allowing us to have this hearing at this facility. 
Thank you all for your service and your patriotism and your 
courage. Everybody here is mindful of what you've done and how 
you've answered the call for this country, without distinction 
from party or any other factor. You are an inspiration to all 
of us. And from the bottom of our hearts, we appreciate all you 
have done for our country and for each of us.
    I also want to welcome the members of the National Security 
and Foreign Affairs Subcommittee. It was vital we convene a 
hearing at Walter Reed so we would be able to see and hear for 
ourselves whether or not what we've seen reported is actually 
accurate and true. While I intend that this subcommittee will 
conduct hearings and investigations into many areas of defense, 
homeland security, and foreign policy, I can think of no more 
important topic for our very first hearing than the proper care 
of our Nation's wounded soldiers.
    I would like to start by playing a short video clip from 
the WashingtonPost.com Web site that I think indicates for us 
the seriousness of this matter.
    [Video clip.]
    Mr. Tierney. Walter Reed has long been perceived as the 
model of taking care of our Nation's soldiers when they return 
from battle. The Under Secretary is absolutely correct that the 
people respect and honor the service of the medical personnel 
and other staff that are here at the hospital. But when we look 
at the unsanitary conditions and some of the other situations 
in the living quarters, we find it appalling.
    We also realize that not only is it flat wrong, but that it 
is the tip of the iceberg. Far too often, the soldiers at 
Walter Reed wait months, if not years, in sort of a limbo; and 
they must navigate through broken administrative processes and 
layers upon layers of bureaucracy to get basic tasks 
accomplished.
    Today we're going to hear firsthand of the conditions and 
lack of respect for our soldiers and their families. I want to 
thank Staff Sergeant Dan Shannon, Corporal Dell McLeod and his 
wife Annette, and Specialist Jeremy Duncan for your bravery, 
for your service, for your sacrifice, and for sharing your 
experiences with us here on this panel today.
    I understand that you are frustrated. I think we all 
understand that, and we respect that fact and we all understand 
why you are. Let me be clear: This is absolutely the wrong way 
to treat our troops, and serious reforms need to happen 
immediately.
    Over the past month, the perception of Walter Reed has gone 
from the flagship of our military health system to a glaring 
problem. This subcommittee wants some answers.
    I want to thank Major General Weightman, the former 
commander of Walter Reed; Lieutenant General Kiley, the Army's 
current Surgeon General and also a former commander at Walter 
Reed; General Cody, the Vice Chief of Staff of the Army and the 
Army's point person on this issue; and General Peter 
Schoomaker, the Chief of Staff of the Army, for being with us 
today. .
    I look forward to hearing from all of you why our wounded 
soldiers have not been getting the care and the living 
conditions that they deserve. I also want to hear what we're 
going to do about it in the future.
    I want to stress that this is an investigative hearing and 
not an inquisition. Our purpose is to get to the bottom of 
things and to get honest answers, and it will take our 
cooperative efforts, all of us working together to make sure 
that a broken system is fixed and fixed quickly.
    That all being said, I do have serious concerns and many, 
many questions. First, is this just another horrific 
consequence of the terrible planning that went into our 
invasion of Iraq?
    Did the fact that our top civilian leaders predicted a 
short war, where we'd be greeted as liberators, lead to a lack 
of planning in terms of adequate resources and facilities 
devoted to the care of our wounded soldiers?
    Are we headed down the same path again with the President's 
surge? Or are we prepared this time for the increase of 
injuries, patients and wounded veterans? What concrete steps 
have been taken and are being taken, as a reaction to the 
surge, to make sure that every soldier gets cared for properly?
    Did an ideological push for privatization put the care of 
our wounded heroes at risk? A September 2006 memorandum that 
this committee has obtained describes how the Army's decision 
to privatize was causing an exodus of ``highly skilled and 
experienced personnel'' from Walter Reed and that there was a 
fear that ``patient care services are at risk of mission 
failure.''
    Did the fact that Walter Reed is scheduled to close in 2011 
because of BRAC, the Base Realignment and Closure process, 
contribute to unacceptable conditions at Building 18 and 
elsewhere?
    And with a Defense Department budget of $450 billion and 
more, this is not a case of there not being enough money to 
take care of our wounded soldiers; this is a case of the lack 
of the proper prioritization and focus.
    More and more evidence is appearing to indicate that senior 
officials were aware for several years of the types of problems 
that were recently exposed in the excellent reporting by the 
Washington Post reporters.
    These are not new or sudden problems. Rats and cockroaches 
don't burrow and infest overnight. Mold and holes in ceilings 
don't occur in a week. And complaints of bureaucratic 
indifference have been reported for years.
    Moreover, this committee, under former Chairman Davis and 
Chairman Shays, have been investigating over the past several 
years problems faced by our wounded soldiers, including those 
at Walter Reed. And I want to thank those members for their 
leadership so far.
    I also want to thank Congressman Peter Welch from Vermont 
and others who insisted that this committee have its first 
hearing out here at Walter Reed so we could see firsthand the 
conditions in question.
    Where does the buck stop? There appears to be a pattern 
developing here that we've seen before: first deny, then cover 
up, and then designate a fall guy. In this case, I have 
concerns that the Army is literally trying to whitewash over 
the problems.
    I appreciate the first steps that have been taken to 
rectify the problems at Walter Reed and to hold those 
responsible accountable. We need a sustained focus here, and 
much more needs to be done.
    I also, unfortunately, fear that these problems go well 
beyond the walls of Walter Reed, and that there are problems 
systemic throughout the military health care system. As we send 
more and more troops into Iraq and Afghanistan, these problems 
are only going to get worse, not better, and we should be 
prepared to deal with them.
    Let me conclude by thanking all the soldiers who all able 
to be with us here today for their sacrifice on all of our 
behalf. We all agree that our soldiers deserve the best 
possible care. So let's give them the respect and gratitude 
that they rightly deserve. They've earned it with their 
dedication, with their patriotism, and with their sacrifice.
    With that, I yield to Mr. Shays or Mr. Davis for an opening 
statement.
    Mr. Shays. Thank you, Mr. Chairman. I am going to defer my 
statement. I know we have a short agenda. We will just have one 
on each side, so I welcome Mr. Davis to make our statement.
    [The prepared statement of Hon. Christopher Shays follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Virginia. Thank you, Mr. Shays. And let me 
thank Chairman Waxman and Chairman Tierney for agreeing to 
convene this hearing at the Walter Reed Army Medical Center.
    For too long, complaints about substandard and disjointed 
care for wounded soldiers have been treated as distant 
abstractions. Here, no one should be distracted by numbing 
statistics, soulless technical jargon, impersonal flow charts 
or rosy ``good news'' action plans. Here we get an unfiltered 
look at a torturous system that has proved so far stubbornly 
incapable of reaching the standard of care this Nation is 
honor-bound to provide returning warriors.
    We meet on the grounds of a world-class, world-renowned 
medical institution. Walter Reed has a venerable tradition of 
scientific advancement and clinical success. No one cared for 
here yesterday, today, or tomorrow should doubt the skill and 
dedication of the doctors, nurses and administrative staff who 
labor every day to save lives and repair broken bodies and 
minds. The problems that bring us here today are the product of 
institutional indifference, not a lack of individual 
commitment.
    Recent reports of decrepit facilities and dysfunctional 
outpatient procedures at Walter Reed amplified oversight work 
this committee started in 2004. Pay and personnel systems--it 
got that wrong far more often than right--were inflicting 
financial friendly fire on those returning from war. Some of 
those erroneous dunning notices found their way here. Men and 
women already struggling to regain their physical health were 
also being forced to fight their own government to protect 
their financial well-being.
    Members of the National Guard and Reserve units have a 
particularly difficult time navigating this Byzantine, 
stovepiped, paper-choked process that was never intended to 
deal with so many for so long. The charts that we have lay out 
only part of the MedHold system. Apparently, among other prewar 
planning errors, the Pentagon somehow failed to anticipate that 
deploying unprecedented numbers of Reserve component troops 
into combat would produce an unprecedented flow of casualties.
    As a result, the Defense Department has been scrambling 
ever since to lash together last-century procedures and systems 
to care for returning citizen-soldiers. But institutional 
habits and biases have proven remarkably impervious to demands 
for change. It took well over a year to stand up an ombudsman 
program to help guide soldiers and their families through a 
complex, confusing, and frustrating medical and administrative 
labyrinth involving mountains of forms and multiple Army 
commands.
    Last October a systems analysis review team inspection of 
Walter Reed found no process to track submitted work orders, 
particularly for Building 18. They pronounced the facility 
otherwise safe and secure. That must have been remarkably fast-
growing mold that we found in the Washington Post, in Building 
18.
    Two years ago, the Government Reform Committee heard 
testimony that concluded Army guidance for processing patients 
in medical hold units does not clearly define organizational 
responsibilities or performance standards. The Army has not 
adequately educated soldiers about medical and personnel 
processing or adequately trained Army personnel responsible for 
helping soldiers. The Army lacks an integrated medical and 
personnel system to provide visibility over injured soldiers, 
and, as a result, sometimes actually loses track of soldiers 
and where they are in the process. And the Army lacks 
compassionate customer-friendly service.
    The last one says it all and, sadly, appears to be as true 
today as in 2005.
    And these problems are not unique to Walter Reed. Here, 
uncertainty over the use of contractors or decisions by the 
Base Closure and Realignment Commission may have contributed to 
staff turnover and attrition, but the crushing complexity and 
glacial pace of outpatient procedures and medical evaluation 
boards are Army-wide problems. Building 18 is one visible 
symptom of a far more insidious and pervasive malady. All the 
plaster and paint in the world won't cure a system that seems 
institutionally predisposed to treat wounded soldiers like 
inconveniences rather than heroes.
    On the long road home from war, this is a place wounded 
soldiers and their families should be embraced, not abandoned. 
They should be healed and nurtured, not left to languish or 
fend for themselves against a faceless bureaucratic Hydra.
    What will transform this dysfunctional uncaring arrangement 
into the compassionate effective medical and military operation 
wounded soldiers deserve? All our witnesses today will help 
find the answer to that question.
    Those on our first panel speak from hard personal 
experiences. They have every reason to be disillusioned, even 
bitter about frustrations and indignities they endured or 
witnessed while captive to a broken process. Their testimony is 
one more selfless act of bravery, and we are profoundly 
grateful for their willingness to speak out.
    [The prepared statement of Hon. Tom Davis follows:]

[GRAPHIC(S) NOT AVAILALBE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Mr. Davis.
    The subcommittee will now receive some testimony from the 
witnesses before us today. I would like to start by introducing 
those witness on the first panel. We have Staff Sergeant John 
Daniel--or Dan Shannon--a resident of Walter Reed since he was 
injured near Ramadi, Iraq in November 2004; we have Mrs. 
Annette McLeod and her husband, Specialist Wendell ``Dell'' 
McLeod, Jr. from Chesterfield, SC. Actually, Mrs. McLeod will 
be testifying. Dell is here with us today; Specialist Jeremy 
Duncan, currently an outpatient at Walter Reed residence who 
was housed in Building 18.
    Welcome to all of you. Thank you for coming and sharing 
your experiences here today. It is the policy of this 
subcommittee to swear you in before you testify. So I will ask 
you to please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses so swore. I am going to ask that each of you now give 
a brief opening statement. We will start from my left with 
Staff Sergeant Shannon and Mrs. McLeod and Specialist Duncan. 
Statements are 5 minutes. If you can, please try to contain 
your remarks. Davis, of the subcommittee staff, to my left, is 
going to throw something in the air to get my attention when 
you get near that point in time. I will give you a signal. We 
do want to allow you to fully express yourselves.
    Staff Sergeant Shannon, if you would please start.

   STATEMENTS OF STAFF SERGEANT JOHN DANIEL SHANNON; ANNETTE 
     McLEOD, WIFE OF CORPORAL WENDELL ``DELL'' McLEOD; AND 
                    SPECIALIST JEREMY DUNCAN

        STATEMENT OF STAFF SERGEANT JOHN DANIEL SHANNON

    Sergeant Shannon. I hope that I can stay within those time 
constraints and, of course, more information with the written 
statement I submitted.
    Mr. Tierney. All of the written statements have been 
entered in the record and will be there. Is your microphone on, 
sir? Thank you. You might want to move it a little bit closer 
to you if you could and that will be helpful.
    Sergeant Shannon. Better?
    Mr. Tierney. Yes.
    Sergeant Shannon. All right.
    Mr. Chairman and members of the committee, thank you for 
inviting me to testify today on issues at Walter Reed Medical 
Center. My name is Staff Sergeant John Daniel Shannon. I do go 
by my middle name.
    What has brought me to speak is my personal ethic as a 
professional soldier. I will not see young men and women who 
have had their lives shattered in service to their country 
receive anything less than dignity and respect.
    I was wounded while serving in Iraq with the 1st Battalion 
503rd infantry regiment. We were conducting operations out of 
Habiniyah, Iraq and had moved to ``Combat Outpost,'' a small 
compound on the southeast side of Ramadi. On November 13, 2004, 
I suffered a gunshot wound to the head from an AK-47 during a 
firefight with insurgent forces near Saddam's mosque. The 
result of that wound was primarily a traumatic brain injury and 
the loss of my left eye.
    I arrived at the Walter Reed Army Medical Center's ward 58 
on or about the November 16, 2004. I was discharged in 
outpatient status on approximately November 18, 2004. Upon my 
discharge, hospital staff gave me a photocopied map of the 
installation and told me to go to the Mologne House where I 
would live while in outpatient. I was extremely disoriented and 
wandered around while looking for someone to direct me to the 
Mologne House. And eventually I found it.
    I had been given a couple of weeks' appointments and some 
other paperwork upon leaving ward 58, and I went to all of my 
appointments during that time. After these appointments, I sat 
in my room for another couple of weeks, wondering when someone 
would contact me about my continuing medical care. Finally I 
went through the paperwork I was given and started calling all 
the phone numbers until I reached my case manager who promptly 
got me the appointments I needed. I soon made contact with the 
Medical Holding Company. At that time, I was then processed and 
assigned to the 2nd Platoon MedHold Company.
    I was informed that my Medical Evaluation Board/Physical 
Evaluation Board would not continue until my face was put back 
together. This process is important to me because the results 
of the evaluation determines the percentage of my disability. 
During the time my injuries were being fixed, posttraumatic 
stress disorder symptoms started surfacing.
    I was informed that the medical retirement process would 
not proceed until the PTSD was medicinally controlled. Months 
later, I was informed that my medical board paperwork, my 
medical board had to be restarted because my information had 
been lost. I began meeting with my new physical evaluation 
counselor Mr. Giess in late January and early February. He 
informed that my MEB needed to be stopped again until the 
plastic surgery and ocular prosthetic procedures were finished. 
Therefore, 2 years after first being admitted to Walter Reed, I 
am hearing the same thing about the process that I heard when I 
first began it 2 years ago.
    I want to leave this place. I have seen so many soldiers 
get so frustrated with the process that they will sign anything 
presented to them just so they can get on with their lives. We 
have almost no advocacy that is not working for the government; 
no one that we can talk to about this process, who is 
knowledgeable and we can trust, is going to give us fair 
treatment and informed guidance. My physical evaluation 
counselor and the MEB/PEB process both here work for the 
government and have its interests, not our interests, in mind.
    In my opinion, Danny Soto, who works in the Mologne House 
as an independent advocate for those of us going through the 
process, is priceless in the assistance he gives, but he is 
only one man. The system can't be trusted. And soldiers get 
less than they deserve from a system seemingly designed and run 
to cut the costs associated with fighting this war. The truly 
sad thing is that surviving veterans from every war we've ever 
fought can tell the same basic story, a story about neglect, 
lack of advocacy, and frustration with the military 
bureaucracy.
    Thank you again for allowing me the opportunity to share my 
experiences with this committee.
    Mr. Tierney. Thank you, Staff Sergeant.
    [The prepared statement of Staff Sergeant Shannon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Mrs. McLeod.

                 STATEMENT OF ANNETTE L. McLEOD

    Mrs. McLeod. Mr. Chairman and members of the committee, 
thank you for holding this hearing today. My name is Annette 
McLeod, and I am testifying today because my my husband Wendell 
has been through the nightmares of the Walter Reed Army medical 
system. I am glad that you care about what happened to my 
husband after he was injured in the line of duty, because for a 
long time it seemed like I was the only one who cared. 
Certainly the Army did not care. I didn't even find out that he 
was injured until he called me himself from the hospital in New 
Jersey. When the Army realized that they had made a mistake and 
sent him to Fort Dix instead of Walter Reed, they transferred 
him.
    On September 23, 2004, Wendell was deployed on the Iraqi 
border and the 1/178th Field Artillery out of Greenville, SC. 
He had been a sergeant with the National Guard for 16 years 
when he was activated for this deployment. About 10 months into 
his tour he was hit in the head by a steel cargo door of an 18-
wheeler while climbing in for inventory. The injuries were 
serious enough that he had to be evacuated to Germany under 
heavy medication. And after the hospital mix-up I just 
mentioned, he was sent to his apartment complex leased at 
Walter Reed.
    I took a leave from my job and went to see him in the 
capacity of a nonmedical attendant, with Army approval. This 
was in August 2005. When I arrived to care for him, I found 
that he had no appointments scheduled with any Walter Reed 
staff. He had been assigned a social worker. But aside from the 
evaluation he received after his injury, the Army had just left 
him without any evaluation or opportunities and, therefore, no 
treatment. I complained and had him transferred to the Mologne 
House where he could get some help. He had back and shoulder 
injuries and mental problems. After being admitted to the 
Mologne House, he was tested for brain functioning 
comprehension. I remember how medicated he was when they gave 
him the test. Later the Army said the tests were inconclusive 
because he didn't try hard enough. We waited for 4 months to 
get those results.
    He is a high school graduate. As I said before, he served 
in the National Guard for 16\1/2\ years, but the Army refuses 
to acknowledge that he suffered a brain injury. He freely told 
the Army that he was a Title I math and English student in 
grade school, meaning that he needed extra help with reading 
and math. But the Army has taken this information and used it 
against him. Over the months, we have listened in disbelief as 
the Army interpreted Title I math and English to mean that he 
has a learning disability. He was considered fit enough to 
serve in the National Guard for 16 years. He was fit enough for 
deployment. But now they are saying his mental problems he had 
before he went to Iraq.
    In January 2006, he was sent to a neurological care 
facility in Virginia for 10 weeks, at my urging. Before he 
transferred, he received several shots in his back for his back 
injury. I was assured by the Army that this was the first of 
many treatments. But for 10 weeks while he was in Virginia, he 
didn't receive any more shots. Before leaving for Virginia, he 
was put on cholesterol medicine, which he had no trouble with 
before, that required blood work every month to monitor his 
body's response. The required blood work was never performed 
and he had developed an allergic reaction to the medication, 
from which he sustained liver damage and gained 25 pound during 
those 10 weeks.
    Back at Walter Reed, a doctor ordered an MRI to check the 
condition of his shoulder, but the case manager refused to do 
the MRI. Her reason was that it would cost the Army too much 
money. And the only followup for Wendell's back injury was the 
decision of the Army that he suffers from degenerative disk 
disease, a preexisting condition that they claim was unrelated 
to injuries overseas.
    On October 28th, the Army and the National Guard retired 
him. He suffers from episodes of anxiety, forgetfulness, and 
very bad mood swings. He walks with a cane and with a limp.
    Mr. Chairman, and members of the committee, American 
soldiers are injured every day in operations overseas. Every 
day, family members learn that their loved ones are coming home 
to them different than when they left. I am here for Wendell, 
but I am also here because family members should not have to go 
through this with a loved one that we have already been 
through. I thank you again for the opportunity to tell my 
story.
    Mr. Tierney. Thank you, Mrs. McLeod.
    [The prepared statement of Mrs. McLeod follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Specialist Jeremy Duncan has opted not to give 
a statement so much as to respond to questions, and since we're 
moving on into the question and answer period now and we'll be 
under the 5-minute rule, alternating from one side to the 
other, I thought, Specialist Duncan, that I might start just by 
asking you, if you are willing to talk about it, could you tell 
us and this panel a little bit about what chain of events led 
you to become a patient at Walter Reed?

             STATEMENT OF SPECIALIST JEREMY DUNCAN

    Specialist Duncan. I myself was deployed in Iraq in Samara 
with the 101st 3rd Brigade reconnaissance. During patrol, came 
across an IED. I got blown up, and I came here, and since then 
I have no problems with medical care getting mixed from the 
problems I have had.
    Mr. Tierney. What were the nature of your injuries?
    Specialist Duncan. I had fractured my neck, almost lost my 
left arm, I got titanium drawn, lost left ear, and loss of 
sight in the left eye.
    Mr. Tierney. Now I think many of us first learned of your 
situation by reading the Washington Post and the description of 
the physical conditions of Building 18 and the area where you 
were staying. Could you tell us on the record here today about 
those conditions in your room of Building 18?
    Specialist Duncan. The conditions in the room in my mind 
were just--it was unforgivable for anybody to live--it wasn't 
fit for anybody to live in a room like that. I know most 
soldiers have just come out of recovery, have weaker immune 
systems. Black mold can do damage to people, and the holes in 
the walls, I wouldn't live there even if I had to. It wasn't 
fit for anybody.
    Mr. Tierney. What did you do to try to get the room fixed?
    Specialist Duncan. I contacted the building manager and 
informed them that there was an issue with my room. They told 
me they would put it in the system for a work order. I did 
that. A month went by. I asked them to do it again. He said he 
would put it back in the system. That went on two or three 
times. Finally, I had my chain of command from Fort Campbell 
who came and visited me, they seen it, made some phone calls to 
the person over here at Walter Reed. I don't know where it went 
and it still never got fixed. That's when I contacted the 
Washington Post.
    Mr. Tierney. And after the Washington Post article was 
published?
    Specialist Duncan. I was immediately moved from that room 
and the next day they were renovating the room.
    Mr. Tierney. Do you have any personal thoughts about other 
ways that--to be put and implemented to assist soldiers that 
are new to the facility here?
    Specialist Duncan. As in what perspectives?
    Mr. Tierney. How to assist them in the services of 
information and getting that process working better than it 
apparently did for you?
    Specialist Duncan. Keep following on through and keep 
bugging them about it. Let them know; keep letting them know 
until finally somebody gets sick of it and it finally gets 
done.
    Mr. Tierney. Mrs. McLeod, you had a situation attempting to 
at least bring attention to Dell's condition and situation. 
Would you share that with us? Did you make known that you had 
some issues with his treatment and care? To whom did you go and 
what were the results with that?
    Mrs. McLeod. I was very persistent. I went to his case 
manager. She even got tired of dealing with me. I went as far 
as the commanders. I went to the generals. Anybody that would 
listen to me, I would talk.
    Mr. Tierney. Who was the commander here at that point in 
time? Was it General Farmer?
    Mrs. McLeod. General Farmer, yes, sir.
    Mr. Tierney. Did you go to General Farmer and express to 
him the difficulties?
    Mrs. McLeod. Yes, sir, I did. I was at his office door 
several days, and each time they turned me around.
    Mr. Tierney. And how do you mean turn you around?
    Mrs. McLeod. They told me he did not have time to talk to 
me, there were other situations present at the time also. He 
knew of the situation, he knew of some of the conditions, and 
each time I went to him, they told me that he did not have 
time. He knew the situation, there was nothing he could do to 
help me.
    Mr. Tierney. At some point in time, did you have a chance 
to meet with General Weightman?
    Mrs. McLeod. I did. We were sitting in Burger King 1 day 
and we were enjoying the day. He had a day of leave, and so we 
were sitting there, and General Weightman walked up and my 
recollection he is a fine, honorable man. He had nothing to do 
with our situation. He was, in my perspective, being punished 
because he caught the tail end of it. Mr. Weightman, in my 
opinion, he was just shoved into a situation that was already 
there. And because there had to be the fall guy, he was there. 
He has never done anything to me. He never knew about my 
situation. When I asked him questions, he was more than willing 
to give me answers that I needed.
    Mr. Tierney. I have about a minute left here. We have a 
rather antiquated system on time watching, because our lights 
aren't working.
    Staff Sergeant, I wanted to ask you, I know that at some 
point you took matters in your own hands in trying to assist 
people that were just coming new to the facility. Could you 
tell us about what you did and what caused you to take that 
action?
    Sergeant Shannon. Well, after the young service member died 
two doors down from me New Year's of 2005, I had been looking 
at the system as it stood, and we were having up to that point 
over 100 or over 200 personnel at one platoon run by one E-7. 
Typically that type of level of authority is in charge of 30 to 
40 personnel. And they had no E-6s, my job, underneath them to 
help them keep accountability of those personnel.
    At that point I started asking my platoon sergeant at the 
time to give me 25 percent of the people in the platoon and let 
me help track them, because they've worked long hours just 
trying to keep track of everyone.
    The primary problem with the system, starting with the 
hospitals, it takes days for the paperwork to catch up with the 
Medical Holding Company to let them know just that someone has 
gone outpatient to the Mologne House. I had already been going 
to my ward on a daily basis to see who was coming and going. 
When I asked for a squad leader position, they moved over me, 
over to work with a Sergeant First Class Alexander, in the OIF 
OEF platoon at the time; an outstanding NCO, by the way. And we 
implemented a program and eventually received 10 personnel to 
work underneath us that we checked every ward in the hospital 
every day, receiving the patient report from the Aero MedEvac 
Office here in the hospital to let us know incoming and 
outgoing personnel. We would meet with incoming personnel, 
identify ourselves, give them business cards, let them know if 
they had any questions they can contact us.
    We implemented a program to provide escorts from the 
hospital over to the Mologne House; and the primary thing, some 
go to other hospitals. We identified those that were staying 
here and going outpatient to the Mologne House. When we 
identified them, we were able to contact them in the Mologne 
House and give them at that time a proper in processing.
    Mr. Tierney. Thank you very much.
    Sergeant Shannon. You're welcome.
    Mr. Tierney. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman, for holding these 
hearings and thank you, our witnesses, for coming and 
testifying under oath. You met with us before and you told us a 
number of stories that will be very helpful to this committee. 
I want you, Staff Sergeant Shannon, to just describe one 
example of the kind of attitude you encountered more often than 
you should have when you came and asked for information 5 
minutes before an office opened up. Do you remember that story? 
Yes.
    Sergeant Shannon. I have an anger problem, and I think this 
is common across the board with the patients at the hospital. 
It is something these people are going to go through to some 
degree or a another. Forgive me. I have been told there was a 
time constraint problem, and I am talking quickly.
    Mr. Shays. You needn't talk quickly. Take your time.
    Sergeant Shannon. OK. In the course of the work I did at 
the hospital, I became very familiar with how things worked in 
the hospital. I became a person that would take a new soldier 
around and showed them where they needed to go, who they needed 
talk to. Because if I didn't have the answers, I could send 
them to where they needed to go.
    Mr. Shays. I am just going to interrupt you. You described 
that was quite common, that the soldiers helped other soldiers 
because they weren't getting the help from a caseworker or 
whomever.
    Sergeant Shannon. There just wasn't the staff at the time. 
The staff has increased significantly since that time, but 
still not enough staff. But at that point I was showing a new 
soldier who was also a patient in ophthalmology down to the 
office. It was 5 minutes before they opened. I just needed to 
ask the lady if a certain neuro-ophthamologist worked there. 
And she looked me up and down, in my opinion like a piece of 
dirt and said, come see me when we open. I won't repeat what I 
said to her. I cussed a blue streak, and it took everything I 
had not to jump over the counter and smash the printer she was 
just using to copy.
    Mr. Shays. Do you feel that was more typical, or an unusual 
kind of experience?
    Sergeant Shannon. Human nature indicates that in the course 
of any given day, in spite of your productivity, you will have 
the easiest day you could have. What needs to not be forgotten 
here is that there is a human issue involved with these guys, 
and the problem--and I apologize, I talk a lot these days. It 
takes me a while to get to the point. There is a hospital 
policy, that regardless of hours, this is a written policy at 
this hospital, regardless of whether they are on the clock or 
not, they will always provide assistance to patients when they 
require it. I found that out because my wife worked here.
    Mr. Shays. That's the policy. You didn't feel it happened?
    Sergeant Shannon. No.
    Mr. Shays. Let me ask you this: Almost all of you have said 
the help you received from the doctors when you received help 
was outstanding.
    Sergeant Shannon. Yes.
    Mr. Shays. Would you agree, Sergeant? I mean--or Specialist 
Duncan?
    Specialist Duncan. Yes, sir.
    Mr. Shays. Mrs. McLeod, would you agree with that?
    Mrs. McLeod. Fifty percent, yes.
    Mr. Shays. Let me ask you this. You got the sense that you 
were being pushed out of the Active Army, the military 
facilities, to the VA. Describe to me your attitude about that 
and what positions you took.
    Let me start with you, Specialist Duncan. You don't choose 
to leave the military.
    Specialist Duncan. I'm not leaving the military at all, 
sir.
    Mr. Shays. OK. This is something that is amazing to me. You 
told the military you had no intention of retiring. What was 
their reaction?
    Specialist Duncan. They were kind of shocked. At first they 
said, well, we don't think you can stay in because of the 
conditions I had. But like I said, some of the doctors here 
helped me find the actual regulations on my conditions, and I 
meet the requirements to stay in, and therefore I am staying 
in.
    Mr. Shays. So you don't have an issue of getting help from 
the VA. But first, thank you for wanting to stay in, thank you 
for having to argue to stay in, and thank you for your 
incredible service, all of you. And Mr. McLeod, thank you, sir.
    Let me have both of you, Staff Sergeant, Mrs. McLeod, tell 
me whether you would prefer to have VA help or--help and why?
    Mrs. McLeod. In our situation, the VA has absolutely been 
wonderful to him, but he was only referred to the VA because 
they refused him treatment here. My goal was to have him to 
receive his treatment because I felt that he would receive 
better treatment when he was on Active Duty because they stand 
first priority.
    Mr. Shays. Thank you. I only have 30 seconds left. Sergeant 
Shannon.
    Sergeant Shannon. I will receive care anywhere I can get 
it.
    Mr. Shays. What are you waiting for right now? Describe for 
us what you are waiting for.
    Sergeant Shannon. I'm waiting for the plastic surgery to be 
done to make my face capable of receiving a prosthetic eye and 
then they will start the procedure to start a prosthetic eye. 
They have given me the option to have the VA do it. I have a 
right to have it done before I am retired. And as a workaholic, 
I am not taking 30 days off from a job to have the surgery 
done.
    Mr. Shays. You told us your biggest concern. What is your 
biggest concern right now?
    Sergeant Shannon. My biggest concern is having the young 
men and women who have had their lives shattered in service to 
their country getting taken care of. Thank you.
    Mr. Shays. Thank you. Mr. Waxman.
    Mr. Waxman. Staff Sergeant Shannon, that's your biggest 
concern and that has to be the biggest concern of all 
Americans. I think that people were shocked when they heard 
about the Washington Post story of the deplorable conditions 
here at Walter Reed. And some of the reactions to those news 
reports have been, we never knew things were out of hand.
    Now, I can't understand that when we get officials that say 
they just didn't know things were happening, that was so 
shocking because I have--and I am going to ask the chairman to 
make it part of the record--I have a long list, a stack of 
reports and articles that sounded the alarm bells about what 
was going on here and around the country.
    Example: In February 2005, Mark Benjamin wrote an article 
in Salon Magazine, describing appalling conditions and shocking 
patterns of neglect in ward 54, Walter Reed's inpatient 
psychiatric ward. Another report from Salon in 2006 warned that 
soldiers with traumatic brain injuries were not being screened, 
identified or treated, and others were being misdiagnosed, 
forced to wait for treatment, or called liars.
    And then we have in June 2006, Military Times ran a story 
reporting on problems with the Physical Evaluation Board 
process. In 2005 RAND issued a very comprehensive report for 
the Secretary of Defense finding that the military disability 
system is unduly complex and confuses veterans and policymakers 
alike. And then the GAO, the Government Accountability Office, 
found inadequate collaboration between the Pentagon and the 
Veterans Administration to expedite vocational rehabilitation 
services for seriously injured service members.
    The GAO did some other reports as well, because in February 
2005, GAO reported on gaps in pay and benefits that create 
financial hardships for injured Army, National Guard and 
Reserve soldiers. And in March 2006 GAO warned that a quarter 
of the Active Duty soldiers and more than half of reservists 
and guardsmen do not get their cases adjudicated according to 
Pentagon guidelines.
    And in April 2006, GAO reported that military debts posed 
significant hardships to hundreds of sick and injured soldiers 
serving in Iraq and Afghanistan.
    And in May 2006, GAO issued a report on problems with the 
transition of care between the Pentagon and the Veterans 
Administration. And in fact, 2 weeks ago, the Army Inspector 
General revealed an ongoing investigation of problems with the 
Physical Evaluation Board system and investigation which has 
also identified 87 problems with the medical evaluation system.
    Even Congress acted on this issue. The 2007 Defense 
Appropriations bill called for Physical Evaluation Board 
members to document medical evidence justifying disability 
ratings rather than simply allowing them to deny disabilities 
by writing preexisting conditions, the kind of problems your 
husband had, Mrs. McLeod.
    Despite all of these press reports, studies and 
investigations, it took the Washington Post finally to capture 
people's attention, and they deserve an enormous amount of 
credit for what they've done. But despite all the work that 
went on before, top Pentagon officials reacted to the reports 
at Walter Reed 2 weeks ago by claiming surprise.
    Let me just read what the Pentagon's highest civilian 
official in charge of the military medical program said in a 
press conference. Dr. William Winkenwerder Jr. the Assistant 
Secretary of Defense for Health Affairs, said: This news caught 
me, as it did many other people, completely by surprise.
    Well, my question for the three of you or whoever wants to 
respond, what is your reaction to these kinds of statements? 
What is your response to top military officials when they claim 
they had no idea that there were any of these kinds of 
problems? Sergeant Shannon.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Sergeant Shannon. As you will read in my statement, I 
believe implicitly in an open door policy. The biggest problem 
they have with me is I have been here long enough to see things 
constantly go up the chain to be told--and I believe that is 
General Weightman's primary mistake. I don't think he should 
have been fired, but he said he did not know. That is not true 
in my opinion.
    Mr. Waxman. Let me ask Mrs. McLeod, because I know I will 
be running out of time, what is your reaction when you have 
been trying to get people's attention to the situation for your 
husband, and now when we have it so clearly laid out in the 
press and there is attention being paid to it, the higher-ups 
say they are just sort of surprised to hear about all of this.
    Mrs. McLeod. I have one question. Were they deaf? Because I 
worked the chain. I worked anybody that would listen. So they 
didn't--you don't want to hear, you don't hear.
    Mr. Waxman. Specialist Duncan.
    Specialist Duncan. There is no way they couldn't have 
known. Everybody had to have known somewhere. If they wanted to 
actually look at it or pay attention or believe, it was up to 
them.
    Mr. Waxman. There is another statement that I find even 
more offensive. January 25, 2005, David Chu, the Under 
Secretary of Defense for Personnel and Readiness, was asked by 
the Wall Street Journal about the costs of military health 
insurance and pensions. In response he stated, ``The amounts 
have gotten to the point where they are hurtful. They are 
taking away from the Nation's ability to defend itself.''
    What is your view of this statement? Do you believe 
honoring our service members by ensuring they are properly 
cared for lessens our Nation's ability to defend itself?
    Sergeant Shannon. Absolutely not. The cost of care for 
veterans should not come out of moneys that are designated to 
fight a war. The cost of care for veterans that are wounded in 
the course of fighting that war should come out of separate 
funds. If a certain amount of money--I mean, I don't work at 
that level. But if a certain amount of money is designated to 
fight a war, it needs to focus on the war, and there needs to 
be separate funds set aside; because if they're going to 
indicate they don't have the funds to do it, well, they need to 
separate--break the issue down. You can't take away from what 
the soldiers need over there. You can't take away from the 
soldiers' need over here, and you can't combine the cost 
because it is too much.
    Mr. Waxman. Under Secretary Geren welcomed us this morning 
by saying that there is an Army military tradition that you 
leave no wounded soldier behind. This sounds to me like this 
particular man was saying that it is more important to fight, 
even if it means leaving some of our wounded brave men and 
women patriots behind in their health care or their disability.
    I am very disturbed by what we're hearing and I am glad 
that Chairman Tierney has convened this hearing right here at 
Walter Reed. From what we're hearing, what is going on here at 
Walter Reed may be the tip of the iceberg of what is going on 
all around the country. People are flooding us with complaints 
that it is not just Walter Reed. Check out what is going on all 
around the country. And right now in Los Angeles, the Veterans 
Administration wants to privatize the land rather than take 
care of the returnees and the veterans. Thank you.
    Mr. Tierney. Thank you, Mr. Waxman. Mr. Davis?
    Mr. Davis of Virginia. Well, thank you. And let me thank 
Mr. Waxman. As you know, a number of those GAO reports this 
committee requested, some of them coming from complaints from 
veterans that were stationed right here.
    Mrs. McLeod, let me start with you. You went up the chain 
many times, didn't you?
    Mrs. McLeod. Yes, sir.
    Mr. Davis of Virginia. You finally called this committee, 
you were so upset.
    Mrs. McLeod. I would talk to anybody that would listen. And 
it took the aid of another soldier who actually heard me cry, 
saw me cry 1 day. He said, this is a number. Make a call. And 
that is when I called Ms. Washbourne. And you know my story 
because you have dealt with me. Had I not had any other 
recourse, I wouldn't be here today.
    The thing of the matter is, Mr. Harvey made a statement the 
other day that really bothers me. He said that he hoped the 
Washington Post was satisfied because they ruined careers. 
First, let me come on record by saying I don't care about your 
career as far as anybody that is in danger. That doesn't bother 
me. All I am trying to do is have my life, the life that I had, 
and that I know my life was ripped apart the day that my 
husband was injured. But then having to live through the mess 
that we lived through at Walter Reed has been worse than 
anything I have ever sacrificed in my life.
    Mr. Davis. Thank you. She is referring to Grace Washbourne 
of our staff who used to help us by taking the lead in this 
when people weren't getting paid right, then they sic the bill 
collectors on them, people are afraid of losing their houses 
when they come back languishing. If they didn't have any 
warnings of this, they weren't paying attention, because as Mr. 
Waxman noted, we had a number of GAO reports that we 
authorized. GAO calls the balls and strikes for Congress, 
showing that this was a systematic problem.
    Now I understand that Walter Reed holds town hall meetings. 
Could each of you tell us about these, who runs these meetings, 
who attends them, how they are advertised, how often they take 
place, what types of issues are discussed, and do problems get 
resolved?
    Sergeant Shannon. When I first got here, the wives at the 
Mologne House started meeting on Thursdays to have a wives' 
meeting to get issues addressed. That started doing some good. 
I've been here a long time. The PTSD issues started kicking in. 
They started having me stay at home. I have never been to a 
town hall meeting. I had an opportunity, just before the Dana 
Priest story came out, to go to a sensing session for NCOs and 
any service members. And I couldn't see the point in it. I have 
been here too long. It just hasn't done any good. So I didn't 
go.
    Mr. Davis of Virginia. Any of you been to a town hall 
meeting?
    Mrs. McLeod. I was the first wife that actually spoke up. I 
was the one that actually stated my piece because they had 
denied him treatment. They sent him to Virginia for 10 weeks 
for the brain injury, and I looked Colonel Hamilton in the face 
and I told him, y'all must have thought you cured him because 
you haven't touched him since he's been back.
    My thing is, he opened the floor and I blasted him with 
everything I had, because I was to the point. I really didn't 
care because it seemed like I had had enough. I was tired of 
fighting the system. I was tired of trying to help him get 
well. At the same time, they didn't seem to really care. They 
wanted him out of here. They wanted to turn him over to the VA.
    His case manager at the time was Captain Regina Long. She 
got tired of dealing with me when he was in Virginia, because I 
started calling him 3 weeks--calling her 3 weeks before he'd 
come back from Virginia, letting her know what he needed, what 
he didn't need, what he needed to followup on. And she got so 
aggravated with me because there was a span that I had gone 
home to try to get things together there. She actually sent him 
home to keep from having to deal with him. She told me, she 
said, I cannot maintain him the way you want to maintain him. 
She said, so you--I am going to send him home until we can 
decide what to do with him, and we will probably turn him over 
to the VA.
    I fought tooth and nail, and that is an old saying for me, 
because he should have been taken care of.
    Mr. Tierney. Thank you very much. Thank you, Mr. Davis.
    Mr. Davis of Virginia. I will just ask if Mr. Duncan wanted 
to respond to that.
    Specialist Duncan. I have never actually been in a town 
hall meeting, sir.
    Mr. Tierney. Thank you, sir. Mr. Lynch from Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank 
Chairman Tierney and Chairman Waxman and also Ranking Members 
Shays and Davis for holding this hearing. I want to thank the 
panelists for their willingness to testify and to help this 
committee with its work.
    You really are speaking this morning not only for 
yourselves but everyone else in uniform. A lot of the Members 
up here have been over to Iraq a number of times. I have been 
over five times, and also Afghanistan. And I know a lot of 
these Members have gone with me. And one of the things that 
always struck me, whether we were in--at the Landstuhl medical 
facility in Ramstein, or whether we were in Balad visiting very 
severely wounded young men and women in uniform, they always 
talked about, well, it is is going to be OK once I get to 
Walter Reed. And there was just this gold standard and this 
confidence and trust in our military personnel that when they 
got to Walter Reed, it was going to be OK. They were going to 
get put back together, and they were going to have a maximum 
outcome, whatever their injuries were.
    And I think these most recent revelations have been--well, 
it has been a real blow to that reputation. And so the task 
here for us--and together with your help, and I thank all the 
members of the military who are here today, and I appreciate 
their service to our country--our job today is to make this 
right. It is not just about doing the right thing. It is about 
doing the thing right and making sure that this process works.
    One of the things that was stunning to me in going through 
all the testimony in previous hearings with the veterans groups 
is that for disability approval within the Armed Services, I 
noticed that the Marine Corps--well, it is actually the Navy, 
but the Marine Corps approves about 30 percent, 35 percent of 
its injured for temporary or permanent disability. The Air 
Force approves about 24 percent. But the Army, that had the 
largest number of Active Duty soldiers and reservists, put less 
than 4 percent. It is a massive difference, and it can't be, it 
can't be just random.
    And I know each of you went through this process and also 
witnessed your fellows-in-arms together going through this 
process, and you saw how this was handled. I know the PTSD 
issue is out there, and that we saw less willingness on the 
part of the military to approve disability based on PTSD. Do 
you see a purposeful effort here to refuse the 30 percent 
disability that would bring, I think, dignity and the right 
benefits to those who are injured in uniform? I would like to 
just get your sense of it, whether this is a purposeful attempt 
to deny those benefits to men and women in uniform.
    Mrs. McLeod. We were fortunate because I didn't give up. 
They had no intention of even compensating him for the 
cognitive dysfunction. Only when we started the med board, they 
had already done all of his addendums and sent them in. They 
tested him for his brain injury after--with the help of Mr. 
Davis and Ms. Grace Washbourne, they did a congressional 
investigation, and they called me in the office and they--all 
the colonels, all the case managers, the nurse case manager, my 
husband's platoon sergeant, commander of the Med Holdover, what 
can we do to make this right?
    I said exactly what you should have done to start with. 
Here is a man, his life is messed up, but you not only messed 
his life up, you messed mine, too. Give us what we need, 
rightfully, and let me go home.
    They tested him the very next day, because when they first 
tested him they said he didn't try hard enough. He went from 
being a Title I math and reading to, 6 months down the line, he 
was in special education, according to the Army. He never was 
in special education before he was injured. He was as smart as 
most people are.
    Most children have trouble when they are coming up. I had 
trouble in math. But, believe me, I am far from being mentally 
retarded.
    When the Army was through with him, they had him down to 
where he was mentally retarded; and that was on black and 
white. So they retested him, and they come up to me a week 
later. They told me, Mrs. McLeod, we did find something. We 
found that he was slow. We found that his cognitive skills 
don't measure up.
    You would have found them to start with if you had paid 
attention.
    Mr. Tierney. Thank you, Mrs. McLeod.
    Thank you, Mr. Lynch.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate you and 
the ranking member for holding this hearing.
    I believe that as a Nation we certainly have no greater 
duty and responsibility than caring for those who defend our 
freedoms; and it is a privilege to hear the testimony of Staff 
Sergeant Shannon, Specialist Duncan. Mrs. McLeod, we appreciate 
your courage and service on the home front, Staff Sergeant, 
Specialist and Mrs. McLeod, your courage and service on the 
home front and theirs on the war front.
    I want to start, Staff Sergeant Shannon, you talked about 
your specific case; and I want to make sure I understand the 
circumstances of when you were first injured. Two days later, 
here at Walter Reed, from November 13th, and you arrived here--
3 days, November 16th.
    Sergeant Shannon. First of all, I don't remember the exact 
dates. I was wounded November 13th, and I know I spent 2 or 3 
days in Landstuhl, but I really don't remember.
    Mr. Platts. Is it safe to say that within a week you had 
been transferred here and then discharged to outpatient?
    Sergeant Shannon. I'm pretty sure I was discharged on the 
18th, which is about 3 days--or 5 days after I was shot, sir.
    Mr. Platts. Five days after being wounded in Iraq, severe 
injuries, traumatic brain injury, you were discharged, 
outpatient basically, given a map of where to go and left to be 
on your own, is that correct?
    Sergeant Shannon. Yes, sir. And some of that is my fault. I 
am a Staff Sergeant. I won't stay in bed. Somebody else can 
have it. Whether I need to be there or not is something I am 
not qualified to say. I just won't stay in bed.
    Mr. Platts. We appreciate that can-do approach in wanting 
to look out for others. But it just is amazing that--basically 
cut loose to that outpatient and without some guidance you 
talked about finally getting in touch with your case manager 
and then your case manager did assist in setting up some 
appointments.
    Once you made that contact, what was the give and take 
between you and your case manager? Did he regularly get in 
touch with you, or is it always you having to pursue them?
    Sergeant Shannon. The problem was directly related to the 
breakdown in the system. Actually my case manager was a lady 
named Maggie Hardy, a wonderful case manager. After I had 
finally made contact with her, she, first of all, was wondering 
where I had been and yet knowing I hadn't been AWOL, because 
they were tracking my appointment in the computer system. I was 
making my appointment in the computer system. But after I met 
her and that became part of my counseling for incoming 
personnel--know who your case manager is and work with them 
because they will keep things happening that need to be 
happening.
    Does that answer the question?
    Mr. Platts. So the contact, once you established it, then 
there was a good back and forth between you and her?
    Sergeant Shannon. Yes, sir.
    Mr. Platts. The gentleman you mentioned, Danny Soto, an 
independent, how did you come to be in touch with him and what 
is his official role at the Mologne House?
    Sergeant Shannon. I met Danny Soto a number of different 
times. I am not sure who he works for. Actually, I think it 
might be Wounded Warrior, DAV. But I know that many personnel 
at the hospital or at the Mologne House and system can speak to 
the work that he does as an advocate for them in the MEB/PEB 
process for return to duty, medical discharge or medical 
retirement.
    He is--like I said, he is just one man. There needs to be 
an entire staff of people that work outside of a Government 
connection that have knowledge of how the system is supposed to 
work and can give us guidance in that system. Because a huge 
problem, regardless of what is done here, is to re-earn the 
trust of patients here. And I have spoken to some of the 
officers that are working on it. They can fix the problem. And 
I know myself, I don't trust it. They have to figure out some 
way to get me to trust it again.
    Mr. Platts. So Danny Soto would serve as a good example of 
the type of ombudsman that you think would be wise for the 
wounded and the families----
    Sergeant Shannon. Absolutely. He is priceless.
    Mr. Platts. Question, and, Mrs. McLeod, in the prior two 
terms I chaired the Subcommittee on Financial Management. We 
saw significant difficulties with the Army on the financial 
side of dealing with Guard and Reservist, and I understand your 
husband was a guardsman and then activated?
    Mrs. McLeod. Yes, sir.
    Mr. Platts. Did you feel that it was a different treatment 
because of having been a guardsman in the family, as opposed to 
Active Duty, or do you think it was more across the board, 
regardless of Active Duty, Reserve, guardsman?
    Mrs. McLeod. As far as the finance, we didn't have any 
trouble with the finance as far as the issues. We did have a 
soldier that befriended my husband and stole his identity. That 
kind of finance I had trouble with. But other than finance 
issues with the Army, I didn't have trouble.
    Mr. Platts. But the medical issues, such as you reference a 
case manager denying the MRI even though the doctor ordered it. 
Those type of medical issues, did you see a difference?
    And, Staff Sergeant Shannon, maybe you can answer this, 
too, is as how Active Duty soldiers--was there a difference in 
how they received care and followup versus Guard and Reserve? 
Did that create a problem because of the challenge of managing 
a very large deployment of Guard and Reserves?
    Sergeant Shannon. First of all, I apologize, Mr. Platts.
    Mr. Platts. Take your time.
    Sergeant Shannon. When I was first here, the medical hold 
company was all services combined, OK? Now they have two 
companies, medical holdover and medical hold. That was very 
necessary. But watching them try to go through an additional 
paperwork process was--there was no question in my mind that 
the indicators--I say things like that because I am 
reconnaissance type. But the indicators were such that they 
were having a lot more trouble figuring out the paper trail 
that is correct for the services they need and the connections 
they needed with their States in reference to those services.
    Mr. Platts. I think my time is up.
    Mr. Tierney. Time is up. Thank you, sir.
    Mr. Platts. I want to thank you for your service in taking 
your personal struggle that each of you had and turning them 
into public good through your testimony here today. Thank you.
    Mr. Tierney. Just for the benefit of the Members, to let 
you know the next speaker will be Mr. Yarmuth, Mr. Duncan, Mr. 
Braley, Mr. Turner.
    Mr. Yarmuth. Thank you, Mr. Chairman, and thanks to all 
three of you for being here today. I would like to add my voice 
to what I am sure are millions of American voices who are not 
only very sorry for the ordeal you have gone through but also 
are very also angry about it. I am glad we had this hearing, 
and I know that eventually we are going to correct the problems 
that resulted in your situations.
    I would also like to say one thing as a former journalist, 
that it is precisely this type of situation for which the first 
amendment was conceived; and I salute the Washington Post, 
Newsweek, Bob Woodruff and all those who brought this situation 
to light.
    I am also astounded that it took so long to come to light. 
These situations apparently are long standing, and I'm curious 
as to know--and this would be for Staff Sergeant Shannon and 
Specialist Duncan--what the normal procedure would be for you 
to raise complaints about the treatment you were getting?
    Sergeant Shannon. Open door policy, sir. Open door policy 
works well as long as--well, and if people don't understand 
policy, if you have a concern of a lower-level soldier, he 
takes it to me. If I don't satisfy that concern for him, he has 
the right to take it above my head, and he can continue above 
the chain until his concern is addressed.
    And, first of all, the Washington Post didn't come to speak 
to me. They came to speak with my wife. She is a person that 
everyone knows, knows the problems that go on here. In the 
course of that, they met me; and I decided to exercise what, in 
my opinion, was the necessary open door policy for the problems 
here. It is called public opinion.
    Because when a command uses, in my opinion, the open door 
policy to keep problems in house--which is the correct method--
but not to solve those problems--which is an incorrect method--
then there has to be a level you can go to that the problem can 
be fixed. And my personal understanding of those problems going 
very high indicated that nobody was going to fix this. And I'm 
a leader. My wife reminds me I am a patient. Those kids--no 
offense to the service members--are going to get taken care of, 
period.
    Specialist Duncan. I feel the same way. You address it as 
high as you can until finally you get fed up with it and do 
what you have to do to get it done.
    Mr. Yarmuth. I am curious as to why in this particular case 
nobody along the chain of command reacted at all, apparently, 
to do anything about it, since you all had to go outside the 
system. What is it about the mentality there? Did everyone feel 
complicit in this? Helpless? I am curious as to why no one in 
the chain of command would have responded.
    Specialist Duncan. I guess their idea--they probably, as 
they already said, is we didn't know this was happening like 
this, and we didn't have any ideas. Correct me if I'm wrong, 
Sergeant.
    Sergeant Shannon. Sir, I feel the need to say this. They 
did respond, as I read my statement, of course. But the 
response was indicative of a broken system that is trying to 
survive. They fired a good man. They fired a few of them.
    Some of them may have deserved it. But I have to say First 
Sergeant Walker, the first sergeant of the medical holding 
company, is someone I have known for a while; and he has gone 
to bat for us on a daily basis. I would just personally like to 
apologize to him. He is a good man, and he didn't deserve it, I 
don't think.
    Now I am not privy and I don't have a right to know the ins 
and outs of his case. But a system that fires people down the 
chain, once again, in my opinion, is indicative of a system 
that is trying to protect itself whether it fixes the problem 
or not and, in my opinion, clearly not focused on fixing the 
problem.
    Mr. Yarmuth. About a year ago, I had a situation which I 
was on a plane talking to a man who had just come back from 
Washington and had visited Walter Reed with a friend of his. 
They were talking to a soldier who was from Lexington, KY, had 
been a postal worker, was in the Guard, was wounded and so 
forth. It was near Christmas time. His life had been disrupted, 
his financial stresses, and all those things that we are well 
aware of now. And this man to whom I was speaking asked him if 
there was anything he could do for his family or him for 
Christmas to make his life easier. He said, yeah, I would like 
some clean tee shirts, because it is very cold where I am, and 
they can't afford to give me clean tee shirts. And I kind of 
forgot about it at the time because you hear about Walter Reed 
and the extraordinary care that is provided here, and I thought 
it was kind of an aberration.
    I am wondering how trivial and how many of these situations 
exist? We have heard of, in the Post series and others, some of 
the more heinous situations with patients being lost and, 
obviously, the deaths that have occurred and so forth. At what 
level does this stop?
    [The prepared statement of Hon. John A. Yarmuth follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. The gentleman's time has expired, but one 
brief answer will suffice.
    Sergeant Shannon. I can't speak to levels, but when I have 
to get my Purple Heart in civilian clothing and show my Purple 
Heart to supply just so I can get my uniform, it is broken.
    Mr. Tierney. Thank you.
    Mr. Duncan.
    Mr. Duncan of Tennessee. Well, thank you very much, Mr. 
Chairman. I join the others in thanking you for calling this 
hearing, and I want to also thank former Chairman Davis for the 
great work that he did in this regard trying to at least start 
doing something about this.
    Let me say, first of all, though, that whenever any 
Government agency seems to screw up in some big way, the two 
things they always say, they always say that their computers 
and technology wasn't good enough or wasn't up to date, which 
they have far better technology throughout the Federal 
Government than most major private businesses. But, second, and 
most often, we hear the claim that they are underfunded.
    I think we need to point out that both the Defense 
Department and the VA--but particularly the Defense 
Department--have received massive increases in funding in the 
last 5 or 10 years, mega billions; and so this is clearly not a 
shortage or problem of money. The Congress has given huge 
increases to the Defense Department in recent years, and we 
have tried to say many times that we want plenty of money going 
for this medical care.
    I join all the others in saying this should be the highest 
priority, and I want to also join others in thanking each of 
you for coming forward.
    But, Mrs. McLeod, I notice you said that you thought that 
General Weightman might be a fall guy; and, Sergeant Shannon, 
you seem to be less critical of him, also. I believe he just 
came in August.
    But in one of the Washington Post stories it says 
Congressman Bill Young and his wife stopped visiting the 
wounded at Walter Reed--which they were doing I think on a 
weekly basis--out of frustration. Young said he voiced concerns 
to commanders over troubling incidents he witnessed that were 
rebuffed or ignored. When Bev and I would bring problems to the 
attention of authorities of Walter Reed, we were made to feel 
very uncomfortable.
    Beverly Young said she complained to Kiley several times. 
She once visited a soldier who was lying in urine on his 
mattress pad in the hospital. When a nurse ignored her, Young 
said, I went flying down to Kevin Kiley's office again and got 
nowhere. He has skirted this stuff for 5 years and blamed 
everyone else.
    Did you find that to be true, that everybody was blaming 
somebody else with the problems that you had? I'll ask each of 
you.
    Mrs. McLeod. I feel that everybody is passing the buck. You 
go to one and they say, it is not my problem. You need to go to 
so and so. I did everything but camp out. I mean, honestly, if 
I could get away with that, I probably would have done that, 
too.
    You can't keep looking and not getting answers.
    Mr. Duncan of Tennessee. Sergeant Shannon.
    Sergeant Shannon. It is difficult for me to speak about 
people passing the buck. It is something that does surprise me 
by virtue of the story coming out in the Post, because I didn't 
want to see anybody fired. I just want to see the problem get 
fixed. I work at my level. I am good at working at my level. I 
know that on a constant basis things were passed to higher.
    Mr. Duncan of Tennessee. Let me ask you this. The sub-
headlines in the main Washington Post story said that 
``bureaucratic bungling,'' and it says ``frustration at every 
turn.'' Do you think those are accurate descriptions of what 
you ran into?
    Sergeant Shannon. Absolutely. The bottom line is like a 
situation I know of a young man missing his entire right arm 
that the Army has seen fit to award 10 percent disability 
because he is going to receive 80 percent of the use of his arm 
with his prosthetic. Oh, yes, that is the bottom line, sir.
    Mr. Duncan of Tennessee. One of these stories says, General 
Kiley lives right across the street from Building 18, which is 
apparently the worst example of what is going on here. Did any 
of the three of you--did you see these top generals and the top 
brass here getting out and going around and observing what was 
going on? Or do you feel like they stayed isolated in their 
offices and just meeting with their staff people?
    Specialist Duncan. After the article came out, there was a 
lot of people visiting Building 18 and looking into it after 
the article came out. Before then, it was occasionally a 
commander come through, check on everybody, make sure things 
are going right. It wasn't like overwhelmed as it is now. But, 
before, it was just, you know, a few people going in, check on 
it, say, hey, how is everybody doing.
    Mr. Duncan of Tennessee. That is what I was talking about, 
was before the articles came out.
    Let me just--I know my time is about to run out, but let me 
say this. It is not just Members of Congress up here who are 
upset about this. I will tell you it is people around the whole 
country. They are very upset about this, and I think all of us 
are going to demand that action be taken.
    Thank you very much, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Duncan.
    Mr. Braley.
    Mr. Braley. Staff Sergeant Shannon, Mrs. McLeod and 
Specialist Duncan, thank you for your courage in coming here 
today and sharing your stories with us.
    I am here because my brother Brian works as a 
kinesthiotherapist at the VA Hospital in Knoxville, IA, taking 
care of patients every day; and I know that every Member who 
provides medical and psychiatric care to veterans is tainted by 
the stories we are talking about here today. Every person in 
the VA system should want these problems solved so that we get 
back to having pride in the facilities that take care of our 
veterans.
    One of the things that I am not at all shocked about is the 
fact that case managers may be playing a role in denying access 
to veterans to the benefits that they are entitled to, because 
I am familiar with the AMA guides to permanent evaluation. I am 
familiar with the DSM-IV criteria that are used.
    I have represented veterans and their families in life and 
disability claims, and one of the things that has been known 
for a long time is that case managers have two functions. One 
is to return a worker to the work force as quickly as possible 
and, two, to minimize the cost to the employer of returning 
them to work. Those don't work at the same level of advocacy 
that patients need.
    What I would like to know, is there anybody who serves the 
role as an ombudsman or as a patient advocate here at Walter 
Reed in assisting patients with these claims?
    Sergeant Shannon. My first experience with that--and I 
apologize, I talk too much. But my first experience was working 
with my initial PEBLO counselor, and he gave me all the 
information about, hey, you need to educate yourself about this 
process. Because once this is done, it is done; and if you miss 
something you are entitled to, it is gone.
    So, based on his knowledge of the system, I said, OK, well, 
tell me what I need to do or tell me who I need to talk to. He 
just had to smile at me and said, I don't know who to talk to. 
They are all retired and gone.
    At that point, I was no longer able to trust my PEBLO 
counselor in the process.
    Danny Soto, once again, is a person outside of the system 
who is knowledgeable of the system. He is someone we can trust. 
Because, based on what I consider an automatic conflict of 
interest, the PEBLO and the MEB/PEB process both work for the 
same organization, the U.S. Government.
    Mr. Braley. Mrs. McLeod, one of the reasons I am concerned 
about what we are hearing today from you is that part of the 
response to the problems here at Walter Reed was to propose 
adding 39 additional case managers to assist with the 
processing of these disability claims. And, to me, what we are 
talking about is a solution to the problems that you and others 
have shared, is making sure that there are people outside the 
case managers who are here to assist veterans and their 
families, negotiate the difficult process of qualifying for and 
receiving an official determination of whether or not they are 
entitled to disability benefits. Would you care to comment on 
that?
    Mrs. McLeod. My thing is, if the doctor feels it's 
necessary to run a test, it is not the case manager's job to 
second guess that. If it were, she would be in the doctor's 
place.
    I went to my husband's case manager. I begged her when, on 
April 19th, he was supposed to have--set up the MRI, to have it 
scheduled. He got that MRI June 23rd, when I took him myself. 
The case managers need to stop playing doctor, and they need to 
be case managers. They are supposed to get them where they need 
to go, schedule the appointments and stop questioning it. But, 
instead, his case manager got so upset at me she sent him home 
to keep from having to deal with him.
    But she got quick enough whenever I put in the resources 
that I did. She gave him a physical in her office.
    Now we are talking sanitary--have you seen those offices? 
The last thing you want to be doing is examining in the office. 
I won't tell you how mad I got, and I won't tell you the things 
that I said. But the treatment that she gave him, before I had 
her fired as his case manager, a dog wouldn't deserve it.
    Mr. Braley. Do the three of you know, does the JAG Corps 
provide any type of legal assistance to veterans who are 
processing disability claims?
    Sergeant Shannon. I don't know about processing disability 
claims, but the JAG has been very helpful here just in the 
course of my wife's vehicle being repossessed. The vehicle that 
I owned prior to going to combat and my not knowing--I couldn't 
remember who to send payments to and stuff after I was wounded, 
contacting those companies and in getting the message across 
that we have been wounded and give him some time to catch up.
    So I am not sure about processing claims, but they are 
there, and they have done good work for me.
    Mrs. McLeod. The only time I dealt with the JAG was during 
the episode where the guy tapped me--all our accounts when he 
saw my husband's identity. And they told me that it was not an 
issue for them, that I had to go through Finance.
    Mr. Tierney. Thank the gentleman.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Chairman, I want to thank you and Ranking Member Davis 
for your efforts in trying to ensure that we have quality 
medical care and the services that we need for our men and 
women who serve their country.
    Staff Sergeant Shannon, Mrs. McLeod, Specialist Duncan, I 
want to personally thank you for your service and what you have 
done not just in trying to ensure that there is appropriate 
care here but in making certain that the word is known as to 
what needs to be done. You have a great deal of courage, and 
you have certainly brought things to light that have saddened 
many people across the country.
    I know that you are aware that in the next panel and the 
third panel that we have people who are going to come and speak 
about this issue who have various degrees of accountability or 
various degrees of answers. We have General Kiley, General 
Weightman. We have General Schoomaker and General Cody. What 
would you like to hear from them and what type of questions 
would you like to hear them answer with the issues that you 
brought forward?
    Sergeant Shannon. On their level, at this point, this is 
about accountability.
    Like I said, you know, I am a firm believer in the Peter 
principle. Don't ask me to work in a job I am not qualified to 
do. This has no reflection on whether they are qualified to do 
it, but it reflects directly on my ability to speak to what 
they should do.
    I just want them to fix the problem. In fact, I personally 
got a little angry when Harvey resigned. Now I don't know how 
things work in Washington, DC, but in combat we don't get to 
resign when people--bullets are flying and people are dying.
    Now the way that reflects on this issue is that this is a 
political war, to some degree, on a daily basis; and when they 
are receiving political incoming rounds in the course of 
helping us or in the course of dereliction of duty in that 
requirement, they continue to fight for us until they are 
fired, pull themselves up by their bootstraps--like any 
sergeant would do--admit to their mistakes and work to fix them 
until they are fired.
    Mrs. McLeod. On my level, as far as the family members are 
concerned, I would like them to answer to the family, to say, 
we can guarantee--that is what I want. I want a guarantee that 
not anybody would have to go through what I went through, that 
we are going to listen and we are going to take charge.
    Specialist Duncan. I would like to hear them actually say 
that they are going to fix the problem and not just cover up--
what they are trying to do--cover up, trying to say, yeah, we 
are fixing Building 18, when all it is is paint and spackle. 
That doesn't fix. It just covers up. Just fix it like they are 
trying to do now. Just need to fix it from the ground up, get 
it fixed so it is fit to live in.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. Thank you for 
holding this meeting.
    I would like to thank the people who are testifying. I 
would like to thank all of those who served our country. We 
need to show our thanks. We need to show it through respect in 
the way we welcome our veterans and their families home, and we 
are not going a very good job, and that is why we are having 
this hearing today.
    I first became aware that the system at the VA level had 
challenges and was broken by being the daughter of a disabled 
veteran and watching benefits erode away, talking to veterans 
in my community about long waits, lack of equipment. They knew 
when they saw the overworked staff, however, they were going to 
get the best of care. But it was having the ability to see the 
staff.
    I am very concerned about a lot of issues, but I want to 
followup on one; and, if you don't mind, Staff Sergeant, I am 
going to quote from your full testimony.
    ``I have been lost in the system. I want to leave this 
place. I have seen so many soldiers get so frustrated with the 
process they will sign anything presented just so they can get 
on with their lives.'' By signing documentation without 
fighting for the benefits they have earned, they are agreeing 
in writing to the Army's determination of their benefits. And, 
as Mr. Lynch pointed out, the Army's only at 4 percent in 
determining benefits.
    We almost have no advocacy that is not working for the 
Government, no one that we can talk to about this process, no 
one who is knowledgeable and that we can trust who is going to 
give us fair treatment and informed guidance. The physical 
evaluation counselors, the MEB and the PEB, both work for the 
Government and have its interests at heart, not ours.
    Mr. Lynch had been quoting from a document that he had, and 
I would like to add a little more to what the Staff Sergeant 
just said in his own words and then ask a question.
    Each branch of the military provides for opportunities for 
injured and service members to challenge their ratings. Most of 
the injured simply pocket their severance checks and go home. 
Only 20 percent of the soldiers ask for formal hearings at 
which an attorney can present evidence and call witnesses. As 
the Army says, only half of those soldiers proceed with 
hearings. Perhaps that indicates most injured soldiers are 
satisfied with their ratings, but veterans groups say more 
wounded service members would challenge the ratings if it 
wasn't so complicated and time consuming.
    Most of those hurt in the line of duty are young, weary of 
fighting and anxious to return home to their civilian lives. In 
other words--these are my own words--the severance checks can 
look really quick and a lot less painful at times, not 
realizing the benefits that they have been signing away.
    I would ask you to tell us if you know of any pressures 
that you have either heard of or witnessed for people who sign 
away their benefits and what we need to do in order to make 
sure that veterans know--either by providing an ombudsperson or 
whatever--that their rights will be protected, we do welcome 
them home, and we do respect them.
    Mrs. McLeod. I know a soldier, fairly young, maybe early 
20's, was deployed. I took this soldiers under my wing whenever 
we met; and he was a great guy, very nice. He told his 
recruiter that he had an episode in high school, and the Army 
took him anyway. They sent him to Iraq. When he got back to 
Walter Reed, they diagnosed him with bipolar. But he was pre-
existent. The Army gave him 0 percent.
    This guy has nothing. He is trying to find his way back 
into society. They blame him for being what he was. But they 
gave him 0 percent.
    This is how we treat our soldiers. We give them nothing. 
But they are good enough to go and sacrifice their life, and we 
give them nothing.
    You need to fix the system, compensate where it is needed.
    This soldier needs care. Yeah, the VA treated him. But the 
VA will treat him according to his rating with the Army. 
Because this is the first thing they ask, what was your rating 
with the Army? You get a category.
    We were fortunate because my fight still continues. They 
knew me, first-name basis.
    Well, what about the ones that don't have me? What about 
the ones that don't have a wife or a mother or father that can 
stand up for them?
    If you are good enough to go, you are good enough to be 
taken care of when you leave here. We need to take care of 
those that took care of us.
    Mr. Tierney. Thank you, Ms. McCollum.
    Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman; and I want to thank all 
of the folks who are here today and all of our military people 
who are here for being willing to serve to protect our rights 
to be here.
    I am very interested in the issue of accountability; and I 
realize that, throughout our society, we have people who are 
unresponsive. We see it every day in the personnel in the 
Congress. I will tell you that there are people who work 
throughout Government agencies who don't always react the way 
they should react, particularly to other staff people.
    What I am interested in is, how do we fix the system? 
Casting blame doesn't do us any good if we aren't fixing the 
system.
    Sergeant Shannon, Mrs. McLeod, Specialist Duncan, do you 
have some specific recommendations to make? And you don't have 
to tell them to us today. But do you have any specific 
recommendations you can make on how the system can be better so 
that it is fixed? And I particularly am interested in how do we 
assign responsibility in order to have accountability? It seems 
to me that the biggest complaint you all have made is this 
passing-the-buck complaint.
    So how can we establish a system that says, you have been 
to someone, you have asked a question, it is, in your mind, the 
responsibility of that person to take care of that problem, and 
they don't do it.
    Unless we are willing to fire people who are either 
incompetent or unresponsive, then what alternatives do we have 
to try and to solve the problems that we are seeing?
    Sergeant Shannon. I believe I can speak directly to that 
based on the military system I have grown to know so well 
myself. Any noncommissioned officer can tell you that you don't 
just give people instructions to do things. You supervise them.
    A person can be getting close to a position where they need 
to be fired. However, with proper supervision, they can be 
brought back in line. This directly relates to priorities in my 
opinion. And the breaking of the story has changed priorities, 
and now things are getting done.
    The priorities of the people above--they need to be 
supervising what is done below them on a daily basis--can be 
changed so that they are not supervising at the level they need 
to be supervising at. If I was doing that at my level, I would 
be in danger of getting fired in my job.
    Like any system, whether it be a civilian or military, at 
the point where you are seeing somebody that is having a 
problem doing their job correctly, you counsel them; and if 
they still can't do it, you counsel them again. I believe it is 
three times, then they are fired.
    But that requires proper supervision, ma'am. If the 
supervision is not happening--so how can you counsel somebody 
when you are really not watching what they are doing?
    Mrs. McLeod. In my situation, for example, my husband went 
to a doctor. The doctor roughed him up pretty good. Finally, I 
wound up having to take him to the emergency room because he 
couldn't move for 3 days. We filed a complaint. When the 
patient rep called me, first, she wouldn't talk to me; and then 
my husband said, you need to talk to my wife. She can explain 
to you more.
    I told her what happened; and she asked me, she says, are 
you sure? I said, yeah, I wouldn't have filed the complaint if 
I hadn't been sure. She said, well, I am sorry on behalf of the 
hospital. Well, sometimes things like this happen.
    No, it doesn't happen.
    When they tell you that is all they can do, that is all 
they can do. We have doctors--let me specify, he has doctors 
that were so eager to fight for the system they made him able 
to move. They put him in the emergency room, but they made him 
able to move. Because they wanted to fight for the Army.
    We need to turn it around. We need to fight for the 
soldiers. The soldier is the reason you have a job.
    When they go to the case manager, there shouldn't be 
second-guessing. They should say, OK, we will put you where you 
need to be. We will get the doctor. When you go to the doctor 
and he says OK, we need to do this, you have to go back to the 
case manager. She has to set up everything. There shouldn't be, 
well, I will talk to the doctor. No problem. This needs to be 
taken care of.
    You need to start treating the soldiers like citizens, like 
the same representative anybody would want. You go to your 
doctor, you don't want him to second-guess you. You want him to 
find the problem. You want him to get a result. That is what 
you go to him for.
    That is exactly the same thing they need to do. They need 
to start at the very bottom first and find out why they can't 
do their job to the capacity they need to do. You need to work 
your way up the system. When you find the broken link, you 
either put some glue on it to fix it or you get rid of it.
    Mr. Tierney. Thank you, very much.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman; and thanks to each one 
of the witnesses for your outstanding testimony.
    If there are this many problems in Building 18, how about 
Buildings 1 through 17 or buildings with higher numbers? We 
need to make sure that we are getting to all the problems here 
at Walter Reed. Are there any other facilities or personnel 
issues that we need to know about?
    Specialist Duncan. From my understanding--I just got 
currently moved over to Building 14 myself as of Friday. Our 
complaint for people living in 18 didn't want to move because 
over in Building 18 we had free cable and computers downstairs. 
From my understanding, now they are moving TVs and computers 
over to Building 14.
    How long that is going to take, I am not sure. But they are 
just trying to make it better now from the issues we have had 
before.
    And everybody was comparing Building 14 with 18. There's no 
comparison. Building 18--honestly, I hate to say it--was like a 
ghetto. It was tore up. It had nothing. But it had stuff that 
we liked to have. Building 14 was a luxury, but it didn't have 
the same things we had over in 18, which now they are fixing. 
So, in my opinion, they are starting to make it look better.
    Everything is turning back toward the Mologne House. The 
Mologne House was like--if you had been in the Mologne House 
and you moved out, you hated it. But if you lived in the 
Mologne House, you were living the life. It was great. You had 
a kitchen downstairs. It was great. Had food and everything, 
ready to go. They are trying to make it better. I will give 
them that, but it is going to take a while for them to do that.
    Mr. Cooper. The U.S. Government under the so-called BRAC 
round has scheduled the closure of all of Walter Reed in a few 
years and to move everything over to the Bethesda campus. What 
opinion, if any, do you have about that shutdown of this entire 
facility and move over to the Bethesda campus?
    Specialist Duncan. Like I was telling the press, there is 
no reason--you can't use that as an excuse: ``we're closing 
down in a few years.'' There's still soldiers coming in today 
and tomorrow and the next day. That stuff needs to get fixed 
here now before those problems get worse for the new soldiers 
coming in.
    Myself, I have 2 months left here at Walter Reed. I am 
going back to my unit. I don't know how long Sergeant Shannon 
has. But I am sure, when he leaves, the guy behind him is not 
going to live in the same conditions or deal with the same 
problems that we are having now. Those need to get fixed before 
Walter Reed closes down. That is not an excuse.
    Mr. Cooper. I thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Cooper.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I want to thank all of the witnesses for testifying as well 
and add my voice to those who have thanked you and your 
families for your service to the country and the sacrifices you 
have made.
    As Mrs. McLeod said, you and your loved ones have been 
fighting a war. You shouldn't have to come back come here and 
fight a system. I think that is absolutely correct, and we need 
to make sure the system provides you the respect you need. What 
we have heard, unfortunately, is a system that has been 
providing more neglect than respect, at least with respect to 
outpatients that we are dealing with.
    As others have said, I think you have done a terrific 
service to the country. If you look at the front page of 
today's Washington Post, you will find that, because of the 
issues you have raised here at Walter Reed, others around the 
country who are facing similar circumstances will have their 
voices heard and will be empowered now. So you have done a 
great service not just here at Walter Reed but around the 
country as well.
    We all hear from time to time about those insurance 
companies that tell people, you know, we want to take care of 
you when you are in trouble and advertise as such. But when the 
time comes to pay claims for certain insurance companies, they 
are not there. They try and make their money and make their 
savings by denying claims. That is clearly not a model that we 
want the U.S. Government and U.S. military to be following.
    But from your testimony about your own personal 
circumstances as well as other stories as well as reports from 
the GAO and others, clearly, when it comes to disability 
claims, it does appear that the system has been stacked against 
individuals like yourselves and your loved ones. And Mr. Waxman 
quoted in a statement Mr. Chu made in 2005 suggesting that the 
health care we have to provide to our veterans is somehow a 
burden on the system that we somehow shouldn't be having to 
deal with.
    Let me ask you, with respect to the system itself, and GAO 
essentially has said--and I do want to mention their report--in 
conclusion, they issued a long report about the disability--
military disability evaluation system back in 2006. They 
concluded that DOD is not adequately monitoring disabililty 
evaluation outcomes in Reserve and Active Duty disability cases 
and said that there had been a lack of training, a lack of 
monitoring and a lack of oversight; and it is clearly an area I 
think this committee is going to be taking a look at and other 
Members of Congress, of the committees in Congress.
    Do you have any specific recommendations with respect to 
that disability system, which clearly seems to be designed more 
to essentially put an overwhelming burden on the individual 
seeking to show that their disabilities have been related to 
their service and not providing an ample opportunity for the 
individual? I don't know if you have any specific 
recommendations with respect to that process.
    Mrs. McLeod. Well, that process--like I said, we were 
fortunate, and we took the compensation because he got 50 
percent. The thing about it is, they never acknowledged that he 
has a brain injury. So they didn't compensate. They compensated 
for the cognitive disorder.
    My thing is, they are so busy trying to make everything 
acceptable--several things on his med board were acceptable, 
but yet they still retired him. How can everything be 
acceptable if you are going to be retired? That is a little 
contradictory to me.
    They gave him--for the anxiety and for the cognitive 
disorder, they gave him the 30 percent with the attitude in 
April of next year, when we have to come back, he is going to 
be better. Well, if he is better--which I really at this point 
don't see happening--if he is better, he will lose that rating. 
And guess what? He will get a severance package, and then he 
will have nothing.
    I don't think--if the injury warrants it, I don't think 
there ought to be a TDRL. The brain injury is permanent. What 
they have taught him is compensatory measures. If he hadn't had 
a brain injury, why were they teaching him compensation 
measures to help him out? That is contradictory again.
    My thing is, if you warrant compensation, it ought to be 
permanent, not something you have to bargain for 18 months down 
the road. And then we may not have insurance. Then we are going 
to have to get all his treatment at the VA.
    What about the families? What are they supposed to do? I 
don't have nothing. But all because we still have to bargain up 
to 5 years with the Army.
    He didn't bargain when he signed the line. He didn't 
bargain when he got injured. Why are you bargaining now?
    Mr. Tierney. Thank you.
    Mr. Van Hollen. Thank you.
    Mr. Tierney. Thank you.
    Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman. Thank you for holding 
these hearings and, to the witnesses, thank you so much. You 
have been very brave, and your courage is being heard around 
the country now. It is very important. What you have done in 
shedding light on what is going on here is very important, and 
I know that feelings that we feel hearing what you are saying 
are only a very small little piece of the feelings you felt and 
what you have gone through. So thank you for being here.
    Staff Sergeant Shannon, I want to ask you, you have talked 
about the help you got from Danny Soto. Do you think that there 
needs to be some independent office or agency that is committed 
to fighting for the soldiers in this system?
    Sergeant Shannon. Yes, I do. And, to clarify, I haven't 
received any help from Danny Soto yet. I have guided other 
people to him, and I am sure he has helped many others, but I 
have not been able to start the MEB process--excuse me--to make 
it easier to understand the medical retirement process because 
of the holdups I have gone through; and when I get to that 
point, I will be looking him up.
    Mr. Hodes. Thank you for that clarification.
    Mrs. McLeod, do you think there needs to be some 
independent office or agency that fights for the soldier in 
this system whose only duty is to the soldier and not to the 
system but to the soldier?
    Mrs. McLeod. I think you ought to stop giving it to 
committees and give it to the families. That is who you need to 
be talking to. Give it to the ones that have to deal with it 
day in and day out.
    Mr. Hodes. What do you think the best way for us to give 
that power, if you will, to the families would be, in your 
opinion?
    Mrs. McLeod. There needs to be a committee formed with a 
couple of spouses, a couple of people that have the power to 
get the things done. And there needs to be the a forum set up 
to say, OK, we will research the families and the situations. 
We know, because we have been there, and we need to set action 
into force. This is what they said they need. Weigh it against 
exactly where we are today and give them what they need, 
instead of sitting there waiting on somebody else to do it.
    Mr. Hodes. Specialist Duncan?
    Specialist Duncan. I don't have anything to say on that 
matter. I am not going through the same process as they are.
    Mr. Hodes. Staff Sergeant Shannon, your picture appeared on 
the front page of the Washington Post. Before your picture 
appeared, I understand that you were reporting to formation 
once a week. Is that correct?
    Sergeant Shannon. That is correct.
    Mr. Hodes. After your picture appeared, my understanding is 
you were ordered to report to formation daily, is that correct?
    Sergeant Shannon. That is correct.
    Mr. Hodes. And who gave you that order after your picture 
appeared to report daily to formation?
    Sergeant Shannon. Those instructions were passed on to me 
by my platoon sergeant. He said they came from the sergeant 
major.
    Mr. Hodes. And did you inquire about the reason for your 
being ordered to report to formation daily after your picture 
appeared in the Washington Post?
    Sergeant Shannon. I just follow orders.
    Mr. Hodes. Did you consider that retribution against you 
for going public with your story?
    Sergeant Shannon. I really couldn't say. They tell me to 
stay home because I tend to break things if I hang around much, 
and I don't work well in complex environments. So when they 
told me that, I am like, fine. So the next time I decide to 
break somebody's arm or smash a piece of furniture they just 
tell me to go back to my room again.
    Mr. Hodes. Specialist Duncan, have you experienced anything 
that you think might be retribution for your going public?
    Specialist Duncan. I can't say exactly, maybe, for sure, 
yes. I mean, all of a sudden moving of rooms, moving from 
building to building, just all of a sudden quickly--all I asked 
them to do is fix the walls, not move me a million times. I am 
tired of moving rooms. I have acquired a lot of bit of things 
being here for a year, and moving is not fun anymore. I am just 
tired of moving here and moving there. I just want them to fix 
it so I can deal with it.
    Mr. Hodes. Mrs. McLeod, you had to end up going to a Member 
of Congress to get help for your situation.
    Mrs. McLeod. Yes, sir. After that, I think they were afraid 
to retaliate.
    Mr. Hodes. Thank you. Thank you all very much.
    Mr. Tierney. Thank you, Mr. Hodes.
    Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. I just want to thank 
the witnesses. I am at the end of the line here, and I want to 
tell you that it has been a very moving experience for me to 
hear each of you tell your stories.
    My concern is that this is the tip of the iceberg. My 
concern is that there is a culture of disregard that has no 
place in how we treat wounded veterans. And my concern is that 
there is a lack of commitment to recognize the obvious, and 
that is that the cost of the war has to include the cost of 
caring for the warrior.
    I am going to yield the balance of my time because I 
appreciate that you have been answering lots of questions, and 
my questions have been asked and very eloquently answered. So I 
thank you for your service.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I, too, thank all of you for being here today; and, as I 
listened to your testimony, I just said to myself, this should 
not be happening in America. It sounds as if we have a system 
which should be in intensive care, and it appears we are 
putting band-aids on it.
    As I listen to you, I was just wondering, you know, in 
another hearing on another committee--I sit on Armed Services 
also--and we had Sergeant Shannon--and to all of you, in some 
testimony that there was a lack of psychiatrists and mental 
health people in the military and they were trying to find 
more. The mental health piece of the treatment here, how have 
you found that?
    Specialist Duncan. I have had no problem with it, sir.
    Mr. Cummings. Have you, Sergeant Shannon?
    Sergeant Shannon. Well, I have a big problem with their 
mental health thing. It is starting with their traumatic brain 
injury testing.
    OK, first of all, they told me I have no loss of cognitive 
function. Well, how can they do that if they give me a 
traumatic brain injury test in my opinion that my 6-year old 
son could pass because it is designed for severely 
traumatically brain injured people?
    I know myself, and I know I have paid a price for the brain 
injury I received. If they can't even take the time to balance 
scores from tests I could take that I have taken before and see 
what the difference is, I have a big problem with that.
    Now, the counseling and everything that they give, from the 
psychiatrists to the psychologists, PTSD counseling, I believe 
they are running a tremendous program. We have access to a 
program called polytrauma recovery, and it is a tremendous 
program run out of Washington, DC, VA. However, the biggest 
problem they have is none of the service members will receive 
benefit from that program until each individual soldier has 
reached a mental state where they were willing to go seek that 
treatment.
    Mr. Cummings. One of the questions I would ask some members 
of the Joint Chiefs of Staff in the other hearing went to the 
Bob Woodruff piece that ran on ABC News a few nights ago with 
regard to brain trauma and trauma to the head and how people 
can get treatment here at Walter Reed, for example, but then, 
when they go back to their rural areas or wherever they may go, 
small towns or wherever, that they were not able to get 
followup. So they find themselves going backward. Is that a 
concern of yours, Staff Sergeant?
    Sergeant Shannon. Absolutely. It is very much a concern of 
mine, beginning with the start of the process for seeking the 
treatment where I was told you are not a bad enough brain 
injury to need the polytrauma recovery. I got angry enough I 
had to get up and leave. Usually when I have gotten angry and--
well, I am a sergeant. Foul language starts coming out of my 
mouth. And that is a point where I know a trigger is coming and 
I am going to get violent. They told me I don't have a bad 
enough brain injury to need treatment.
    I have found out since then I am clearly a level two 
polytrauma recovery person. The point being that proper 
supervision would be the word that would have to be used in 
relation to that subject. They have discovered that men suffer 
post-traumatic stress disorder symptoms from concussive force 
to their heads. We get mortared every day over there, depending 
where we were working. Just because a guy has not got a visible 
injury does not mean he does not have PTSD.
    Mr. Cummings. What about you, Mrs. McLeod, with regard to 
your husband?
    Mrs. McLeod. When my husband was here, they gave him 
psychological evaluation and treatment all because they thought 
it was just a transition problem. I kept fighting and fighting. 
I knew there was something wrong. When they sent him to 
Virginia he was treated there as well.
    When he come back, he got so out of hand that a friend of 
ours who is also--her husband is a brain injury patient. She 
actually took him to her husband's psychiatrist, and that is 
how he got started with psychiatry. They never offered him any 
psychiatric treatment.
    Mr. Cummings. Let me say this, that--I have about 30 
seconds left--what I am hoping for is that we will not--not us 
but even other Congressmen--in 5 years will not be sitting here 
going through these same things. Hopefully, with Secretary 
Gates looking at the system and having the system revamped, we 
will be able to resolve a lot of these problems.
    We thank you very, very much for your service, and we can 
do better as a country. We must do better.
    Mrs. McLeod. Thank you.
    Mr. Waxman. Thank you, Mr. Cummings. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. And I thank 
you and Chairman Tierney and Ranking Members Davis and Shays 
for your courtesy. I am a member of the full committee, not of 
the subcommittee.
    I am very proud of this hospital; all my life, have been 
proud to have it in my district. I just want to say for the 
record, all the indications are that it is still the crown 
jewel, it is still the state-of-the-art hospital on the planet 
for treating soldiers like you.
    To say thank you for your service sounds so shallow after 
what you have gone through, both in battle and here, that I 
want to just move first to Mrs. McLeod, because thank you for 
your service must include you who have been, apparently, a 
volunteer caseworker with considerable family sacrifice, having 
to give up home and job to come here. I was very concerned when 
you said, What about those who don't have me? Because that is 
what I have been thinking as a mother the whole time. What 
about those who don't have Mrs. McLeod?
    May I ask, I mean, when you said you didn't even know, you 
weren't even informed when your husband was wounded, were you 
ever officially informed that he was wounded?
    Mrs. McLeod. No. No one from the Army ever picked up the 
telephone and called and said there has been an accident. 
Nobody called me. He called me himself.
    Ms. Norton. This, I think, points to the systemic nature of 
the problem. It begins on the battlefield and carries through 
throughout the life of the soldier.
    Let me ask you, all three of you roughly--you cannot know, 
you have not done a census, but you have been around this 
hospital--roughly what percentage of soldiers are here--without 
family--are here by themselves?
    Specialist Duncan. I would say maybe about 25 percent or 
so, maybe less. I have seen a lot of people here just by 
themselves.
    Ms. Norton. Twenty-five percent are here with family?
    Specialist Duncan. Without. Could be less.
    Ms. Norton. Without family. So 75 percent of the soldiers 
here have some family here; is that your sense as well?
    Sergeant Shannon. I don't know if I would go that high, but 
in the high range. One of the things that is being discovered 
right now is having a family member close during this time of 
recovery is incredibly beneficial to these soldiers as they go 
through this process. These people understand them. Sometimes 
they are not coherent, based on medications and things, and it 
takes someone with intimate knowledge of that individual and 
how they were on a daily basis before to understand some of 
what they are trying to get across and some of what they are 
going through based on their knowledge of them before.
    Ms. Norton. Mrs. McLeod, I appreciate what you said about 
leaving it to the family because families, obviously, want to 
take care of their folks. But the fact is, there are very few 
women like you here in the United States who give up everything 
to be here.
    I don't have much time, so I want to move on beyond 
accountability. They fired people, they knew they had to do 
something. I want to move to remedy, and given the systemic 
nature of the problem that a soldier's life may be on dozens of 
computers which don't talk to one another and the rest, I am 
not focused so much on long-term remedies because I think, you 
know, the Army can plunge into long-term remedies, and we have 
the same situation we have now. We learned, for example, that a 
soldier could come here and not know, not even be given a piece 
of paper at one point at least saying, OK, this is what you do, 
A-B-C, these are kind of short-term guidance that you would 
expect for any wounded soldier.
    You might not expect for Eleanor Holmes Norton, she is 
supposed to be able to know she comes to find a doctor. But let 
me ask you, given the systemic nature of the problem, whether 
or not a remedy might involve immediate assignment of people 
who have no--given what you have said about conflict of 
interest and the rest--no obligation to anybody but the soldier 
and how many such--not how many--but if that was to happen, 
should it be from veterans organizations?
    Mr. Tierney [presiding]. Who would you like to direct that 
question to?
    Ms. Norton. I would like to direct that to anyone who can 
give me--basically it is if you think the soldiers would be 
better treated if there were people outside of the system. The 
first people that occur to me are people from veterans 
organizations. Would those be people who would be most likely 
in the short term to be responsive to the needs you have 
discussed in your testimony?
    Mr. Tierney. Would one of you like to respond to that?
    Sergeant Shannon. No question in my mind. They have been 
through it. They need to be advocates for it. When it comes 
down to--well, like my total--being lost completely in the 
system when I went outpatient, when I complained about it, they 
informed me that I had spoken to someone within 24 hours of my 
arriving at the hospital. Anybody want to laugh? I was under a 
lot of medication. I have no knowledge of anybody speaking to 
me within that timeframe. In other words, they need to assess 
the patients and give a time, say, brief them when they go 
outpatient instead of when they arrive on an aircraft from 
Germany.
    Mr. Tierney. Thank you. The gentlewoman's time has expired. 
All time has expired for questioning. I want to thank you on 
behalf of all the committee members and everyone else, your 
willingness to come here, your commitments and sacrifices you 
have made as well. We all wish you a speedy recovery for those 
of you that are injured, and Dell as well, Mrs. McLeod, and to 
you, your situation. Your coming here is a continuation of your 
service. I think you have really benefited others that will 
come through here and others that are presently in the system 
somewhere, and hopefully we will be able to take your testimony 
and work toward improving situations as well.
    So with that, we thank you very, very much. We will allow 
you to take your leave now and step down. We appreciate all of 
your time and commitment. Thank you.
    Now we will invite our second panel also to take the seat 
as soon as they can.
    Mr. Tierney. Thank you and welcome, all of you. I would 
like to begin by introducing our panel. On this panel we have 
Lieutenant General Kevin Kiley, M.D., the Surgeon General of 
the Army and the past commander at Walter Reed. We have Major 
General George Weightman, former commander of the Walter Reed 
Army Medical Center and North Atlantic Regional Medical 
Command. We have Ms. Cynthia Bascetta, the Director of the 
Health Care Department at the U.S. Government Accountability 
Office.
    Welcome to you all. Thank you for coming today. As you 
heard before, it is our policy of the subcommittee to swear you 
in before you testify. And I would ask you to rise and raise 
your right hands, please.
    [Witnesses sworn.]
    Mr. Tierney. The record will reflect that all of the 
witnesses answered in the affirmative. And with that, if we 
might, I would like to ask each of you to give a brief summary 
of your testimony. Your full testimony will be entered in the 
record. You have 5 minutes. Obviously we will try to keep it as 
close to that time as we possibly can. And we will try to give 
you some indication that you are nearing the end if we can. So 
we will start with General Kiley, please.

  STATEMENTS OF LIEUTENANT GENERAL KEVIN C. KILEY, M.D., U.S. 
   ARMY SURGEON GENERAL; MAJOR GENERAL GEORGE W. WEIGHTMAN, 
  COMMANDER, WALTER REED ARMY MEDICAL CENTER; AND CYNTHIA A. 
BASCETTA, DIRECTOR, HEALTH CARE, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

      STATEMENT OF LIEUTENANT GENERAL KEVIN C. KILEY, M.D.

    General Kiley. Mr. Chairman, Mr. Shays, Mr. Waxman, Mr. 
Davis and distinguished members of this committee, I am here 
today to address your concerns about the quality of care, the 
quality of administrative process, and the quality of life for 
our wounded warriors here at Walter Reed Army Medical Center 
and across all of our Army.
    I am Lieutenant General Kevin Kiley. I am the Surgeon 
General of the U.S. Army and the Commander of U.S. Army Medical 
Command. And as a commander, my first responsibility is for the 
health and welfare of my soldiers. As a physician, my first 
responsibility is the health and welfare of my patient.
    As we have seen over the last several days, the housing 
condition here in one of the buildings here at Walter Reed 
clearly has not met our standards. And for that I am personally 
and professionally sorry. And I offer my apologies to the 
soldiers, the families, the civilian and military leadership of 
the Army and the Department of Defense and to the Nation.
    It is also clear that the complex and bureaucratic 
administration systems that support the Medical Evaluation 
Board and the Physical Evaluation Board are complex and demand 
urgent simplification.
    I am dedicated to doing everything in my power and 
authority to bring a positive change to this process. Simply 
put, I am in command. And as I share these failures, I also 
accept the responsibility and the challenge for rapid 
corrective action. We are taking immediate actions to improve 
the living conditions and welfare of our soldier patients, to 
increase responsiveness of our leaders and the medical system, 
and to enhance support services for families of our wounded 
soldiers. We are taking action to put into place long-term 
solutions for the complex bureaucratic medical evaluation 
process that is impacting on our soldiers.
    Living conditions in Building 18 at Walter Reed are not 
acceptable. We are fixing them now. And as of this morning, we 
have moved out all but six soldiers to other, better 
accommodations on the campus.
    Although Walter Reed base operations staff has corrected 
some of the things that you have seen in the paper, we are 
taking immediate action to begin more extensive renovations of 
the roof, the exterior. We are going to remodel the bathrooms, 
put new carpets, new air conditioning units into this facility 
to bring it up to what we consider to be acceptable standards.
    Lieutenant General Bob Wilson, the commander of the 
Installation Command, and I have sent a team out across 11 or 
so installations to look at similar bureaucratic, 
administrative, and clinical conditions and infrastructure 
conditions to ensure that our other installations do not have 
issues associated with here at Walter Reed. So we know that we 
have had some mortar problems and we are fixing them.
    But we have human problems here, too, and this is about 
soldiers and their families. America's soldiers go to war and 
they are confident that if they are injured, they will be 
returned to a first-class medical facility. It is said that a 
soldier won't charge an objective out of the sight of a medic. 
For us it is the 68 whisky, and there is a connection between 
that 68 whisky on the battlefield, the transportation system, 
the air-vac system, Landstuhl Regional Medical Center, Walter 
Reed and the rest of our facilities that is unbroken. And 
nothing can be allowed to shake the confidence in that system, 
including the superb performance of Walter Reed and ensuring 
that our soldiers are cared for.
    Secretary Gates has made it very clear that he expects 
decisive action, and he and our soldiers will get it. You know, 
the system that we use to decide if a soldier is medically fit 
for continued service or, if not, determine the appropriate 
disability system and transferring him to the VA is complex, 
confusing, and frustrating. What we have realized over these 
last 4 to 5 years is the nature of the injuries these soldiers 
receive is also very complex. And I will talk about that in 
just a minute.
    The tactics, techniques and procedures we use in the 
asymmetric battlefield are required to be changed to adjust to 
our enemies. The procedures that we use in our medical system 
need to be changed appropriately as we see the circumstances 
surrounding our soldiers and their disabilities change. And 
what we really need to do, in my opinion, is to make this whole 
process less confrontational, less adversarial.
    To meet the human factor changes, we are making some 
adjustments here at Walter Reed. I think you have heard some of 
that already. We are bringing on more nurses, case managers, 
more Physical Evaluation Board liaison officers and more 
physicians to review medical cases. This will lower the case 
ratio for case managers, improve communications and speed the 
processing of paperwork.
    We really need to reinvent this process, and we have a team 
now looking at interanalysis of the MEB process, the PEB 
process, to see if we can better improve it. The two most 
common complaints we hear from soldiers about the MEB/PEB 
process is that we take too long or we rush soldiers through. 
So we need to be very careful to simultaneously provide 
soldiers the very best medical care that modern science and 
medicine in America can offer, while at the same time ensuring 
that the rights of those soldiers to a full and equitable 
analysis is protected, and we will be very careful to protect 
the quality of the care and the fair assessment of soldier 
disability. We want all these soldiers to return to their units 
or to their homes as quickly as they can. But we want them to 
benefit from the full capability of modern medicine. We want to 
do it right.
    Your Army medical professionals have earned a tremendous 
reputation during this war. The marvels of modern technology 
have allowed us to bring more soldiers off the battlefield, 
increase their survival rates. The training of our combat 
medics and our frontline surgeons, the equipment we have 
placed, as I referenced earlier, our Air Force counterparts and 
their CCATT teams, moving soldiers, sailors, airmen and marines 
around the world is unprecedented. We can bring soldiers from 
the battlefield to this great facility in 36 hours or less.
    Mr. Tierney. General, your comments are going to be put on 
the record, so if you can help us by just concluding.
    General Kiley. I will, sir.
    In summary, I would say the staff here at Walter Reed, the 
technology we have applied, and the unwavering support of 
Congress and the American people have made all this happen. It 
is regrettable that it took the Washington Post to bring some 
of this to light, but in retrospect, it will help us accelerate 
the process of making change and improving things.
    I am committed personally to regaining the trust of the 
American people, the soldiers and their families everywhere 
that our Army medical department system can be trusted and that 
it is the best in the world. I have served in the Army for 30 
years as a physician and soldier, taking care of patients and 
serving our Nation. And I remain honored to command and lead 
the great men and women of the Army Medical Department. Thank 
you, Mr. Chairman.
    Mr. Tierney. Thank you.
    [The prepared statement of General Kiley follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. General Weightman.

         STATEMENT OF MAJOR GENERAL GEORGE H. WEIGHTMAN

    General Weightman. Thank you, Mr. Chairman, Congressman 
Waxman, Congressman Davis, Congressman Shays, distinguished 
members of the committee, I appreciate the opportunity to 
appear today to discuss the problems about which we are all 
concerned, brought to light at the Walter Reed Army Medical 
Center.
    I am Major General George Weightman and I commanded the 
North Atlantic Regional Medical Command and Walter Reed Army 
Medical Center from August 25, 2006 until last week. Secretary 
of Defense Gates, all of our Army leaders, and you have called 
this a failure of leadership. I agree. I was Walter Reed 
Commander, and from what we see with some soldiers' living 
conditions and the administrative challenges we faced and the 
complex Medical Board/Physical Evaluation Board processes, it 
is clear mistakes were made, and I was in charge. We can't fail 
one of these soldiers or their families, not one, and we did.
    There is another point on which I believe we should agree, 
because it is important that the American people and our 
soldiers in harm's way believe that both inpatient and 
outpatient medical care delivered by the professional health 
care team at Walter Reed are superb. There are not two separate 
medical systems of care at Walter Reed. Outpatients are seen by 
the same doctors and nurses as the inpatients. Outpatient 
medical care is not second class. It is on a par with our 
inpatient care. You have seen this on your visits, and our 
soldiers and families deserve it.
    Having said that, I acknowledge there are problems and 
frustrations with a process of accessibility and following up 
on that outpatient care, and we are aggressively seeking ways 
and implementing solutions to make that system more responsive, 
more efficient, more effective and more compassionate.
    We do not see where some of these soldier-patients were 
living, and we should have. There are 371 rooms on Walter Reed 
where we house our outpatients at Walter Reed; 26 rooms in 
Building 18 were in need of repairs. We should not have allowed 
that to happen, because our soldiers deserve better, and it is 
important to their overall rehabilitation and well-being which 
is entrusted to us.
    Also, we do not fully recognize the frustrating 
bureaucratic and administrative processes some of these 
soldiers go through. We should have. And in this I failed.
    Over the last 2 weeks, we have heard of problems from 
months and years ago, many of them individually fixed 
immediately, but we obviously missed the big picture because 
not one of those soldiers deserves to be satisfied. I am 
disappointed that I will not be able to continue and lead the 
changes we must make to care for these soldiers and their 
families but I respect the Army's decision. I retain and I hope 
that you would share the confidence in the abilities of the 
Army leaders' commitment and the Army Medical Department, 
wonderful health care professionals who care for soldiers and 
create the innovative and long overdue process changes that we 
all agree are needed.
    Thank you, Mr. Chairman, for holding this hearing. I hope 
my testimony today will allow us to address these problems and 
start to reaffirm America's confidence in Walter Reed Army 
Medical Center.
    Mr. Tierney. Thank you sir.
    Ms. Bascetta.

                STATEMENT OF CYNTHIA A. BASCETTA

    Ms. Bascetta. Mr. Chairman and members of the committee, 
thank you for inviting me here today to discuss GAO's work on 
the challenges encountered by soldiers who sustained serious 
injuries in service to our Nation. Our work has shown the array 
of significant medical and administrative challenges these 
soldiers face throughout their recovery process as they 
navigate the DOD and VA health care and disability systems.
    As you know, blasts and fragments from IEDs, landmines, and 
other explosive devices cause about 65 percent of their 
injuries and many more of the wounded are surviving serious 
injuries that would have been fatal in prior wars. But the 
miracle of battlefield medicine is also the enduring hardship 
of the war borne by the soldiers and their families. Following 
acute hospital care, their recovery often requires 
comprehensive inpatient rehabilitation to address complex 
cognitive, physical, and psychological impairments. This exacts 
a huge toll on the patients and their families.
    My testimony today is based on conditions we found during 
the time of our audit work regarding problems with the sharing 
of medical records, provision of vocational rehabilitation, 
screening for post-traumatic stress disorder and military pay.
    In 2006 we reported that DOD and VA had problems sharing 
medical records for service members transferred from DOD to VA 
polytrauma centers. These VA facilities were mandated in 
statute to help treat seriously injured Active Duty service 
members returning from Iraq and Afghanistan. Yet two VA 
facilities lack realtime access to electronic medical records 
at DOD facilities. VA physicians reported a time-consuming 
process involving multiple faxes and phone calls to get 
information they needed to treat their patients. I emphasize 
that these are patients still on Active Duty, not veterans.
    About 3 weeks ago, it was reported that DOD cutoff VA 
physicians' access to DOD medical records because the two 
bureaucracies had not finalized data-use agreements. It is hard 
to fathom such action and the potentially adverse effects that 
it could have had on patient care.
    In 2005 we reported that seriously injured soldiers may not 
be able to benefit from early intervention services provided by 
VA. GAO put Federal disability programs on its high-risk list 
in part because they lack focus on returning people with 
disabilities to work. The importance of early intervention for 
restoring injured persons to their full potential is well 
documented in the literature. But DOD expressed concerns that 
VA's efforts to intervene early could have conflicted with the 
military's retention goals.
    Meanwhile, soldiers treated as outpatients in military or 
VA hospitals were waiting months for DOD to assess whether they 
would be able to return to Active Duty. We recommended that VA 
and DOD collaborate to reach an agreement for VA to have access 
to information that both agencies agree is needed to promote 
recovery and return to work, either in the military or in the 
civilian sector.
    Also in 2006 we reported that DOD screen service members 
for PTSD as part of its postdeployment health assessment, but 
could not reasonably assure that those who needed referrals 
received them. We found that only 22 percent of those who may 
have been at risk of developing PTSD had been referred for 
further mental health evaluation. DOD had not identified the 
factors its clinical providers used in making referrals but 
concurred with our recommendations to do so.
    As early as 2004 we also reported that officials at six out 
of seven VA facilities were concerned about meeting an 
increasing demand for PTSD services from new veterans returning 
from the war. They estimated that giving priority to these 
veterans, as they had been directed to do, could delay 
appointments for veterans already receiving PTSD services by up 
to 90 days.
    Compounding their health and rehabilitation struggles, we 
reported to this committee in 2005 and 2006 that problems 
related to military pay had resulted in overpayments and debt 
for hundreds of sick and injured soldiers on Active Duty and in 
the National Guard and Reserves. Hundreds of combat-injured 
soldiers were pursued for repayment of debt incurred through no 
fault of their own, including at least 74 who were reported to 
credit bureaus and collection agencies.
    As a result of our audit, we understand that manual 
overrides are in place to help prevent this problem but that 
the underlying payment systems have not been fixed. We also 
found that administrator problems had caused some injured 
Reserve component soldiers to be dropped from Active Duty. And 
for some, this led to significant gaps in both pay and health 
insurance.
    In summary, I would not want to overlook the dedication and 
compassion of the many providers we have met at DOD and VA 
facilities throughout the course of our work. But the 
cumulative message from our body of work is that too often our 
wounded soldiers have been poorly served or are at risk of 
falling through the cracks of the two bureaucracies responsible 
for their health and well-being. I would be happy to answer any 
questions you might have.
    Mr. Tierney. Thank you Ms. Bascetta.
    [The prepared statement of Ms. Bascetta follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. General Kiley, I understand that you might 
have some time constraints. We can either address questions to 
you and go through a round and then go back to the other two 
panelists or, if you can, can you stay and we will deal with it 
as a panel?
    General Kiley. Sir, I am at your discretion, however you 
would like to do that.
    Mr. Tierney. Thank you.
    General Kiley, you were in charge of this facility at 
Walter Reed from 2002 to 2004.
    General Kiley. That is correct; yes, sir.
    Mr. Tierney. How many months were you here altogether?
    General Kiley. I believe I assumed command in June, so it 
was just about 24 months.
    Mr. Tierney. Two full years.
    General Kiley. Yes, sir.
    Mr. Tierney. Following you, was it General Farmer?
    General Kiley. Yes, sir.
    Mr. Tierney. He was here from 2004 to July 2006.
    General Kiley. Yes, sir. Early August, I think.
    Mr. Tierney. Then, General Weightman, you came in July 2006 
to March 2007, a relatively short period of time compared to 
your predecessors.
    General Weightman. Yes, sir.
    Mr. Tierney. General Weightman, when you came in--platoon 
sergeants, case managers, there was a significant gap in the 
ratio; there were a lot of soldiers, 125, 130 to each platoon 
sergeant. Is that correct?
    General Weightman. No, sir. That is not correct.
    Mr. Tierney. What was the number that was there?
    General Weightman. The ratios that you cite were present 
when we peaked out of our MedHold--MedHold population in the 
summer of 2005.
    Mr. Tierney. Before you even came?
    General Weightman. Yes, sir. And at that point we realized 
we only had one company to take care of all those soldiers. In 
January 2006, just a little over a year ago, a second company 
was created and that is when we split out the Active Duty 
wounded warriors into the Medical Hold Company, and that is 
when the ratio dropped down from 1-to-125 to 1-to-50-to-55 for 
the Active Duty soldiers and for the Med Holdover soldiers. 
Reserve component soldiers, that ratio is 1-to-25.
    Mr. Tierney. Thank you, sir. You were quoted in one of the 
articles that appeared, saying that you had also ordered your 
staff to focus on the high-risk priorities such as PTSD. Was 
that not the case before you made the order, the focus wasn't 
at a level you wanted it to be?
    General Weightman. Sir, it became apparent to me that we 
need to focus on two different groups. We need to focus on the 
groups that had been here the longest to see why they had been 
here so long and if it was bureaucratic or clinical hurdles 
that they were still facing. And there was another group that 
we found that had either history of substance abuse, behavioral 
health issues, domestic violence, or alcohol abuse that we 
wanted to keep a very close eye on to make sure that they got 
the care in an expeditious manner that they could.
    Mr. Tierney. None of these things were new to your watch, 
though. These situations had been as predominant on General 
Farmer's watch and, presumably, before that as well. Correct?
    General Weightman. Yes, Mr. Chairman.
    Mr. Tierney. At some point in time, General Weightman, the 
Garrison Commander Peter Garibaldi, I believe, sent an internal 
Army memo to you talking about a situation here with 
competitive sourcing initiative, the President's initiative 
allowing the Office of Management and Budget under what they 
call the Circular 76 to--I am sorry?
    Mr. Davis of Virginia. A-76.
    Mr. Tierney. A-76. Allow you to bid out the private 
contractors, let them submit a bid in competition with the 
Federal employees in that process. And I think some of us were 
looking at that memo and we are a bit disturbed because it 
seemed to call to your attention the issue of reduction in 
force, reduction in those employees that was a pretty 
substantial falloff. And the commander's comments to you were 
basically that there was a great risk to the whole operation 
here as a result of that sharp decline. He warned that the 
workload had grown exponentially since September 11, obviously, 
because of the wars in Iraq and Afghanistan; that without 
favorable consideration of the request for increased staff, 
that the entire base operations of patient care services are at 
risk of mission failure.
    Can you tell us what led up to his writing that memo to 
you; and then what action you took with respect to that memo 
and what response as you put that up the chain occurred?
    General Weightman. Yes, Mr. Chairman. The A-76 process has 
been going on for, I think, about 3 or 4 years here at Walter 
Reed and it has been bounced back and forth who wins that 
contract; whether the government does or the independent 
contractor. As a result, I think that not knowing what was 
going to be in the future has affected the work force and 
particularly the one on garrison operations.
    When Colonel Garibaldi floated that memo to me, it was 
outlined where and what areas that we were at greatest risk. We 
passed that memo up to our headquarters, and got support from 
them. However, I will add at that point that about that same 
time, or within a month or two after passing that memo up, we 
got support for that, but we were not able to hire the 
additional workers that we requested because the contract had 
been awarded to the contractor as opposed to government 
services. And previously the government had performed all those 
services itself. So we had trouble attracting all the necessary 
people that we needed to those positions.
    Mr. Tierney. It is reported, General Weightman, that in 
September 2004 the Army actually determined that the in-house 
Federal work force at Walter Reed could perform the support 
services at a lower cost than the bid that was received from 
the outside contractor, which is IAP Worldwide Services. 
Despite that, there was an appeal taken, and we have seen no 
record of why this happened, but apparently when certification 
of the Federal employees was withdrawn, unilaterally the 
employee bid was raised about $7 million dollars and the 
determination was reversed in favor of the private company, 
IAP.
    Can you tell us about that process and what happened there?
    General Weightman. No, sir I cannot. That happened before I 
came.
    Mr. Tierney. As a result of that, a number of people, at 
least according to this memo, went from about 300 people down 
to about 60 on February 3, 2007. Did you see your personnel 
decline to that degree?
    General Weightman. Sir, not to that degree. They did 
decline from a work force normally of about 190, it declined to 
close to 100. It did not get down to 60 but it did get down to 
100.
    Mr. Tierney. General Kiley, did this process of the 
competitive sourcing initiative happen on your watch?
    General Kiley. Yes, sir. It began on my watch and then the 
issues of awarding the contract first to the MEO and then the 
appeals was after I left Walter Reed, took command of MEDCOM.
    Mr. Tierney. So you were not there when the reversal of 
determination came over from the Federal employees to the 
private contractors?
    General Kiley. I think that was in the fall of 2004, sir, 
and I was not the commander then.
    Mr. Tierney. So where is General Farmer these days?
    General Kiley. Sir, he is retired.
    Mr. Tierney. Would it have been on his watch then that 
whole process would have played out, and at some point the 
private contractor would have been given the award of $125 
million over 5 years?
    General Kiley. Yes, sir. Under the direction of the Army 
and contracting services that managed those, and I don't know 
specifically the name of that, General Farmer would not 
specifically make the decision as to who to award the contract 
to. Those decisions are made, I believe, by the Army, not by 
us. If I am correct.
    Mr. Tierney. Mr. Shays.
    Mr. Shays. I would like Mr. Davis to go.
    Mr. Davis of Virginia. I think these problems are far more 
systematic than going back to an A-76 or anything else, or even 
some of the things happening just right here on the post. What 
you have is a number of stovepipes. You have the Army not 
talking to the VA. You have the National Guard and the Army not 
speaking to each other and people are falling through the 
cracks.
    Ms. Bascetta, would you agree with that?
    Ms. Bascetta. Yes, sir, I would.
    Mr. Davis of Virginia. These are systemic problems and 
really we have known about these problems for years, haven't 
we?
    Ms. Bascetta. That is correct.
    Mr. Davis of Virginia. This recent manifestation really 
shouldn't surprise anybody. In fact, when I look back at a 
memorandum of October 12, 2006--this is after Walter Reed 
officials were asked to attend our committee's quarterly 
briefing on medical holdovers--I requested a copy of the 
Assistant Secretary's analysis and review, their SAR report. 
This review was conducted by individuals from all of the 
medical commands involved in all of the processes, including 
installation management. It clearly indicates the review teams 
had concerns with Building 18's ability, staffing, the soldiers 
handbook, training, outprocessing, separation transition, 
patient transportation and the Medical Evaluation Boards. 
Attached to the review is a memo that was signed by Colonel 
Ronald Hamilton, the commander, that indicates that you, 
General Weightman, and General Kiley, received a copy of this 
review in October. Do you remember receiving a copy or being 
briefed on it?
    General Weightman. Yes, sir, I do.
    General Kiley. I believe I did, yes, sir.
    Mr. Davis of Virginia. It really wasn't the Washington 
Post. You knew these were problems. You may not have known 
specifically what it looked like, and you may not have been 
able to put faces and stories behind it, but this was an 
ongoing concern, wasn't it?
    General Kiley. Well, yes, sir. And it was not just at 
Walter Reed. We were concerned about, you know, Medical 
Holdover operations and Medical Hold operations at all of our 
installations.
    Mr. Davis of Virginia. What did you do when you saw this 
report in October? We know what you are doing now, after you 
saw the Post articles. What did you do in October to try to 
stay ahead of it?
    General Kiley. My staff informed me that the Walter Reed 
staff was working it, that they recognized that there were 
issues and that they were taking action.
    General Weightman. Sir, may I address some of the specifics 
on that? We realized that some of the problems with how long it 
took our patients to get through the medical board process, 
that we needed more physicians trained in the MEB process and 
to help move those records. So we added three different 
physicians, part time, to work on those records, and we also 
designated an 06, a colonel, to be in charge of that whole 
process.
    We also recognized we didn't have enough of the PEBLO 
counselors available--and I think you have already heard from 
previous testimony their role in counseling and being the 
patients' advocate in this whole process--realized that they 
needed more training and they were inadequate in number. So we 
have increased those and that started after this report. We 
also realized that we didn't have enough of the case managers 
as well to work with the patients within the Medical Hold and 
Medical Holdover Companies. And we began active recruiting 
efforts for those as well.
    Mr. Davis of Virginia. General Kiley, you are no stranger 
to this committee. You came before us in 2005. During your 
testimony at that point you assured us that improvements were 
being made to the Medical Holdover process. This was at the 
point where we had numerous soldiers come up and talk about how 
they had fallen through the process, how they languished; their 
orders would be they would leave from the Army and go back to 
the Guard and they were in kind of a limbo. And you reported 
that point, you stated, under oath, MHO soldiers can expect 
their treatment and recovery experience to meet or exceed that 
of the Active component, because the Army's Surgeon General has 
made their care at the medical treatment facilities top 
priority.
    That was your position at that point.
    General Kiley. Yes, sir.
    Mr. Davis of Virginia. But it didn't happen, did it?
    General Kiley. Sir, in my role as the MEDCOM commander, 
Walter Reed was not my only command--Southeast Regional Medical 
Command, Brooke, and Tripler. In my discussions routinely with 
my senior commanders, we discussed the issues of Medical 
Holdover processing because we had often heard--I had heard, as 
the Walter Reed commander, that our Reserve and National Guard 
soldiers felt like they were not getting the same priorities as 
Active Duty. So I made it clear that, at a minimum, there would 
be no difference. And in many cases these soldiers, because 
they were staying at our camps, posts, and stations instead of 
going home, there was a sense of urgency to get them to the 
head of the line, to get the evaluations done.
    And my comments about a good news story was the numbers of 
soldiers that we were able to heal and return to the force on 
the order of magnitude of about 80 percent of those soldiers in 
Med Holdover.
    So my take on this and my comments to your committee were 
that, while we have problems, and we continue to have those 
problems, we were still caring for and healing and returning to 
the force a large number.
    Mr. Davis of Virginia. General, our problem I think is a 
systemic problem that we have more people coming back than was 
anticipated. We have antiquated systems integrating the 
Reserves and the Guard and the Army back and forth. It is a 
paperwork nightmare. It is a labyrinth that you would need a 
Ph.D. and law degree and you still can't navigate yourself 
through, and the frustration of these poor injured veterans 
coming back. This is systemic. I am afraid this is just the tip 
of the iceberg, that when we go out into the field, we may find 
more. Ms. Bascetta.
    Ms. Bascetta. I think that is--certainly from our work, it 
would warrant a top-to-bottom review of the situation across 
the country.
    Mr. Davis of Virginia. Keep putting a Band-Aid on 
something. It needs a complete overhaul it seems to me.
    Mr. Tierney. I thank the gentleman. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. General Kiley, 
according to a Washington Post article on Saturday, former Army 
Secretary Francis Harvey described a telephone conversation 
that he had with you, and he said that after the Walter Reed 
story broke in the Washington Post, you called him and 
lambasted the Washington Post reports of squalid conditions, 
and you said the Post story was yellow journalism at its worst.
    Did you tell the Army Secretary that you felt The Post 
story was yellow journalism at its worst?
    General Kiley. Sir, I had as I remember a couple 
conversations from the start of the publication of the Post 
with the Secretary. I believe one was in person. I had a 
discussion with him over an article in the Army Times where he 
asked me to call him back. And I called him back, told him I 
would go through that. And then I had a discussion with him 
when he called me----
    Mr. Waxman. Whatever discussions you had with him, did you 
say to him that report was yellow journalism at its worst?
    General Kiley. I don't believe my comment--my comment to 
the Secretary about yellow journalism was directed at the 
larger report, but a follow-on article that took a series of 
facts that included me and began to say that, you know, what 
did I know and when did I know it, and I didn't think that was 
necessarily a fair article.
    Mr. Waxman. You are talking about the Washington Post 
articles?
    General Kiley. All of them. Yes, sir.
    Mr. Waxman. OK. Are you denying the accounts of the 
soldiers in the Post article or what happened to these 
soldiers?
    General Kiley. No, sir. No, sir.
    Mr. Waxman. And then what were you outraged about?
    General Kiley. I was disappointed that the articles 
characterized the fact that I had been in command from 2002 and 
that I was aware of some of the circumstances that the Post was 
revealing in its stories in 2005 and 2006, and that somehow I 
had known about them. And other parts of that article that I 
didn't think were accurate.
    Mr. Waxman. So after you left--when did you leave?
    General Kiley. I left in 2004.
    Mr. Waxman. After you left, you didn't know what happened 
here?
    General Kiley. No, sir, that is not correct. But I was the 
next higher commander. I had a two-star commander in command, 
managing Walter Reed as well as the North Atlantic Region, and, 
as with General Weightman, we had routine videoconferences to 
talk about issues not just related to Med Holdover but to the 
BRAC, to A-76.
    Mr. Waxman. You had these conversations complaining about 
how you were treated in the articles. Did you say in any of 
your conversations, we have to do something, we have to 
investigate this problem and straighten it out?
    General Kiley. I am sorry. To who, sir?
    Mr. Waxman. To the head of the Army with whom you talked.
    General Kiley. Oh, to Secretary Harvey?
    Mr. Waxman. Yes.
    General Kiley. Yes, sir. We talked about getting engaged 
and finding out what was going on, getting an action plan 
together to fix those immediate problems we could fix and 
starting to look at the long-term issues, some of which we had 
already been taking on, to include my TBI task force, mental 
health task force, and issues at looking specifically at the 
MEB/PEB process.
    Mr. Waxman. Now, the chairman asked about this contracting 
out. And this contracting out, according to the memo that was 
prepared--which I presume you saw, is that correct?
    General Kiley. Colonel Garibaldi's memo?
    Mr. Waxman. Yes. You saw it and, General Weightman, you saw 
that memo as well.
    General Weightman. Yes, sir.
    Mr. Waxman. That memo warned about mission failure; in 
other words the failure to provide care that Walter Reed was 
supposed to provide because of the loss of personnel. There 
were 350 government employees working here. The A-76 process 
decided to contract out that work to a private organization. So 
they didn't start for a whole year, and during that year, the 
people who knew they were going to lose their job started 
leaving. They went to the private sector, they went to other 
places in the Department of Defense, they went to wherever they 
could find new jobs. So by the time the new contractor took his 
place a year later, as I understand it, there were only 60 
employees left of the 350. Do you know whether that is an 
accurate statement, either of you?
    General Weightman. Sir, I think I addressed that earlier, 
and I believe that the lower number was 100, not 60. And I 
think we had 180 people earlier in the year. So it didn't go 
from 300-plus down to----
    Mr. Waxman. You didn't think it was 350? You think that is 
an inaccurate figure?
    General Weightman. I believe so, sir.
    Mr. Waxman. So how many do you think were here when the 
contract was let out?
    General Weightman. When the actual--was about 100, sir.
    Mr. Waxman. About 100?
    General Weightman. Yes, sir.
    Mr. Waxman. How many people were still here when the 
contractor a year later took over?
    General Weightman. I am sorry, sir. I misspoke. When the 
actual contractor took over on February 4, 2007, that is when 
we had 100.
    Mr. Waxman. The memo said that you are short of staff, the 
contractor has taken over, you are short of staff, the mission 
is threatened, and asked for more staff to be hired. Was more 
staff hired?
    General Weightman. Yes, sir. I think I addressed that 
previously. We did get permission to hire more staff. Our 
ability to hire those additional 80 people was not successful, 
in that they knew that the contract was coming up, and if they 
got hired it would only be for 4 months.
    Mr. Waxman. So did the memo ask you to hire 80 more?
    General Weightman. Yes, sir. I believe it did.
    Mr. Waxman. How many did you actually hire?
    General Weightman. Ten, sir.
    Mr. Waxman. When did they come onboard?
    General Weightman. Sir, I don't have that information, but 
it would be between October and November 2006.
    Mr. Waxman. Mr. Chairman, the only thing I would raise is 
we have contracted out so much of this war, we have mercenaries 
instead of U.S. military. We have contractors instead of the 
work that can be done by checking very carefully what kind of 
job they are doing. And here at Walter Reed we had contracted 
out as well. And the result of all of this is we are, in Iraq, 
overpaying for the work of the contractors, and here we are 
underserving our military and something has to be done about 
that.
    Mr. Tierney. I thank the gentleman. I remind you that the 
Comptroller General of the Government Accountability Office has 
made that same point, that the contracting out has raised a 
problem. I suspect we will be exploring that in future 
hearings.
    But, General Weightman, you said there were 180 when it 
first went down, and down to 100 when it finally kicked in. So 
I think those are the numbers, at least as opposed to the 350 
and 60.
    General Weightman. Yes, sir.
    Mr. Tierney. Thank you. Mr. Shays.
    Mr. Shays. What I wrestle with is that there is not anyone 
involved in this that didn't know there were challenges. Mr. 
Waxman has gone through a whole host of reports, which he and I 
both can read and do read. How can we know when a problem is 
being addressed? In other words, this committee has had 
hearings, and the word is back, you know, it is getting taken 
care of. Is it something where we need to have hearings every 2 
months? And is there a mindset that to be a good soldier you 
have to basically, you know, stiff upper lip and just tell 
Congress, you know, we are taking care of it and so on, when 
you know you don't have the resources necessary to take care of 
it?
    That is what I am wrestling with. I feel like in some ways 
some people are going to take the hit on this, and are they 
taking the hit on this because they didn't tell us? Because 
frankly, I will just make this last point. These problems are 
huge. The only reason why this story got attention is there was 
something visual, there was mold on a wall, but the mold on the 
wall is, in fact, the tip of the iceberg. And so help me out 
because you are going and people are going to say it is going 
to be taken care of, and then 2 weeks from now or 2 months from 
now, how do we know it is?
    General Kiley. Sir, I agree with you. The mold is a brick-
and-mortar issue. We have it--we have it fixed in Building 18. 
We are examining all the rest of the brick and mortar in 
Medical Command to make sure we don't have those kinds of 
issues.
    Mr. Shays. See, I think that is the easy part.
    General Kiley. Yes, sir. The second piece is the thing I 
referenced, is the heretofore not fully realized complexity of 
the injuries of these great young Americans. I am a cochair of 
the Mental Health Task Force with Senators Boxer and Lieberman 
and are coming to closure on our work this last year. The 
issues of mental health, PTSD, late emerging PTSD, the issues 
of TBI, traumatic brain injury, how to diagnose.
    Mr. Shays. I don't know what you are saying to me.
    General Kiley. What I am saying is these are very complex 
patients that are severely injured in multiple emotional, 
physical, and mental ways.
    And then finally, sir, we are going to have a long-term 
challenge to continue to care for these soldiers and their 
families over time.
    Mr. Shays. I know that. I guess what I am trying to 
understand is how does it get solved? How many caseworkers do 
we have? What is the workload of each caseworker?
    General Weightman. Sir, those average about 1-to-25 to 1-
to-30.
    Mr. Shays. OK. Under oath you are saying that is what it 
is?
    General Weightman. Yes, sir.
    Mr. Shays. So why would a, you know, Sergeant Shannon 
basically have to find his own way and have to find his own 
caseworker without his caseworker finding him? I feel like 
these men and women are almost in prison in the bureaucracy. 
They could be here. It is kind of like the old song of the 
Kingston Trio, you know, in the subway underneath the streets. 
That is the way it feels to me. So explain that to me.
    General Weightman. Sir, it is absolutely right. We did not 
have a foolproof system to hand off our inpatients to the 
outpatient care. We had a system that probably was accurate 
about 80 percent of the time. And about 20 percent of the 
time--and I assume Sergeant Shannon falls into that group--we 
did not do a good handoff of those patients. So he went from 
being an inpatient on one of our wards to his platoon sergeant 
and his case manager picking him up.
    Mr. Shays. So, Ms. Bascetta, maybe you could help me out. 
You write these reports. They are available to Congress. They 
are available to the press, even the press. So this is nothing 
new. All of us, in a sense, are made aware of these problems. 
How do you know when the problem is being addressed? And how do 
you get around--and how do we deal with people telling us they 
are being addressed when they are not?
    Ms. Bascetta. Well, when we make recommendations, we always 
followup on those recommendations to ensure that they have been 
implemented. But in this case, we have been very frustrated 
that we bring things to DOD's attention over and over, and we 
see that they fix certain problems on an individual basis, but 
the systemic fixes don't seem to happen. And sometimes I think 
that part of the problem is that the rules and regulations are 
so monumental that we are focused more on that and not on the 
patients.
    Mr. Shays. This is what I think, and I will conclude with 
the few seconds I have left. I believe that basically it is 
part of your mindset that says if you are not going to get the 
resources, your job is to basically come to Congress and say, 
we are getting the job done. And that I feel like--and frankly, 
that is almost--not almost--it is being dishonest. It is being 
dishonest to yourself, and it is being dishonest to us. And I 
will look forward to the day when someone who is in a uniform 
comes to us and says under oath, I am not getting the resources 
I need to do my job.
    General Kiley. Mr. Chairman, may I respond to that?
    Mr. Tierney. Briefly.
    General Kiley. I said this, sir, in public. The Congress 
has given the U.S. Army Medical Command under my command 
everything I have asked for in terms of resources. The 
challenge is in some of the issues that we are addressing, 
which is how do we best apply those resources to best care for 
soldiers and then hand them off to the VA. I agree with you 
there are issues, there are gaps in the system, both electronic 
medical records, handoffs. I have assigned Army personnel----
    Mr. Shays. I understand. My time is up. But what you are 
saying, though, under oath is that you have all the resources 
necessary. And I honestly don't believe that. I don't believe 
it.
    General Kiley. OK.
    Mr. Tierney. I think Mr. Duncan made the point of $450 
billion in the Defense budget and I think maybe there is some 
truth to the matter that there are resources there and there 
are priorities. But I hear your point as well. Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. First of all, I just 
want to say I have read this record pretty thoroughly. And, 
General Weightman, I have to say that you, having only been in 
this position for 6 months, you probably have a little bit more 
blame being laid at your doorstep than I think is probably 
appropriate. I just want to get that on the record from my 
reading of this.
    Ms. Bascetta, you are aware that GAO conducted a review of 
the Army's system for evaluating the fitness of wounded 
soldiers to stay in the service.
    Ms. Bascetta. Yes.
    Mr. Lynch. OK. I am just stuck on this number. I noticed 
that the Navy has an approval rate of about 35 percent for 
those who apply for, you know, retirement through disability. 
And the the Air Force, their approval rate is around 24 
percent. Then I noticed the Army, which has a greater number of 
individuals applying, has an approval rate of about 4 percent.
    Now, I am just curious if you looked at that. I know you 
just did the Army. But did you look as a comparison as to what 
is going on and could you help me with this? Could you explain 
why those numbers look the way they do?
    Ms. Bascetta. What I can tell you is that in our review of 
the disability system, we noticed first of all that the 
services don't always follow the same procedures. But, more 
importantly, they don't have a quality assurance mechanism in 
place to assure that the decisions that are made are consistent 
across the services. And without knowing that, it is difficult 
to explain whether the variations that you are seeing and those 
award rates are reasonable or not.
    Mr. Lynch. OK. Let me ask you this. Recently the Secretary 
of Defense appointed an independent panel to review all of 
this. Now, it is an independent review commission. It is headed 
by former Secretary Togo West and also former secretary Jack 
Marsh, both outstanding individuals. But I just question 
whether it is independent. Both of these men are just--they are 
just top notch, but they are Army to the core. And I am just 
wondering if we are looking for an independent review, truly 
independent, someone that can be critical of this whole 
process. I just question, in your own mind, in conducting a 
review like this, and while I have--again, I have enormous 
respect for Togo West and Jack Marsh, but I wonder if these are 
the best people for an independent and impartial review, since 
these two men I know absolutely love the U.S. Army. And I am 
questioning whether or not they can be objective about the 
problems here.
    Ms. Bascetta. I can certainly understand your concern. I 
can tell you that there is a lot of work going on reviewing the 
disability systems both in the VA and in the DOD. There is a 
Veterans Benefits Commission that is looking at those issues 
now and the discrepancies between the ratings that are given in 
the DOD, comparing them to those that are given in the VA for 
the same service members.
    Mr. Lynch. OK. And last, before I yield back, General 
Kiley, I don't always trust the newspapers. But the Post had 
some quotes that you thought that the story was unfair. I know 
that Chairman Waxman mentioned it a little earlier, and that 
you felt that this was not a failure or a horrible situation at 
Walter Reed. Your comments were in conflict with the Secretary 
of the Army on the same issue. He said there was definitely a 
failure and that it was inexcusable. ``Inexcusable'' was the 
word he used.
    Are your own thoughts the same as you sit here today, that 
you thought this was a one-sided report and that it didn't 
fairly represent the situation?
    General Kiley. Sir, just to make sure I am clear on this, 
the original reports about the soldiers and the conditions of 
Building 18, again, I did not label that as yellow journalism. 
There was a follow-on article later that was focused on me that 
I had some concerns about and did say, in a private 
conversation with the Secretary, that I thought it was yellow 
journalism.
    What I did say and what you referenced, Mr. Lynch, was 
earlier on, my concern that the issues in Building 18 which 
were clearly unacceptable, clearly unacceptable, and were a 
failure of leadership at the junior level in that building. My 
concern for the American people and for the Army and for 
soldiers was that some of the descriptors in the larger 
articles would be construed as if the entire Walter Reed system 
was a failure and that soldiers were being left to languish, 
were forgotten and lost, and that Building 18 emblemized that. 
And I don't disagree that a visual image makes a big 
difference. But I know that----
    Mr. Lynch. I don't have much time. Let me just ask you, 
these are the words and you can tell me, sir.
    Mr. Tierney. Your time has actually expired, but we will 
let you ask one quick question.
    Mr. Lynch. The quote here is that ``I am not sure if it was 
an accurate representation. It was a one-sided representation. 
It is not the Ritz-Carlton at Pentagon City. I want to reset 
the thinking. And while we have some issues here, this is not a 
horrific catastrophic failure at Walter Reed.''
    I just want to know if that is--I don't trust news stories 
generally, and I just want to know if that is your thinking.
    General Kiley. I did say that and I was not attempting to 
be at odds with Secretary Gates. I think we have some issues of 
leadership here, but we have great facilities and a great 
medical system, and I was concerned that the whole thing would 
come down on the basis of some of these specific issues.
    Mr. Tierney. I thank the gentleman. Mr. Waxman, you had one 
followup.
    Mr. Waxman. I would like like Generals Kiley and Weightman 
to answer yes or no, in light of the memo by Mr. Garibaldi and 
the experience we have seen, do you think it was a mistake to 
have contracted out the services as was done?
    General Kiley. Certainly, we must, with our ability to look 
at when has happened, I think it may, we probably could have 
done it better, maybe we shouldn't have done it at all.
    General Weightman. Sir, I don't think it was a mistake. I 
think we suffered from having a prolonged period from when we 
had the switchover. Since February 4th, the contractor has done 
very well.
    Mr. Waxman. I wasn't arguing the contractor didn't do well. 
Do you think it was a mistake to contract it out----
    Mr. Tierney. The gentleman's time has expired. Mr. Davis.
    Mr. Davis of Virginia. There was congressional interference 
in that as well wasn't there.
    General Weighman. Yes, sir.
    Mr. Davis of Virginia. And some doubt and that stretched 
out the time period, is that correct?
    General Weightman. Yes, sir.
    Mr. Tierney. General Kiley, apparently there are those who 
feel differently than you and I did about this. They asked if 
they could get you somehow removed from this thing as quickly 
as possible. I was hoping the remaining Members who have not 
asked questions yet, if you have questions you would like to 
ask specifically of General Kiley, perhaps indicate that and 
then we will recognize Members and then we will let General 
Kiley, go and then ask General Weightman and ask Ms. Bascetta 
to stay longer if that is OK with them.
    Mr. Cooper, you had a question.
    Mr. Cooper. Thank you, Mr. Chairman.
    General Kiley, in today's Washington Post, it says, this 
referring to you, ``his last concern was his concern for the 
patient,'' said retired Colonel Robert Tabachnikoff chief of 
obstetrics and gynecology under Kiley in Landstuhl in mid 
1990's. Tabachnikoff said ``Kiley wanted him to discharge new 
mothers within 24 hours of delivery to keep beds free and 
counted phone calls as office visits.
    ``He was more concerned for meeting requirements and 
advancing his own career. At last, it is catching up with him. 
His leadership style is being exposed.''
    Do you have a comment?
    General Kiley. Well, needless to say I don't think that is 
a fair characterization of what we were doing at Landstuhl 
regional Medical Center at the time. I would be happy to 
address the specifics of the 24-hour discharge program which 
mothers called for. They want to go home. Workload and 
capturing what we do instead of ignoring it. And by the way, I 
would differentiate a mother who wants to go home at 24 hours 
from one that has to go home at 24 hours. We never did that. 
But, you know I don't--I'm not sure I need to comment any more 
on it than that. The doctor worked for me at Landstuhl, as I 
remember, back in the 90's.
    Mr. Cooper. How about office visits becoming telephone 
calls?
    General Kiley. Well, the question there was my providers 
felt frustrated that the the work they did talking to patients 
wasn't counting as part of the workload that the hospital did 
that they got credit for, so that we could get more money, that 
there was an issue of, you know, if I spend 20 minutes on the 
phone with a patient, that ought to be an office call. And we 
had no way to capture that data, as I remember, and get credit 
for it--which is not necessarily a game and it is not 
necessarily about workload.
    I have spent my entire life taking care of patients, 
training doctors to take care of patients. And I am committed 
to Army medicine and committed to taking care of soldiers and 
their families. I take exception to his view of me as doing all 
this just for a career and not caring about patients. I don't 
think that is correct.
    Ms. Foxx. Mr. Chairman, I had one quick question.
    Mr. Tierney. Yes, Ms. Foxx.
    Ms. Foxx. Thank you. Thank you, General Kiley. I want to 
ask, you mentioned at the beginning that what needs to be done 
is simplification.
    General Kiley. Yes, ma'am.
    Ms. Foxx. We are interested in again in accountability and 
I think simplification needs to be done too. Do you feel 
confident that you can institute simpler measures of 
accountability, simpler ways of getting the job done, that will 
stick? I think most people are concerned, as some of the 
previous witnesses said, that all we are doing is going to 
paint over this issue. What I am interested in, again, is 
systemic change. And systemic change is not just going to work 
here at Walter Reed, as you said, but it is going to work 
throughout the system, and that perhaps could be a model for 
other Government agencies.
    So tell us how we are going to know--as some of the other 
questions have been asked--how are we going to know that this 
process is better? How can we monitor it? How can we make sure 
that it is going to go systemwide?
    General Kiley. I think that is a very good question. I 
think we need transform it first, because if we just apply more 
yardsticks and bells and whistles to the present process, we 
will just get much better at measuring bells and whistles.
    I think we need to relook at the relationship between the 
MEB and the PEB which is, in fact, in many regards, despite the 
best the efforts of both groups of people, adversarial. The 
physician is attempting to capture all the data, make sure the 
soldier is as healed as he or she is going to be, and make sure 
you have an accurate record with tests etc., hand it to the 
Physical Evaluation Board, which is driven by law, by DOD 
regulations and by regs, to apportion out disability in a 
system that doesn't recognize the whole person, like the VA 
system does. And all of that sets up an immediate adversarial 
role, where, frankly, in some cases, nobody wins on this.
    I think the Army is taking this on even as we speak. I know 
I am taking it on to look at the process inside organizations 
like Walter Reed with the MEB process and the kickback. But I 
think we are going to have to reduce 22 different forms to fill 
out to go through this process. It may be as simple as getting 
rid of the line of duty and commander statement and start 
giving the benefit of the doubt to the soldier so that when 
they come back from Iraq missing a limb, that was in the line 
of duty. It was combat. And we don't need some be to send us a 
piece of paper to validate it.
    I think we also have to understand it is going to take time 
for these soldiers to heal. Let's give them the benefit of the 
doubt, retire them and then in 3 to 5 years, if they are fully 
recovered, we can bring them back and process them.
    But what we do now, because we want to give the soldiers 
the best chance, is we hold on to them so our numbers grow at 
all our installations. Some of them feel like they are being 
pushed out too quickly. We say we got it, we figured out what 
is going on with you.
    And then the last piece, again I say, is we have still not 
come to grips with the PTSD TBI process that most all of these 
soldiers to one extent or another have to deal with. And those 
are not particularly well recognized to date, particularly in 
the physical disabilities system.
    I hope to bring some light to that with the mental health 
task force and the traumatic brain injury task force that I 
launched last fall to start looking at this.
    Mr. Tierney. Thank you, General. General, once again your 
plans have changed and you no longer have an appointment later 
today. That has been postponed. We are just going to fly right 
through on our regular order and see if we can't bring this 
panel to a conclusion and appreciate the time you spent so far. 
If Members don't feel they have a question to present at this 
time that has already been asked, that is perfectly fine as 
well. We'll try to go as quickly as we can. Maybe some Members 
won't feel as compelled to do as complete a 5 minutes as 
others. So Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. General Kiley, General 
Weightman, Mrs. Bascetta, I appreciate all of your testimony 
and your service to our Nation, and especially generals, your 
many years of service in uniform.
    In a previous question, Representative Shays talked about 
the bricks and mortar maybe being the easier of things to see 
and fix and the second challenge is greater. And I kind of put 
that in the human capital management of how we use people we 
have to provide the service. And a common theme that seems to 
come across in the GAO finding and you have talked about is 
that handoff. And it was well identified in the first panel, 
and I think we all agree with Staff Sergeant Shannon, 
Specialist Duncan, Corporal and Mrs. McLeod, their stories are 
unacceptable and should not happen.
    And you look at Staff Sergeant Shannon 5 days after he is 
shot and seriously injured in Iraq, he is basically put into 
outpatient here, which speaks volumes about how quickly we got 
him here, but within 5 days of that traumatic injury that he is 
on his own and basically given a map. And that handover 
obviously didn't happen.
    How confident are you today that handover first from 
inpatient to outpatient is not the case anymore, and that there 
is a smoother transition?
    General Weightman. Sir, I am absolutely confident that we 
have a system now in place that we have a physical handoff from 
inpatient to outpatient----
    Mr. Platts. To the case manager or to the platoon sergeant?
    General Weightman. To platoon, the sergeant certainly. But 
as you spoke to there is multiple handoffs because once they 
become an outpatient, you have to hand off their care to the 
MEB process. And then you have to hand off their care to the 
PEB process. And then you may very well may have to hand off 
their care to the VA. And those are the transitions that I 
think that we feel that we need to put a lot more work into. 
That is where we failed.
    Mr. Platts. That was my followup. The first one being into 
outpatient, and then it seems like to the soldiers and their 
families that once they go there, there is no one place to say, 
here is where I am supposed to be dealing with to get the care 
and support I need. And that is very much on the radar now, I 
am hearing you say and we are seeking to address.
    General Weightman. Yes, sir.
    Mr. Platts. Specifically on the handoff VA.
    If I understood your oral testimony, Ms. Bascetta, is that 
in a few weeks back that there was a DOD decision to deny VA 
physicians access to DOD medical records as part of that 
handoff? And is that still the case?
    Ms. Bascetta. I can't tell what you what the current 
situation is. I can tell you that it was reported, I believe it 
was on February 16th that their access--and these are the VA 
physicians in the polytrauma centers who had their access 
cutoff without warning.
    Mr. Platts. General Kiley, are you aware, is that the 
situation today?
    General Kiley. As I understand it as I sit here today yes, 
sir, it is. I think the access that was denied to the VA 
physicians comes out of the joint patient tracking system. And 
that is a data base that picks up patients, troops as they 
enter into the system coming out of theater of operations 
through Landstuhl and back to Cohens-based facilities. And in 
that system, doctors that have access to JPTA and are 
authorized to be entering clinical data about patients enter 
clinical data.
    As I understand it, just through a couple of e-mails, at 
some point, someone recognized that all physicians in the VA 
had access to the joint patient tracking system and that our 
lawyers--and I don't mean my lawyers--but I believe it was DOD, 
health affairs lawyers--I don't know that for sure--but that is 
my suspicion, said that had the potential to be a HIPAA 
violation because if a soldier coming back is not necessarily a 
designated patient for a VA physician, then that physician 
really doesn't have a need to know about that data.
    Mr. Platts. Are we getting in to make sure that the VA 
physicians who do have a need to know retain the access? 
Because it sounds like what we have done is shut off everybody.
    General Kiley. I think we have sir and I don't know where 
we are.
    Mr. Platts. If we could have a followup----
    General Kiley. Yes, sir. Yes, sir.
    Mr. Platts. That would be very helpful. If I may a final 
quick question on the case manager issue.
    In the earlier testimony, Ms. McLeod talked about a case 
manager denying an MRI that a doctor had ordered. Is that 
permissible and does that occur? Because it seems contrary to 
everything we want where the medical professionals are making 
the decisions.
    General Weightman. Sir, that is not permissible. And it 
should not occur. It does. And how that probably manifests 
itself out is that case manager is responsible for scheduling 
that exam. So if that case manager does not schedule the exam, 
it is essentially denied. But they do not have the ability to 
overrule that.
    Mr. Platts. Is there disciplinary action if that comes to 
light that they overrule----
    General Kiley. Absolutely because doctor's orders take 
precedence.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Tierney. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    In listening to both this panel and the panel that preceded 
it, it seems like we have two problems we are dealing with. One 
is finding out about problems and whether there is an adequate 
system in place to uncover these problems, and the second 
problem, of course, is how we find out what to do about it and 
who is responsible for that.
    In today's Washington Post story, for instance, there was a 
mention that we are getting reports now from all over the 
country, people calling and families calling journalists even 
from my own State, Fort Knox and Fort Campbell, and reporting 
similar problems.
    My question is, one could infer from listening to this that 
the Army relies on people telling the next level, the next 
rank, about problems rather than there being some kind of 
accountability, some kind of mandate on the commander to say, 
this is part of our job to find out whether proper service is 
being rendered at every level.
    Is there a deficiency there? Are we relying on a bottom up 
type of reporting mechanism? Do you see that as a problem or 
not?
    General Weightman. Sir, I think there has been a failure. 
We have three or four different mechanisms here at Walter Reed 
for patients and patient family members to tell us about issues 
that they have, whether it is IG complaints, whether it is 
commanders open door policy, whether it is surveys that come 
out that we do periodic surveys, the town hall meetings, the 
new comers orientations you have heard about. Based on those, I 
feel that for whatever reason, we were not getting an adequate 
feedback from the patients and from the patients family members 
about all of the concerns that they had.
    Mr. Yarmuth. Don't you think that proper management 
technique would be that the highest level of management--and I 
am not necessarily putting it on your desk. Maybe it should be 
in the Pentagon--has to create ways and actually has to make an 
affirmative effort to find out whether proper service is being 
given at every level? Is that not a responsibility of the 
highest command?
    General Kiley. Yes, sir. My role as MEDCOM commander, I 
have accountability at the Army across all installations 
similar to Walter Reed holding my commanders both the regional 
flag officers and the individual local hospital commanders 
accountable for the health care delivery in conjunction with, 
you know, General Wilson, who manages, often manages the 
infrastructure solutions. And I send teams out--the assistant 
secretary of the Army sends teams out.
    I send my IG out. And we visit all the posts and camps over 
the year, getting assessments. Additionally, we talk to the 
commanders. We talk to the regional commanders, ask them how 
things are going and they report data up to us about processes.
    I will say that I don't get involved at my level. And I am 
not sure of the regional commanders would get involved at their 
level at an individual issue like a case manager who denies an 
MRI. But I would agree with General Weightman. We need to do a 
better job--and we will do a better job of defining the roles 
and missions of the case managers and platoon sergeants. And we 
have evolved these processes so we don't have cases like this 
come up.
    General Weightman. Sir, if I may add on to that. Under 
General Kiley's direction over the last 4 months, there's been 
a survey conducted every couple of weeks looking at patient 
satisfaction with their case managers and with their providers. 
And they take different samples of all the different regions. 
And that is anonymous. It just goes up.
    You know, the most reason one that was done at the end of 
January showed patient satisfaction with their case manager and 
with their provider, their physician, to be over 90 percent. 
But that is not what we have heard here. So are we looking at 
the wrong population? Or we are we making it too hard for them 
to tell us what their concerns are?
    We had the Army family action plan meeting here recently 
which had very good representation from the Med Hold and the 
Med Hold over patients and you know almost none of these issues 
were raised there. So that is obviously a failure in our 
sampling technique to get the feedback that we need.
    Mr. Tierney. Thank you, sir.
    Mr. Yarmuth. My time has expired. Thank you.
    Mr. Tierney. I think Mr. Duncan is out of the room briefly, 
so Mr. Turner.
    Mr. Turner. Thank you Mr. Chairman. General Kiley, General 
Weightman, obviously, it is very difficult in listening to the 
first panel and then listening to the statements that you are 
making concerning the current status of things that needs to be 
done. There is a disconnect.
    I hear the difficulty that the families and our service men 
and women are having, and then I hear the--it is not happening 
now or we will fix it, or a case manager doesn't have that 
authority, but yet a case manager apparently has gone against a 
doctor's recommendation with respect to scheduling an MRI.
    These things are very troubling. And my understanding from 
both of you is both of you are saying with respect to Building 
18, that neither one of you were aware of the conditions of 
that building. Is that a correct characterization of what you 
said?
    General Kiley. Yes, sir.
    General Weightman. Yes, sir.
    Mr. Turner. I guess my question comes to, well, how did you 
not know? General Weightman, this is not that big of a 
facility. Did you really testify that there are 371 outpatient 
rooms?
    General Weightman. Yes, sir.
    Mr. Turner. And General Kiley, in looking at your 
testimony, you have, in spite of efforts to maintain Building 
18, the building will require extensive repairs if it is going 
to remain in service.
    This is not a question of people weren't satisfied with 
their accommodation. This is a situation where it doesn't meet 
our standards.
    General Kiley. I agree.
    Mr. Turner. What went wrong? How did you two not know that 
we had something where we had people being housed not that just 
that they were satisfied but it doesn't meet our standards and 
yet they were being housed there? General Kiley.
    General Kiley. Sir, I can't explain that. As has been 
pointed out, I live across the street but I don't do barracks 
inspections at Walter Reed in my role as MEDCOM commander. I 
have subordinate commanders across MEDCOM that do those things 
if they think there are problems and they are aware of them. I 
would certainly inspect any barracks if asked to come look at 
it, or we had a problem that we couldn't fix of one kind or 
another.
    General Weightman. During my initial orientation here, when 
I came I walked through many barracks. I did not walk through 
Building 18.
    Mr. Turner. General Kiley, this gets back to my question of 
systems. You said you do not do inspections. I don't think 
anyone would think that the system that you have in place as a 
manager of an organization would be sufficient if your answer 
is that you don't do inspections, but yet you still did not 
know. There is something wrong with the organizational 
structure if we all have to hear from the Washington Post 
versus that there are facilities--and again, not just that they 
don't meet the standards. It is not like they thought that 
their accommodations weren't acceptable. They don't meet our 
standards. But yet they were being housed there and you two 
gentlemen who were given the responsibility and being in 
charged--and again, as you said, General Kiley, Congress can 
only appropriate funds, pass laws and the Government can pass 
rules and regulations, but there are people, individuals who 
have to implement this. So you can see why people would be very 
disturbed.
    General Kiley. Yes, sir. I can.
    Mr. Turner. General Kiley, I have one more question for 
you. I believe you said you were not aware--you were not 
prepared for the complexity of the injuries that these 
soldiers--or the complexities or injuries were not fully 
realized for these soldiers. What was the plan then? What was 
your expectation?
    General Kiley. As a commander at Walter Reed, we had done 
an assessment when I took over in 2002 of casualty receiving 
processes that were coming from Operation Enduring Freedom in 
Afghanistan. When operations started in Iraq, we very quickly 
had a much larger number of casualties coming in.
    We had all the resources we asked for to increase our 
contract nurses, physicians. We did some shifting of work at 
Walter Reed out in the community for retirees and elected 
health care. And we watched inpatient and outpatient work very 
closely.
    A large number of the soldiers over time were healed and 
returned to the force or were medically boarded through the 
physical disability system and then moved on to the VA if 
appropriate.
    I think what has happened is over these last couple of 
years, there is a subset of patients that are complex with more 
than just one human system engaged in recovery, emotional, 
physical and mental, organ systems if I can use that term as 
well as arms and legs, PTSD and TBI. These get to go very 
complex patients. And it takes a long time for them to heal. 
Some of the tools in the science of medicine for TBI and some 
of the tools and science of medicine for PTSD were just 
starting to develop to diagnose and begin therapies for.
    And this is in the face of a continuing stream of 
casualties. And when we get busy at Walter Reed, we have an 
ability to move patients, for example, to Brook or down to 
Eisenhower. Occasionally, we will ask Landstuhl regional 
Medical Center to hold patients for a day or two.
    So we have had a system that has reacted. But over time, 
the number of soldiers that have arrived here have challenged 
the system, challenged it with case workers, challenged it 
through the MEB process and through the PEB process. And it is 
just a matter of reinventing that simplifying it and getting on 
with business.
    Mr. Tierney. Thank you, General. Thank you, Mr. Turner, Mr. 
Braley, do you have questions?
    Mr. Braley. I do. Thank you, Mr. Chairman, with all due 
respect, General Kiley, when you make the comment that some of 
the tools of the science of medicine for TBI and PTSD were just 
beginning to be established in the 2002, 2003 timeframe, that 
is hogwash. I have represented clients with TBI and PTSD 
disorders for 23 years. This science has been evolving 
throughout that entire period of time. But the basic medicine 
for recognizing, diagnosing and treating patients who suffer 
from those illnesses and disease processes has been out there a 
long time. And what we are really talking about here today is 
the failure of planning, isn't that true?
    General Kiley. I do--I may have been misinterpreted in my 
comments. What we are seeing is the--I agree with you that TBI 
and PTSD have been diagnosed and known. It is the level of 
these conditions. It is having two or three concussive events 
in combat were you were actually not knocked out, you were not 
otherwise hurt, you have the fourth concussive event and now 
you're starting to suffer from headaches. That is the kind of 
TBI and sensitivity of diagnoses we have to reach. And we are 
beginning to understand that there is a crossover potentially 
between PTSD and TBI. And I have been up on the Hill in my role 
at Walter Reed to talk about research and support of TBI.
    Mr. Braley. But it is also part of a greater failure which 
is to plan for the eventuality of casualties--like we have been 
talking about here today--including amputations, which you have 
made a special point of noting in your written comments 
deserves special note, as an example, some of the initiatives 
that have been taken here at Walter Reed. Do you remember that?
    General Kiley. Yes, sir.
    Mr. Braley. And, in fact, that is a scenario that is very, 
very near and dear to my heart, because one of my constituents, 
Dennis Clark of Clark and Associates Orthotics and Prosthetics 
was contacted in October 2003 and asked to provide short-term 
assistance here at Walter Reed, and over the next 18 months, he 
made weekly trips here at his own expense, staying in hotels in 
his own expense, shipping prosthetic devices at his own expense 
over a period of 18 months at great personal sacrifice to 
himself, his partners and his company.
    And I guess the question I have is how do I go back to 
Dennis and my neighbor, Don Bergen, who made those trips and 
say to them that your sacrifice was rewarded by the level of 
care and the planning that is being provided to veterans 
returning from Iraq and Afghanistan today?
    General Kiley. Sir, I was not aware that we had someone who 
was coming here and providing services like that outside of a 
contracted service, because the amputee center at Walter Reed 
was fully funded. It was part of the global war on terrorism 
budget line that we were given that was fully funded. And I was 
just not aware of that.
    But my comment about the amputee program and the success 
was and the design of understanding that we were going to have 
amputees and we were going to have to take care of them. And 
their numbers are large. And it takes a long time for them to 
recover. And as we took care of them, we saw some new 
developments that have challenged us in terms of heterotopic 
bone formation, etc.
    Mr. Braley. Ms. Bascetta, I have one followup question for 
you about PTSD. One of the big concerns that I have is the 
impact of PTSD on returning veterans like Joshua Amvig, who 
took his own life in his family driveway in Grundy Center, 
Iowa. And his mother was a client of mine. Congressman Leonard 
Boswell has a Joshua Amvig Suicide Prevention Act that is 
currently pending in Congress to require a more detailed 
analysis of PTSD patients at risk for being suicidal. And I was 
wondering if you think that would be a helpful screening 
process that would be a supplement to the current PTSD rating 
that is supposed to be taking place at our veterans facilities?
    Ms. Bascetta. Yes, I think that would be very helpful. One 
of the problems with PTSD is that it doesn't necessarily 
manifest as soon as the soldiers come home, that there could be 
significant delays in their symptoms, and there could also be 
confusion or misdiagnosis of TBI and PTSD. And if there is 
misdiagnosis and the PTSD goes untreated, it certainly worsens 
to the point where this kind of tragedy could happen.
    Mr. Braley. Thank you, Mr. Chairman. I would encourage all 
members of the committee to sign on as original cosponsors of 
that bill.
    Mr. Tierney. Thank the gentleman.
    Ms. Bascetta. May I also just add that Congressman Braley 
is correct that there is a lot known about PTSD and TBI. In 
fact, VA has had a National Center of Excellence on PTSD for 
many years. They also have their four TBI Centers of Excellence 
and that, in fact, is why the polytrauma centers for active 
duty service members were put there because of VA's specialized 
expertise.
    I would readily admit that the science is still evolving. 
There is still a lot that we don't know yet. But this is one of 
the reasons that we think it is so crucial for VA and DOD to 
work better together. They have started working together on 
things like clinical guidelines, but much more needs to be 
done.
    And in fact, those polytrauma centers, in response to those 
comments that General Kiley made, DOD had actually installed 
DOD computers in those polytrauma centers so that VA physicians 
could use the DOD computers to access their data. They were not 
accessed from VA's own computers. So it is hard to understand 
how there could have been a systemwide access problem.
    And we have been very frustrated about DOD raising the 
HIPAA issue repeatedly. The House VA committee had many 
hearings on the failure to reach a data sharing agreement. 
HIPAA was raised in virtually all those hearings. And we 
believe that when there is such a significant need for 
continuity of care with soldiers who are going back and forth 
between the VA and the DOD, that certainly there must be a way 
to overcome this HIPAA barrier if it is indeed a barrier.
    Mr. Tierney. Thank you Ms. Bascetta. General Kiley, can we 
assume that you're going to get on that issue and find a way to 
get over that barrier?
    General Kiley. Yes, sir. I will take that on. I'll 
certainly ask. I'm not in charge of it, but I'll take care of 
it. That is a DOD decision, not my decision.
    Mr. Shays. Mr. Chairman.
    Mr. Tierney. Yes, Mr. Shays.
    Mr. Shays. Mr. Chairman, I'm going to the burial of 
Sergeant Richard Ford, who lost his life in Iraq in Arlington 
at 2, so I ask to be excused.
    Mr. Tierney. Yes, of course.
    We still have about eight other Members that have the right 
to ask questions here if they want. But again, I say if you 
have a question that has already been answered, you may want to 
pass. Otherwise, we are happy to have your comments. Ms. 
McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. I am confused by 
just followup on the HIPAA issue. It seems to me that could be 
very easily cleared up by asking the patient if their 
information can be shared between the DOD and the VA.
    Mr. Braley. That is one way. That is an individualized way 
to approach the problem. We think there might be broader ways 
to allow access.
    Ms. McCollum. But for right now, just telling a patient, 
you know, in order to make sure you have seamless continuity of 
care, is it OK that the VA and the Department of Defense share 
your medical records? I think that could be a yes or no.
    General Kiley. I don't think there is a problem with that. 
The issue that came up was every VA physician having access to 
every soldier's medical records, whether they had a requirement 
to care for that soldier or not. That, again, I think this is a 
DOD decision. I think that is what concerned the DOD, was that 
this was a kind of a broad sweeping access to medical records 
that until the patients come to the VA, the VA doctors really 
don't have a need to know, when there is coordination----
    Ms. McCollum. As a person in the private sector with health 
insurance, you sign broad agreements when you go in to have a 
radiology test done. So I think there is a way you folks can 
figure that out.
    General Kiley. Yes, ma'am.
    Ms. McCollum. Could I ask a question about Building 18. 
What has been the remediation for the mold in Building 18? I 
saw it being painted over, so.
    General Weightman. Ma'am the remediation there was mold in 
seven rooms in Building 18. Two rooms had mold on the walls and 
five rooms had mold in the shower/bathtub area. For those that 
was, had mold in the showers and bathtubs that was scrubbed 
off. For those two rooms that had mold on the walls underneath 
the wallpaper, the wall covering was stripped, mildewcide was 
applied, and it was painted over after that.
    The bigger problem on Building 18 is a moisture problem. 
And that is why we keep getting mold back and forth. So the 
ultimate fix for Building 18, which has been started, is in the 
process of being started, is to put a new roof so that we don't 
have so much moisture coming into the building as well as 
fixing some of the leaking plumbing that we have that also 
allows moisture to come in.
    Ms. McCollum. So in that room by just--you are confident 
that the mold has been eradicated in that room just by 
stripping top off the wallpaper and not replacing carpeting, 
not replacing ceiling?
    General Weightman. No, ma'am. You know what I said is we 
killed the mildew that was on the wall and repainted over it 
and put another wall covering, but I am telling you that it 
will come back until we fix the moisture problem.
    Ms. McCollum. So you had it tested and you know it is just 
mildew. You tested the mold and you know it is just mildew?
    General Weightman. Ma'am, I cannot address that.
    Ms. McCollum. I ask a question about the testimony, there 
was submitted by Annette McLeod and her husband where they talk 
about his process of going through of having his brain injury 
addressed. Quotes such as, he didn't try hard enough because he 
was under medication when the test was administered to see what 
his cognitive disorder level might be. His paperwork, even 
noting the fact that he had been in Title one, which is done 
primarily at the grade school level in this country in reading 
and math, then being labeled a special education class, then 
being labeled as retarded. Who is doing this case management?
    Do we have physicians and nurses doing this case 
management? Because if we do, to have charts that would 
radically change like this with health care professionals 
surprises me.
    And what about those individuals who aren't looking at 
their charts and then, as I said, at the end of the day, sign 
off as to what their disability is and how that can effect 
future benefits in the VA? Could you tell me how this happens 
to an individual how they go from admitting the fact that they 
had Title one to being labeled as retarded by our governmental 
system?
    General Weightman. Ma'am, I totally agree with you that if 
the soldier was good enough to come in the Army, then he was--
he should be treated as such. The case manager for this patient 
is a registered nurse and activated reservist. And then he saw 
many health care professionals from being social workers and 
psychologists and psychiatrists.
    I do not have the particular details on who said what to 
whom. And I actually don't have their permission to talk about 
that case.
    But I think it points out the problem that we raised 
earlier about the handoff between the various--between the 
medical treatment to the Medical Evaluation Board to the 
Physical Evaluation Board who does make that ultimate 
determination on what degree of disability that he has.
    Mr. Tierney. Thank you very much. Ms. Foxx, you asked 
questions earlier. Do you need another minute?
    Ms. Foxx. Very quick question. The issue of HIPAA was 
mentioned, and it sounds to me like a lot of the problems that 
you all have run into, for example, the sharing of information, 
it sounds like it is above, again, your all pay grade. And 
sometimes it sounds like it is coming directly back to 
Congress. I have only been there one term, but it sounds to me 
like some of the things that have been created have caused 
problems are coming from us.
    And what I want to ask you and encourage you to do is to 
make sure that where the problems lie with the Congress, that 
those issues will be brought back to us so that if we have an 
opportunity to solve some problems we can help solve those 
problems. Do we have your assurances on that?
    General Kiley. Yes, ma'am. Thank you. The whole issue of 
Department of Defense and Veterans' Affairs computer systems 
electronic medical records talking to each other is very 
important to both groups. And I talk routinely with the VA and 
VA physicians and both of us want our systems to talk together. 
But they don't. They are incompatible to date, but they are 
moving closer together.
    You know the standard answer that it takes time and money, 
it would make it a transparent electronic medical record for 
our soldiers. And we would like to see that.
    The specific JPTA was, and the HIPAA issue associated with 
that, was a very narrow issue. And I have it.
    Mr. Tierney. Mr. Davis.
    Mr. Davis of Virginia. Would the gentlelady yield? General 
Kiley and General Weightman, you heard the testimony of the 
previous panel. And we have McLeods are right behind you. Do 
you have anything you want to say to them who were caught up in 
this?
    General Kiley. I feel terrible for them. I know I have 
walked the halls of Walter Reed daily for 2 years and talked to 
soldiers and family members and I know this is very hard for 
them. And we have to double our efforts, redouble our efforts 
to make these kind of cases disappear in the system. And we 
have to simplify it. And we have to give the benefit of the 
doubt to the soldier and his family instead of working through 
a bureaucracy.
    Mr. Davis of Virginia. General Weightman, I guess you met 
them at Burger King before.
    General Weightman. I would just like to apologize for not 
meeting their expectations, not only in the care provided but 
also in having so many bureaucratic processes that just took 
your fortitude to be an advocate for your husband that you 
shouldn't have to do. I promise we will do better.
    Mr. Tierney. General Weightman, apparently Mrs. McLeod 
didn't have any difficulties with you and I think you should 
note that. And General Kiley, you didn't know that General 
Farmer was not allowing Mrs. McLeod to make any statements----
    General Kiley. No, sir. I didn't know anything about that. 
No, sir.
    Mr. Tierney. I am going to yield just briefly to Mr. Braley 
who wanted to clarify one thing under HIPAA.
    Mr. Braley. General Kiley, it is my understanding that 
HIPAA is designed to make sure that down stream providers of 
health care, that is, those who are providing care later on in 
continuity of care systems, have access to those records 
without the need for a new and separate release. Is that your 
understanding of the HIPAA requirements?
    General Kiley. To be honest with you, I don't know about 
the downstream access. It would make sense to me, sir, but I 
can't give you an accurate answer on that.
    Mr. Braley. Ms. Bascetta, is that what you were referring 
to earlier that this is really an obstacle that is not an 
obstacle.
    Ms. Bascetta. Yes. That is my understanding of the 
situation. I am not a lawyer and HIPAA is very complicated and 
there could be unintended consequences, but my understanding is 
that there is a way to overcome this problem within the 
confines of the current law.
    General Kiley. Sir, if I may, Mr. Chairman, I agree that 
any physician who has a requirement to care for a soldier in 
the VA has total access that was not the issue that we ran into 
between JPTA.
    Mr. Tierney. Mr. Cooper, you had questions earlier. You 
have 1 minute.
    Mr. Cooper. One quick question. This is a busy, sometimes 
overcrowded hospital. We are involved in the global war on 
terror, which has already lasted longer than most people 
anticipated. We consistently underestimated the number of 
casualties. Do we have any business shutting down this 
hospital?
    General Kiley. Sir, I made my recommendations concerning 
the future of Walter Reed during the deliberative process for 
the BRAC. I personally recommended against closing Walter Reed. 
The decisions were made by the Secretary. President approved 
it.
    My tack was then twofold, to begin the process of merging 
Walter Reed with the National Naval Medical Center and begin--
continue to articulate that the risk associated with that was 
of properly funding it. It is a very expensive decision to be 
able to take all the health care that is provided here and move 
it.
    Subsequent to those decisions and consistent with the 
discussions we have had all day today, I certainly think that 
we might want to reopen the national discussion on this that 
maybe now is not the right time, but that is really not my 
call. It is in the law. And from my perspective, I would be 
happy to provide information and observations about it. But, I 
am here to execute the law in that regard.
    Mr. Cooper. But you recommended against closing Walter 
Reed?
    General Kiley. I did, sir. It was a deliberative process. 
Looking at two major medical centers 8 miles apart, and there 
was a committee that worked through the discussions, the pros 
and cons and the committee's recommendation up the chain in the 
department was to close it and realign it over at Bethesda. I 
didn't agree with that. But after the decisions were made, it 
doesn't do any good to continue to subvert that process.
    Mr. Cooper. Shouldn't we at least make sure the new 
facility is better before we close this one?
    General Kiley. Well, that is the challenge, because it is 
going to cost a lot of money to open the new--to expand the 
Bethesda campus and build the new facility at Belvoir, which 
will capture all the work that is going on here at Walter Reed. 
Yes, sir, that will take a lot of money.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Tierney. Thank the gentleman.
    Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman.
    General Kiley, I understand that you ran Walter Reed from 
2002 to 2004. You are now the surgeon general of the Army.
    General Kiley. Yes, sir.
    Mr. Hodes. And Major General Weightman, you ran Walter Reed 
for 6 months, from August to recently, and you have been 
demoted, sent somewhere else----
    General Weightman. Sir, I have been relieved of command.
    Mr. Hodes. General Kiley, I want you to know that I think 
this is a massive failure of competence in management and 
command. And do you agree that the buck stops with you on these 
problems?
    General Kiley. Yes, sir.
    Mr. Hodes. Now I want to know when the first time it was 
that you heard about the kinds of problems we have heard about 
today? When was the first time you heard about these kind of 
problems, sir?
    General Kiley. These specific problems I heard about when I 
saw the articles in the Washington Post.
    Mr. Hodes. Now, sir, it is my understanding that former 
Congressman Bill Young and his wife approached you to talk 
about problems with soldiers lying in urine on mattresses. Do 
you recall that?
    General Kiley. I recall that specific case. And I recall my 
conversation with Mrs. Young.
    Mr. Hodes. And she said that you had skirted these problems 
for 5 years. You understand she said that?
    General Kiley. I understand she said that.
    Mr. Hodes. And in December of this year, you met with a 
fellow named Mr. Robinson. Do you recall that?
    General Kiley. I wouldn't characterize it as meeting with 
him. Mr. Robinson briefed the DOD congressionally mandated 
mental health task force along with three or four other 
officers in his organization.
    Mr. Hodes. And you heard graphic testimony during that 
briefing from him consistent with what we have heard today from 
Mrs. McLeod and Staff Sergeant Shannon, isn't that correct?
    General Kiley. He briefed us about his concerns about the 
welfare of soldiers across the whole system and Marines as part 
of his role for his organization, some of which was focused at 
the Fort Carson installation. But the issues that he talked 
about, and the issues that Mrs. Young talked about, have been 
issues that we have been challenged with and dealt and fixed on 
a case-by-case basis since I took command 2002.
    Mr. Hodes. What did you do after the briefing on December 
20th? Did you launch an investigation? Did you immediately go 
for yourself to make your own personal investigation of the 
conditions that Mr. Robinson was telling you about?
    General Kiley. I did visit Fort Carson. I talked to both 
the installation command. And I had talked not only with--
listened to Mr. Robinson's brief, but I also talked to him 
after that conference about specific issues that I could talk 
to. We then, as part of the task force mission out at Fort 
Carson, talked to soldiers and had other discussions to analyze 
what was going on at Fort Carson.
    Mr. Hodes. Is it still your testimony that it wasn't until 
the Washington Post published accounts that you knew of the 
failures that had occurred at Walter Reed?
    General Kiley. By failures at Walter Reed, if you are 
talking about the individual soldiers' stories in Building 18 
at Walter Reed in the timeframe that was described in the 
article, I was unaware that those--that those specific cases 
were going on.
    Mr. Hodes. And nothing you had heard up until that point 
led you to question whether or not you were overseeing a system 
that was completely dysfunctional and wasn't serving the 
soldiers?
    General Kiley. Well, no, sir. I did not characterize my 
view of either Walter Reed, the North Atlantic or my other 
regions as being dysfunctional. We have always had concerns 
that the large numbers of soldiers that we have had to manage 
across the installation create a challenge for the command.
    The deployment of soldiers, the redeployment of soldiers, 
the deployment of PROFIS fillers creates challenges for the 
commanders in terms of their own assets, some of very short 
nature. We have had issues with the MEB and PEB process. We 
continue to work those solutions.
    Mr. Hodes. And so that is why when you were asked about the 
Post reports, you essentially said that it is not a systemwide 
problem, our health care system is treating our soldiers well.
    General Kiley. Well, I think our health care system in 
terms of the delivery of medicine across U.S. Army medical 
command and here at Walter Reed is outstanding. As I said 
earlier in my paper in my presentation, the bureaucracy 
complexity and adversarial nature of the MEB-PEB process is 
something that we need to take on and fix.
    Mr. Hodes. Sir, if we find, this Congressman finds that 
your failure to acknowledge earlier the problems that have 
existed are a serious problem, how then can we take what you 
say about your proposed fixes and how do we know that is going 
to happen?
    General Kiley. I guess I am trying not to say that I am not 
accountable because I am accountable. And I am trying to say 
that we have known that these soldiers are injured, they are 
emotionally and physically vulnerable, that they need help and 
health care, that they need a system that cares for them 
continuously right into their either retirement or return to 
duty. It happens all over America. And not just at Walter Reed. 
I command by commanding through my commanders entrusting them 
to execute the mission right down to the hospital commanders. 
And I give them the resources. And then we do inspect them and 
check them.
    I did not personally inspect some of the issues at Walter 
Reed. I will redouble my efforts on this. I am not denying that 
we don't have challenges. We had challenges when I was the 
commander here. We had stories were I talked walked up to a 
lieutenant. I said, do you have any money? He said I have it in 
my wallet. I said where is your wallet? He said it is in my 
pants. I said where are your pants? He said I guess they are in 
Iraq.
    We would walk up to a young spouse with a baby in her arms 
and her husband is lying there paralyzed from the waist down 
from an accident. Tears your heart. And you look to the system. 
It doesn't necessarily give you a good sense that we are going 
to be able to take care of this family as well as we have come 
to expect in America and in our soldiers and their families. 
And some of these things I can effect at my level as a hospital 
commander or as a MEDCOM commander. I can give resources for 
case managers and doctors and BEDLOs. Some of these other 
things I have to work with larger and Army and DOD to get some 
of this bureaucracy out of the way.
    Mr. Tierney. Thank you gentleman, Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. There was a report 
recently in the Army Times that soldiers here have been 
intimidated basically and discouraged from speaking directly to 
the media about their conditions.
    General Kiley, do you have any knowledge as to whether this 
is true?
    General Kiley. Sir, I spoke to the brigade commander after 
this article was released and asked you know----
    Mr. Welch. That being whom?
    General Kiley. Colonel Hamilton. And asked what happened. 
And the article had said as I remember the article now because 
I had a whole series of points I wanted to validate. I asked 
were all the soldiers going to have to get up at 6 o'clock to 
have a room inspection at 7? He said no, that is not going to 
happen.
    He had asked the soldiers that if they had issues they 
needed to know that the chain of command was open and ready to 
take those--work those.
    I can't remember all the other issues in the article right 
now. But it was my sense in talking to the commander that some 
of the fears or concerns or issues about the soldiers that were 
addressed at the formation by the commander that you know he 
was not in any way threatening them or saying other than, look, 
we are here to help you and get this thing fixed. But there was 
not----
    Mr. Welch. If I understood you correctly, you just said 
that the soldiers were told to take their complaints through 
the chain of command.
    General Kiley. Well, I don't want to put words in Colonel 
Hamilton's mouth and the conversation was very short. I was led 
to the impression that what Colonel Hamilton had told the 
soldiers in the formation was that they could come to him, that 
they can bring their complaints to him.
    I don't want to give the impression that meant that they 
had to or that was their only option. We have IGs. We have 
chaplains. We have a whole system for----
    Mr. Welch. Obviously, it is important for the soldiers to 
have confidence that they will be heard. And I am not certain 
you have clarity. At least, I am not clear from your own 
answers whether you have confidence that if a soldier wants to 
speak out directly perhaps to a reporter about the 
circumstances of his care, that is acceptable as far as you are 
concerned or not.
    General Kiley. I think it is very acceptable. You know, I 
wear this uniform in support of the Constitution and freedom of 
press. And I have never told soldiers that they can't talk to 
the press and----
    Mr. Welch. Can you clarify that with--I forget the name 
of----
    General Kiley. Colonel Hamilton?
    Mr. Welch. With Colonel Hamilton.
    General Kiley. I don't want to give incorrect information 
here. But it is my impression that he did not put any kind of a 
proscription on soldiers. He did not threaten reprisal or 
retribution in any way with his discussion with soldiers.
    Mr. Welch. Were you consulted about who would take command 
of this facility after General Weightman was relieved of the 
command?
    General Kiley. No, sir, I was not--first, I was not 
consulted because I was told not to take the command until we 
could find someone and then I was informed that General 
Schoomaker would replace General Weightman.
    Mr. Welch. Is it on the basis of your experience both your 
2 years of command here and your subsequent experience and 
other responsibilities that the conditions that have been 
reported and described have been in existence for over 6 
months?
    General Kiley. Well, I would say that there are two 15-6 
investigations going on at Walter Reed right now, one looking 
my chain of command issues specifically health and safety, and 
who in the chain of command knew what, when they knew it. And 
there is another 15-6 looking at the clinical process of 
medical boards, MEB, PEB process. I can't say right now, 
whether this was a short-term or long-term problem, I think the 
number of soldiers that were here would lead you to believe 
that General Weightman was working through these solutions.
    Mr. Welch. So if I understand your testimony, you were here 
for 2 years, then General Farmer, then General Weightman. The 
information you have to date is that General Weightman, in 
fact, was trying to work through these problems. He has been 
fired. Is that an appropriate response to the situation that 
has been presented to us?
    General Kiley. Sir, that is a decision for the civilian 
leadership of the Department of the Army of the Department of 
Defense.
    Mr. Welch. I guess it is--I am sorry, the rank of----
    General Kiley. Major General, sir.
    Mr. Welch. Hamilton.
    General Kiley. Colonel.
    Mr. Welch. Colonel Hamilton is here. He is not sworn in, 
Mr. Chairman, but he might be able to clarify the question 
about what was told to these soldiers about whether they could 
or couldn't speak, or whether there was any impression that the 
soldiers recently could have sustained that they were 
discouraged from speaking directly to the press.
    Mr. Tierney. We can contemplate swearing him in with the 
next panel for that one question if you need to, but otherwise 
maybe the next panel can address that question.
    Mr. Welch. Thank you. I yield the balance of my time.
    Mr. Tierney. Thank you very much. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I have a question 
about the twin pressures here at Walter Reed, as the crown 
jewel as it has always been called, where you send the most 
injured soldiers always and certainly from Iraq and 
Afghanistan. The BRAC pressure is clear what it does is send a 
signal to everybody go look for another job because we think it 
is going to close down.
    If I may say so, I think Congress would be insane to pump 
$2 or $3 billion into building a new hospital in the middle of 
a war. And I don't expect we will come up with those funds. But 
I do think that is a signal that sends out on top of the BRAC 
pressure which says scatter get a job if you can somewhere 
else, there was the privatization pressure where you Mr. Kiley 
and Mr. Weightman have privatized all of the base operations, 
except as I understand it, for medical care.
    Now, of course, those would be the very base operations 
that Mr. Kiley, General Kiley, would have to do with the upkeep 
you have testified about, of $400 million in renovations, 
$269,000 in renovations, lots of money. But of course, what 
difference does that make if there is not staff on board to 
keep the facility up?
    These employees came to see me, because I represent the 
hospital here. Many of them don't even live here. Your own 
publication, by the way, said that there were 350 employees. I 
don't know if all those positions were filled, but 350 
employees, and that is exactly what the representatives of the 
employees told me.
    These were workers who have had competed for their own jobs 
and had won the competition and the Army overturned the 
competition, if I may say so, the notion that therefore the 
Congress interfered and that must have elongated the process. 
On the contrary, some of them thought they might prevail 
because, in fact, we got an amendment through the House that 
would have restored the status quo and it just did not get 
through the Senate.
    My question goes to the wisdom of privatizing everything 
except the clinical and medical matters in the middle of a war, 
especially since you, Mr. Kiley, in the first year where 
privatization started and then when you were at MEDCOM and they 
asked you for more staff, denied more staff, even as the staff 
was dwindling. In that same memo from Colonel Spencer, you are 
both put on notice due to the uncertainty associated--well, 
first of all, they talked about critical issues, and I am here 
quoting retaining skilled clinical personnel. See that scares 
me. Skilled clinical personnel for the hospital and diverse 
professionals for the garrison.
    Those are the people who are to be privatized who just 
thinned out and went wherever they could find a job. Then it 
says, while confronted with increased difficulties in hiring--
because how who in hell--excuse me--who, in fact, would want to 
be hired in the middle of that? Due to the uncertainty 
associated with this issue, Walter Reed continues to lose other 
highly qualified personnel.
    Could I ask you whether you believe that it would have been 
better not to privatize the entire garrison work force when the 
facility was already undergoing pressures from BRAC and faced 
with those uncertainties? When you surely would have known it 
would scatter that work force, that experienced work force, and 
that your own workers had won the competition for, in fact, 
keeping this facility up, including Building 18? Would it not 
have been better in light of all the uncertainty simply to go 
with the work force you have? Why did you seek to privatize the 
work force in light of the BRAC uncertainty and add to that 
with the uncertainty that always attends privatization?
    General Kiley. First, I would like to say that the requests 
of Colonel Garibaldi through General Weightman, I approved 
those at MEDCOM and we resourced those requirements for him. He 
was unable to execute them, which was the issue. I gave him the 
money he needed. But you have already articulated the 
challenge. You identified the issue when you are not going to 
have a job much longer, why should you hire one?
    Ms. Norton. Therefore, why should you privatize? Which 
started on your watch, General Kiley?
    General Kiley. Actually it started, as I understand it, in 
2000, when it was identified as one of the privatization 
efforts under A-76. And once that installation was identified 
to the Army as a process----
    Ms. Norton. I am trying to get an answer to this because I 
know they want to move on. Would it have been the better side 
of wisdom not to privatize everything here except the clinical 
and medical work force, and therefore add to the stability or 
the instability of that inevitably comes with BRAC?
    General Kiley. It did increase the instability.
    Ms. Norton. Thank you. General Weightman.
    General Weightman. Absolutely between BRAC and A-76 it was 
two huge impacts on our civilian work force, which is two 
thirds of our work force here at Walter Reed.
    Mr. Tierney. I want to thank all of you but before I let 
you go, General Kiley, in one of your written submissions, you 
indicated that you were having people look into these matters 
both the physical condition of the buildings but also the MEB, 
PEB situation and that you would report back to us. We would 
like to schedule a hearing for the purpose of this entire 
discussion, those matters in particular. Is 30 days' time, 45 
days?
    General Kiley. 45 days I can certainly give you more in 45 
than in 30. But the team I have sent out to those facilities 
should be done within the next 2 weeks. The process of looking 
at the MEB the term we use, lean six sigma concept, and we put 
personnel experienced in that on to the process here at Walter 
Reed is going to take longer than 45 days. But I can give you 
an interim report at that time.
    Mr. Tierney. Thank you. I want to thank all of our 
witnesses for the testimony here today and we appreciate your 
being here and being willing to answer all the questions and we 
will let you go at at this time. Thank you.
    If we could ask our members of the third panel to accept 
their invitation to come to panel please.
    Mr. Braley. Mr. Chairman point of order. While the third 
panel is being seated, can you clarify the point made in the 
committee memorandum about the request for information that was 
made on behalf of yourself and the ranking member of the 
subcommittee for documents related to the inqiry today and 
whether we received any response to that.
    Mr. Tierney. I can say that was question No. 1 coming up in 
the next panel. We have not yet received that documentation. We 
are going to ask the next witnesses on this panel to ensure us 
that they would be coming as well as additional documents that 
are going to be requested.
    Thank you, gentlemen. We will have a very brief 
introduction, and I will allow you gentlemen to introduce 
yourselves as you speak.
    General Schoomaker, you are sort of a late entry here; and 
we appreciate your being willing to come testify today.
    General Cody, we appreciate your appearance, also. Mr. 
Geren is the Under Secretary you have asked to sit on this 
panel. But I understand there is no opening statement that you 
are providing, and I think our questions will probably be 
directed to the generals.
    Do you have an opening statement, General?

 STATEMENTS OF GENERAL PETER SCHOOMAKER, CHIEF OF STAFF OF THE 
  ARMY; AND GENERAL RICHARD A. CODY, ARMY VICE CHIEF OF STAFF

             STATEMENT OF GENERAL PETER SCHOOMAKER

    General Schoomaker. Sir, only to say that I appreciate your 
agreeing to allow me to appear today.
    I am the senior uniformed officer in the Army. You know, 
the buck stops with me when it comes to uniform. And General 
Cody is the point man in the Army for what we are doing here, 
and I wanted to be here to make sure that we understood, you 
know, where the responsibility and accountability lived. Thank 
you.
    Mr. Tierney. Is that your entire statement?
    General Schoomaker. It is.
    Mr. Tierney. General Cody.

              STATEMENT OF GENERAL RICHARD A. CODY

    General Cody. Thank you, Chairman, Congressman Shays and 
distinguished members of this committee. Thank you for the 
opportunity to discuss the outpatient care of our Nation's 
wounded warriors here at Walter Reed Medical Center and as well 
as throughout our Army.
    Every leader in our force is committed to ensuring the Army 
healthcare for American soldiers is the best this Nation can 
provide. From the battlefield through every soldier's return 
home, our priority is the lifelong, expedient delivery of 
compassionate, comprehensive, world-class medical care.
    I am here today as the Vice Chief of Staff of the Army, but 
I am also here as a simple soldier who spent over 34 years 
serving and leading our men and women in uniform through peace 
and in war, through health, injury and the ultimate sacrifice 
that our soldiers are willing to make on behalf of this great 
Nation.
    Like many of our general officers and senior 
noncommissioned officers, I am the father of two sons who are 
soldiers, each of whom have served multiple tours in combat. I 
am the uncle of two nephews who have also served in harm's way. 
And I can tell you I have never been prouder than I am today to 
serve with our incredible soldiers who motivate me every day 
and who remain the focus of everything we do in our Army.
    As Americans, we treasure the members of our all-volunteer 
force who have raised their right hand and said, America, in 
your time of need, send me; I will defend you. We all 
understand that in return for their service and sacrifice, 
especially in a time of war and demanding operational tempo, we 
owe these soldiers the quality of care that is at least equal 
to the quality of service they have provided this Nation.
    I frequently visit Army medical facilities around the 
world; and in the last year I have met with soldiers, staff and 
patients in Iraq, Afghanistan, at Landstuhl in Germany, at 
installations across the United States and, at every 
opportunity, here at Walter Reed and Brooke Army Medical Center 
in Texas. Without exception, the people I encounter inevitably 
remind me that the United States is truly a special Nation 
blessed with incredible sons and daughters who are willing to 
serve and offer all of themselves in our defense. In them I 
have witnessed unparalleled strength, resilience, generosity; 
and I am humbled by their bravery.
    Even if all our facilities were the best in the world and 
every process and policy were streamlined perfectly, our 
soldiers and families still deserve better. And, without a 
doubt, they deserve better than what we have provided.
    Today, we have 248,000 soldiers in more than 80 countries 
around the world for the Army. When injured or wounded, every 
one of these soldiers begins a journey through our medical 
treatment facilities with top-notch care delivered by Army 
medics, Army surgeons, nurses and civilians in forward-
operating facilities. There, soldiers receive extraordinary 
acute care that has drastically lowered our died-of-wounds rate 
in this war and is readily cited as being without peer.
    But it is after that incredible life-saving work has been 
done and the recovery process begins that our wounded soldiers 
are subjected to a complex medical and disability evaluation 
process that can be difficult to negotiate and manage. Due to a 
patchwork of regulations, policies and rules, many of which 
have not been updated in nearly 50 years and have been stressed 
by 5 years of this war, soldiers and staff alike are faced with 
the confusing and frequently demoralizing task of sifting 
through too much information and too many interdependent 
decisions and bureaucracy.
    Our counselors and case managers are overworked, and they 
do not receive enough training. We do not adequately 
communicate necessary information. Our administrative processes 
are needlessly cumbersome and, quite frankly, take too long. 
Our medical holding units are not manned to the proper level, 
and we do not assign leaders who can ensure proper 
accountability, proper discipline and well-being of our wounded 
soldiers and their health, welfare and morale. And our 
facilities are not maintained to the standards that we know is 
right.
    Many of these issues we are fixing now and we can repair 
ourselves and we are working aggressively to do so. Others will 
require your support and assistance to resolve.
    In conjunction with the Office of the Secretary of Defense 
we will work to identify and recommend to Congress changes in 
law or statutes that may be required to ensure our wounded 
warriors and their families receive the fair compensation 
commensurate with their service and sacrifice. I am confident 
that, with the support of the American people, passion and 
dedication of veterans who have come before us, the resolve of 
this Congress and our administration and the strengthened 
commitment of the U.S. Army, we are going to make this right.
    Addressing our shortfalls and implementing changes that 
will drastically improve the health and well-being of our 
soldiers and families for the next generation is a matter of 
urgency. Now is the time for our Nation and for our Army to 
recommit and reinvest in the facilities, compensation and the 
programs our wounded warriors deserve.
    During my visits with our wounded warriors at our medical 
facilities throughout the world, what has struck me most is the 
humble and resilient spirit of our soldiers and their families. 
They ask very little in return for all that they have given. 
They ask not to be forgotten, they ask that their families be 
cared for and that we will do all we can to support their 
brothers and sisters in arms and that they tell and we tell 
their story to the American people. For that, these soldiers 
deserve the preservation of their dignity, their pride in being 
soldiers and the knowledge that their leaders and their country 
know that there is no compensation, no awards, no words that 
can measure their and their family's gift to this Nation and to 
our Army.
    We will do what is right for our soldiers and their 
families. They can be assured that the Army leadership is 
committed and dedicated to ensuring that their quality of life 
and the quality of their medical care is equal to the quality 
of their service and their great sacrifice.
    With that, Mr. Chairman, I look forward to your questions.
    Mr. Tierney. I thank you. I thank all you have on the 
panel.
    I forgot to swear you all in originally.
    [Witnesses sworn.]
    Mr. Tierney. Thank you to all the witnesses. You are 
recorded as answering in the affirmative.
    General, your statement is well taken. But I have to tell 
you, the first thing that pops into my mind is, where have you 
been? Where has all the brass been on this?
    All we have heard and read about earlier today, clearly, 
this can't all be pushed down at the lower level. Clearly, this 
is not some junior officer's responsibility that nobody else 
has to claim anything for.
    I think one of the earlier witnesses on the first panel 
said this well, you need to have some supervision here. People 
have to be responsible. You don't just send them off to do 
that.
    And these issues, from what I can see, have gone back to 
General Kiley's day, General Farmer's day and General 
Weightman. What is it that General Weightman did that was so 
different from what General Farmer or General Kiley did? Will 
one of you tell me why he got the axe and why the others walk 
on the earth today? You know, why are they still in uniform and 
still going on?
    I don't see any difference between the conditions, 125-to-1 
ratio and the difficulties people were having getting around to 
the different systems. Can you tell me why it is that one sort 
of is being transferred out and the others are not even 
recognizing that the problem existed, but we know it existed 
all this time?
    General Schoomaker. General Weightman was relieved of his 
command by the Secretary of the Army. I supported that 
decision. The Secretary of the Army felt he had lost trust and 
confidence in General Weightman.
    Mr. Tierney. Let me interrupt you. He lost trust and 
confidence because he is the one who reduced it from 125 to 1 
to 25 to 1? You lost trust and confidence because he is the one 
who put more attention into the PTSD issue?
    General Schoomaker. Sir, I think the issue was the Building 
18 issue and the fact that a Building 18 existed when nobody 
knew that it had existed.
    We are out here continuously. We are across the Army 
continuously with these soldiers and their families 
continuously, get nothing but the most outstanding feedback 
from the way that they are treated and the medical care that 
they receive here.
    Mr. Tierney. So we assume Building 18's conditions arose 
only in August 2006? It didn't exist before?
    General Schoomaker. No, it is very clear that it existed 
before. What I am trying to say is the fact that, you know, 
nobody knew of a Building 18 until it arises this way. 
Certainly begs the question of why. We didn't know it. And of 
course, you know, I mean, I will tell you, I was 
extraordinarily angry and embarrassed by the fact that we would 
have a Building 18.
    Mr. Tierney. I would think that would be the case, sir.
    But we go beyond the bricks and mortar issue which I think 
is going to be resolved without as much difficulty as the other 
issue of what has been happening in terms of their care. The 
hand-offs and the going through the process there, that has 
been all the way back to 2004, 2005.
    General Schoomaker. Medical care here----
    Mr. Tierney [continuing]. The whole idea of the post-
medical care.
    General Schoomaker. Outpatient care is a problem, a 
challenge that was anticipated. I would have told you before 
these hearings, based upon the feedback that we had gotten at 
the level that we are, that this would have been a bright spot 
in our history in terms of how soldiers have been cared for.
    Now, you know, my father was a World War II, Korean War and 
Vietnam veteran. I was commissioned 38 years ago. I have a 
brother who is now in command of Walter Reed who is a major 
general. I have a daughter and a son-in-law that are on their 
way to combat. This is not something about people don't care, 
and I am not going to sit here and have everybody tell me we 
don't care.
    Mr. Tierney. We haven't said anything about people not 
caring. We will put that red herring aside, and if I can calm 
you down and get you back to the issue here, this----
    General Schoomaker. This isn't a red herring.
    Mr. Tierney. Sir, nobody said anything about not caring. 
The question was and continues to be, if these situations have 
been occurring since 2004, 2005, 2006, why weren't they 
resolved and why weren't they addressed?
    General Schoomaker. That is a great question. And the issue 
is, is you asked me the question of why General Weightman was 
relieved by the Secretary of the Army. It is because these 
issues hadn't been surfaced, and General Weightman was in a 
position of accountability and responsibility. And the 
Secretary of the Army didn't have trust and confidence in him 
and relieved him, and I supported that.
    Mr. Tierney. Is your testimony, sir, then, all of the 
reports that Mr. Waxman read earlier, the several GAO reports, 
the newspapers going back to salon.com articles, the Inspector 
General's reports going back several years now that all speak 
to these issues which were addressed today, none of them came 
to the attention of anybody higher than General Weightman?
    General Schoomaker. That I cannot speak to. I would 
certainly say they didn't come to my attention.
    Mr. Tierney. General Cody.
    General Cody. I have been the Vice Chief since 2004. Prior 
to that, I was the Operation Officer of the Army. And so I 
can't speak before that because I was busy getting the Army 
ready for the war back in 2002. But when I became the Vice 
Chief in charge mostly of the day-to-day operations for the 
Chief of Staff of the Army and the Secretary of the Army and 
the Under Secretary of the Army, occasionally we would get 
reports about medical hold, occasionally we would get reports 
about process. In each case, the Secretary of the Army or the 
Surgeon General of the Army had sent teams out to work through 
the process.
    I am not aware of the reports that I heard Chairman Waxman 
talk about. I have not read those reports. But we did know that 
the process for the MEB and the PEB are very, very complex. I 
am now very well aware of it. I have studied it now for the 
last 2 weeks.
    But, before that, I have come to this hospital several 
times since 2002 when this war began and did not know of 
Building 18. That is not an excuse, just didn't know it was 
there. Because I spent most of my time on ward 57, ward 58 and 
the neurosurgeon wards and stuff like that. Each time I heard 
about these problems they were being addressed and trying to 
take care of it.
    I think that the size and scope--let me just say one thing. 
From 2002 until now, we were handling about 6,000 MEB and PEBs 
in the Army. About 2004 until now, it rose up to 11,000 a year, 
and that has been a problem, and we have to address it. But I 
was not aware of the size and scope of this issue.
    Mr. Tierney. Who in your chain of command would you have 
expected would have been aware of those reports Mr. Waxman 
talked about?
    General Cody. Certainly the Surgeon General and certainly 
the commander of our region, not just this region but our other 
regions.
    Mr. Tierney. Would it have been fair to suspect that they 
would have done something about it, at least looked at the 
systemic and complex issues and made recommendations to you?
    General Cody. Well, they would have made recommendations to 
the Secretary of the Army on some of these. We did note--we 
did--in 2005 and 2006, I am aware that the Department of the 
Army Inspector General was ordered by the Secretary of the Army 
to go and look the MEB and the PEB process. And their latest 
report was just briefed out to me--excuse me--today.
    Mr. Tierney. We have all of these reports, and we have, 
apparently, nothing happening on the ground here that is really 
impacting the patients yet and their families on that. And I 
think that is what upsets people and what surprises them on 
that.
    You know, we have had a surge. Everybody knows that we 
apparently didn't expect or certainly our civilian leaders 
didn't expect they were going to have that kind of casualties 
in the situation. That has increased and, at the same time, we 
have a decrease in personnel here.
    My time is pretty much up, so I am going to pass it on and 
hope somebody else will get into that.
    As we are ramping up the number of people here for service, 
we are having all kind of difficulty with the personnel. I will 
also leave it to somebody else to ask, what do we do in terms 
of planning for what may occur with an additional 25,000 troops 
going into combat?
    With that, I will leave it to Mr. Davis.
    Mr. Davis of Virginia. Thank you very much.
    I am not sure where to start here. But, General Schoomaker, 
if you think this is about Building 18, we have missed the 
point here. This is about a far more systemic problem.
    This committee, as Mr. Waxman noted and a number of GAO 
reports, published reports, our hearings, guardsmen not being 
paid in the field appropriately, computers that don't talk to 
each other. It is a systemic problem. And Building 18 was the 
visual that was just kind of waiting to happen. It encapsulates 
all the other problems.
    But the witnesses today, the testimony was less about 
Building 18 than it was they couldn't get proper medical 
attention. They would come back from the war, they are injured, 
and nobody is there to take care of them. They have to navigate 
a maze of regulations and procedures and paperwork that a 
lawyer couldn't navigate. You know, so you are not going to be 
able to Scotch tape this over, which we have tried to do, and 
Band-Aid it. It takes a systemic problem.
    We have had wave after wave of people come before our 
committee over the last 4 years saying they are going to fix 
it. I have here the last two Army medical holdover operations 
reports; and we always get, well, we are going to do better. 
But we always seem to find a new manifestation for these 
systemic problems. We saw it in the pay, we saw it in the 
collection, we saw it in the people falling through.
    What makes this round of promises any different? How are 
you going to be more successful at integrating all of these 
different Army command responsibilities and processes so they 
are seamless and provide a better standard of care? What makes 
this different from what we have heard before each time we get 
an embarrassing situation?
    General Schoomaker. First of all, let me be very clear. My 
statement was not intended to say this is about Building 18. 
There is no question that this is bigger than that. It was 
about when this thing, you know, first came to our attention. 
And clearly that is what it is, and it clearly has become a 
metaphor for a much bigger problem.
    But I believe, as the Vice Chief has said, there is a 
Department of the Army Inspector General report that he has 
read now that it has taken time to do. There is a very detailed 
action plan that has being put together under his purview that 
we fully intend to support. I believe that there is a great 
deal of desire and emphasis to make this happen because it has 
to happen, sir. It is the right thing to do.
    I told you I couldn't be madder and I couldn't be more 
embarrassed and ashamed of the kinds of things that have turned 
up, because, clearly, it is not what my impression would have 
been based upon the feedback that I have gotten as I have 
talked to soldiers and their families.
    Mr. Davis of Virginia. I mean, these are heroes, these 
people that are coming back here.
    General Schoomaker. Absolutely.
    Mr. Davis of Virginia. They put their lives, their families 
at stake, and some of them will never be the same, and they are 
languishing. And they are not nuisances or things that we have 
to check off, but they have been treated this way.
    I will tell you, I was a Reserve officer, retired first 
lieutenant. I never got any higher. But I think it is time the 
generals at the very top be held accountable, because that is 
where the systems come from. You can't even have a commanding 
general here be able to patch together all of the different 
systems that are dysfunctional within the Department of Defense 
and the Veterans Administration. So I think we may be looking 
at the wrong scapegoats. This is a far bigger problem that we 
failed to look at.
    I just want to know, what are we doing systematically to 
make these----
    General Cody. Let me take that on, Congressman.
    First off, we are taking accountability across the board. 
Since this problem was highlighted, one of the issues I found 
very, very clearly when I went and looked through, it wasn't 
just Building 18. It dealt with how we treated and took care of 
the health, welfare and morale of these soldiers in a very 
vulnerable transitional piece, having served our country so 
well.
    So I clearly understood that we didn't have the right 
structure here at Walter Reed. So we have changed it 
immediately.
    We have taken the Medical Service Corps out of taking care 
of our medical hold and medical holdover. I selected a colonel, 
a combat veteran, as well as a commandant sergeant major. These 
are combat arms soldiers.
    We have taken and put about 27 new E7s that are coming in 
to fix that structure, because the rooms weren't being 
inspected. That is not a big issue, but the appointments were 
not being taken care of. There was no followup to make sure 
they were on the right meds, there was no followup in what type 
of training, there was no followup in getting back to their 
units and checking with them. That piece is being fixed 
immediately.
    The systems you are talking about is the Medical Evaluation 
Board TT and that does not talk to the PD caps, which is the 
back side of the Physical Evaluation Board. We are trying to 
get that fixed now.
    In between that is the liaison officers. These liaison 
officers are the ones who take the soldiers from the MEB 
process and hand them and work them through the Physical 
Evaluation Board processes. Clearly, we don't have enough. The 
training is not good enough, and there was no quality control 
to see if certain liaison officers were adequately trained and 
taking care of the soldiers all the way through the process. We 
are now fixing that as part of the action plan.
    And it is not just the production timeline. It is the 
quality control timeline. And we have raised the rank structure 
of liaison officers. That, right now, is our immediate work, 
but there is work to be done making these two systems talk to 
each other.
    On a larger scale, when you talk about Walter Reed in 
particular, this is not a spike that we are in. This is a 
global war. This war has gone on now for 5 years. And when the 
decision was made I believe to look at Walter Reed for BRAC and 
to look at the A-76 process in a crown jewel that is going to 
support our wounded warriors all during this war, I think we 
need to take a look and then readdress whether we sanctuary 
Walter Reed during this long war.
    We need to have to ask the hard questions. Because, 
clearly, when you take a look at a hospital that has been put 
on the BRAC list and you are trying to get the best people to 
come here to work and they know in 3 years that this place will 
close down and they are not sure whether they will be afforded 
the opportunity to move to the new Walter Reed national 
military center eight miles away, that causes some issues. The 
A-76 process that I heard discussed, we have to ask ourselves 
the question, is that the right thing to do at a hospital right 
now that is supporting this war?
    So, from a larger scale, these are the things that the two-
star general and the three-star general were having to wrestle 
with. And these are both laws. I am not complaining about them. 
But when those things were discussed, everybody thought that 
this war was going to ramp down in 2005 and 2006. And the Chief 
and I have said for a long time, this is not a spike. This is a 
global war on terrorism, and we are going to be at this level 
for some time. So I think we have to have a national discussion 
about that.
    Mr. Davis of Virginia. Thank you.
    Mr. Tierney. Thank you.
    Mr. Waxman.
    Mr. Waxman. General Schoomaker, last Friday, the Secretary 
of the Army, Francis Harvey, was fired and, preceding him, 
General Weightman was fired. Now, the Secretary of the Army 
looked to you as his Chief of Staff to try to understand what 
was going on, to try to give him the information to make sure 
he knew what he had to know to make the system work.
    Now, the chairman asked you about some of these reports. 
There was in February 2005 an article in Salon magazine 
describing appalling conditions and shocking patterns of 
neglect in ward 54, Walter Reed's inpatient psychiatric ward. 
Were you aware of that?
    General Schoomaker. I was not. I have been in that ward, 
and I have visited that ward.
    Mr. Waxman. There was another report in 2006 that warned 
the soldiers with traumatic brain injuries were not being 
screened, identified or treated and others were being 
misdiagnosed, forced away for treatment or called liars. Did 
you know about that report?
    General Schoomaker. I did not know about the report, but I 
certainly know and we have been very concerned and working on 
traumatic brain injury and PTSD.
    Mr. Waxman. In 2005, RAND issued a report finding that the 
military disability system is unduly complex and confuses 
veterans and policymakers alike. Were you aware of this report?
    General Schoomaker. I was not aware of the report, but I do 
agree with the synopsis or the conclusion that it states.
    Mr. Waxman. Over the past 2 years, the Government 
Accountability Office has issued a number of reports. In 
January 2005, they found inadequate collaboration between the 
Pentagon and VA to expedite vocational rehabilitation services 
for seriously injured service members; and in February they 
reported on gaps in pay and benefits that create financial 
hardships for injured Army National Guard and Reserve soldiers. 
Did you know about the GAO reports?
    General Schoomaker. The GAO reports I probably was aware of 
but have not read, but I have visited these VA centers. I was 
recently at one down in Florida near Tampa that is a polytrauma 
center, have observed it, have been watching the good work that 
has taken place to make the transmission right in places like 
Tripler, where they are actually converting a wing to the VA to 
walk them across, and so I think these things are known and 
have been being worked on.
    Mr. Waxman. You went to the passive use of the English 
language. What were known and were being worked on?
    General Schoomaker. Are known and are being worked on. I am 
talking about----
    Mr. Waxman. There is a chain of command in the military.
    General Schoomaker. That is correct.
    Mr. Waxman. The Secretary of the Army, Francis Harvey, 
would have looked to you to get the information. Who do you 
look to to get the information?
    General Schoomaker. In medical situations, I look to the 
Surgeon General.
    Mr. Waxman. Who is the Surgeon General?
    General Schoomaker. My purview is over the entire Army.
    Mr. Waxman. Who is the Surgeon General?
    General Schoomaker. General Kiley, sir.
    Mr. Waxman. General Kiley just told us--and even though he 
was in Walter Reed, no one told him about some of the things 
that were happening in Building 18. Who was supposed to report 
these things to him?
    General Schoomaker. The Commander of Walter Reed, who is 
responsible.
    Mr. Waxman. And the Commander, who was the Commander of 
Walter Reed?
    General Schoomaker. General Weightman was the Commander of 
Walter Reed.
    Mr. Waxman. General Weightman. But he was only Commander 
for a short period of time.
    General Schoomaker. He had been Commander since of summer 
of 2006. General Farmer before him was retired. The Commander 
before him was General Kiley.
    Mr. Waxman. I guess I share the concerns that Congressman 
Davis expressed. We have all these reports, we have all these 
alarm bells going off in articles from popular magazines or 
information sources like Salon to GAO reports, and the 
information doesn't seem to get up the line of command.
    General Cody, you gave us an excellent statement, but how 
much of those problems that you have outlined for us were you 
aware of before the Washington Post report, before all of this 
became such a focus of attention? You personally.
    General Cody. Sir, I was aware of in--because of my time as 
the G-3 of the Army coming to this hospital and visiting 
soldiers, I was aware of the severely wounded warrior problem, 
and I was concerned about it. And we set up what you know now 
as the Army Wounded Warrior Program back in 2004, early 2004, 
because we were concerned with the numbers of injuries, 
amputations and traumatic brain injuries. We were concerned 
that, if we medically retired a severely wounded soldier, we 
wanted to make sure that the Army stayed with that soldier 
through that whole process.
    Mr. Waxman. That was 2004. This is now 2007. Today, the 
Washington Post says, it is not just Walter Reed. They gave 
very heartbreaking stories about broken wheelchairs at a 
California VA hospital, rooms overflowing with trash and 
swarming with fruit flies in San Diego Naval Medical Center, 
mold, peeling paint, staff shortages in Knoxville, KY.
    I guess my question--and my time is up--is the same 
question that Congressman Davis asked you. If you didn't know 
and you didn't do, why are we going to believe that it is going 
to get done in the future? Why should we feel confident because 
a couple of heads have rolled that the job is going to get 
done, not just at Walter Reed but in this whole system?
    General Cody. As I said, we started the Army Wounded 
Warrior Program because we knew that part was going to be the 
piece that we were most concerned about. And that program has 
been run now for 2, 2\1/2\ to 3 years, and it is working very 
well.
    The MEB and PEB process and the extent of what has happened 
here at Walter Reed I did not have oversight or visibility of. 
I do now. I have been directed 2 weeks ago to shift my 
attention from my other duties, which is the reset of the Army 
and the training of the Army and other things, to put me as the 
No. 2 guy in the uniformed services. My full attention is to 
fixing these issues.
    Mr. Tierney. Thank you.
    Mr. Waxman. General Schoomaker, what do you say? Why do you 
feel confident this is going to change?
    General Schoomaker. Well, because we are going to change 
it.
    Mr. Waxman. You should have changed it before, but it 
didn't happen.
    General Schoomaker. There is no question. There is no 
argument with you about what should have happened. It clearly 
didn't happen.
    As I said earlier, that if somebody had asked me 3 weeks 
ago, what was one of the bright spots, it would have been the 
way that we are now treating our wounded soldiers because of 
things like the Wounded Warrior Program, because of the kinds 
of wonderful things that are happening with the wonderful 
people that are medically caring for our wounded soldiers.
    Mr. Waxman. You were very wrong about what was going on.
    Mr. Tierney. Thank you. The gentleman's time has expired.
    Mr. Lynch. I am sorry. Mr. Platts.
    Mr. Geren. Mr. Chairman, can I just say one thing briefly 
in response?
    The only way to prove it to you is to show you. And I can 
assure you from the top of this--from the Department of Defense 
down to the folks working on the ground here in this hospital, 
there is a commitment that is heartfelt. The Secretary of the 
Army appointed a committee that is looking at it. Not only----
    Mr. Tierney. The Secretary of the Army that is gone?
    Mr. Waxman. What is your job? Liaison to the Congress?
    Mr. Geren. No, sir. It is not. It used to be. I am Under 
Secretary of the Army.
    Mr. Waxman. Did you know about all of these problems 
before?
    Mr. Geren. No, sir, I did not. Friday night----
    Mr. Waxman. You just want to underscore that the commitment 
is there for the future.
    Mr. Geren. No, I would like----
    Mr. Waxman. Even though the commitment should have been 
there for the past.
    Mr. Geren. Yes, sir. We have no excuse for the past.
    Mr. Tierney. Thank you, Mr. Geren.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    Appreciate the witnesses' testimony and again all of your 
storied service to our Nation in uniform and, also, Mr. 
Secretary, your service on the civilian side.
    I think part of what this hearing has been about is to get 
to the bottom of what happened, why, and how we move forward 
positively and specific action, some that is breaking borders, 
some that is human capital management and reallocation.
    I think there is also a morale issue. We heard it certainly 
from our first panel, where two soldiers who have served us 
courageously, spouse of a soldier who, you know, understandably 
maybe have lost some faith in their government, their Army, 
their Nation, how we have treated them.
    To that point, I would hope that you would consider--we 
heard the term ``open door policy'' here at Walter Reed. We 
heard town hall meetings. Is that--you know, as Chief of Staff, 
as Acting Secretary, the new Commander of Walter Reed, perhaps 
a town hall that--you are appearing before us as a 
congressional committee, but to go out and do that town hall 
meeting with all of the senior staff, with the families, with 
the personnel here today to say, you know, we are listening. 
This shouldn't have happened, and we are going to make sure it 
never happens again.
    I think, for morale, that certainly would be good, and not 
just to the families and patients but to the staff of Walter 
Reed, that they hear from the senior people that if you see 
wrongs like Building 18 you don't have to wait for a patient to 
complain about it as a staff member. Come forward. You know, we 
want you to tell us what is going wrong.
    Your staff is certainly going to be, you know, probably in 
the best position to know what isn't going right and that they 
know they have the full support of the senior staff. I hope you 
will consider that.
    I do want to touch on an issue that was touched on earlier 
about the issue of Guard and Reserve coming through versus 
Active Duty. In my previous role in the last two terms as 
chairman of the Subcommittee on Financial Management, we dealt 
a lot with the challenges of the Army, dealing with this huge 
service of surge Guard and reservists, from a pay issue to 
travel reimbursement and the challenge of the systems just not 
being ready to deal with the volume that was going through it. 
My worry is there was a little bit of that here at Walter Reed 
on the medical side, and Staff Sergeant Shannon touched on it, 
because of the soldier having to deal with their home State and 
their status, Active Duty or on medical hold.
    Are we comfortable and, again, confident that we are doing 
right by every soldier, regardless of Guard, Reserve, Active 
Duty, with their medical care and then as we move forward 
addressing the problems for all of them, regardless of their 
status before being activated?
    Mr. Geren. We are one Army, whether you are Guard, Reserve 
or Active Duty. It is the duty of this Army to treat everyone 
the same.
    In the past, the Guard and Reserve were a strategic 
Reserve. They are now part of the operating force of the U.S. 
Army. We count on them every single day, and they cannot be 
treated differently when it comes to healthcare or anything 
else, pay or benefits. And that is a change. That is requiring 
culture change in some regards in the U.S. Army, but we are 
committed to that. And in the healthcare, absolutely, There 
should not be any distinction. Everyone deserves the highest 
quality care.
    Mr. Platts. If we can prioritize as we go forward and 
especially with the physical evaluations, because of the 
complexity of our systems, these legacy systems you are dealing 
with, that didn't necessarily account for this volume that we 
really give special attention.
    I have a Guard unit just came back from a year in Balad Air 
Base in Iraq where we are doing right by them, the same as all 
of our troops over there.
    I know I am going to run out of time here quickly.
    The one issue that General Kiley just touched on, but it 
seemed to be out above his level, is the issue of the hand-off 
between the Army, DOD and the VA and the issue of access to 
information. It sounded from General Kiley that it was here at 
the Army department level or DOD itself on physicians at the VA 
having access to medical records of those being transferred to 
those VA--specifically, the four centers dealing with the more 
traumatic cases. Do we have any knowledge from the three of you 
about where that stands? Is it an Army decision or is it DOD?
    General Cody. I don't know if it is a decision by Army, 
OSD, but I will say that in the last 2 weeks as I have poured 
through this, Congressman, the teamwork between the VA and all 
the services is better than I have seen it in the past. I think 
we owe it, as Army, to make sure that we do that hand-off and 
we not wait--I don't think we need any laws or anything else. I 
think we owe it to the soldier to walk them through and hand 
off, and that is why I talked about the Wounded Warrior 
Program.
    Once that happens, our caseworkers stay with the wounded 
warrior when we hand them off to the VA for 5 years. We have 
caseworkers around the country now located--on the Army payroll 
located at each one of these places so that we can continue to 
monitor our soldiers even though they are in the VA system. So 
I don't think it is anything more than better execution and 
better followup and probably some more caseworkers.
    Mr. Platts. I think that human capital issue is where we 
come back to again.
    Mr. Tierney. Time has expired.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the panelists for helping us again with our 
work.
    I do want to qualify some earlier remarks I made. While I 
generally do not trust everything I read in the newspaper, I 
think that the reporters in this case, Dana Priest and Anne 
Hull, did a remarkable job; and I think a lot of service 
families are going to benefit by the work that they have done.
    We talked a little earlier with General Weightman about the 
survival rates. One of the good things that is happening right 
now is our survival rates are the highest they have ever been. 
That means the soldiers that would have perished on the 
battlefield years ago now are coming home and we are saving 
them.
    However, having been--you know, Mr. Platts and I actually 
followed troops who were injured in Iraq, taken to Balad, then 
to Landstuhl and then back here to Walter Reed. My concern is 
that, because we are saving them now, perhaps that is why we 
are seeing PTSD as a more profound dimension of disability and 
recovery; and I am wondering if we are not paying a great 
enough attention to it.
    My specific question is, to followup on Chairman Tierney's 
question, we heard from General Weightman earlier that, in 
light of the President's plan on a surge, this adding 21,500 
troops into Baghdad, that the result of that plan could 
potentially result in much, much higher casualties. What are we 
doing today here at Walter Reed, given the fact that we are--
let's just say we are maxed out or we are at the point of being 
overburdened here. What are we doing right now to prepare for 
that possibility?
    General Schoomaker. Well, first of all, I would like to 
address one piece of this and that is about the PTSD that you 
gratefully brought up.
    I have been testifying and concerned for quite some time 
about the up tempo on the Army. I have testified to my concerns 
about the readiness of the Army. I have testified to my 
concerns about the fact that we have compressed now down to a 
year, and maybe less in some cases, of reset time for soldiers.
    PTSD is real; and it had another name, another age. But 
combat affects people, and it will always affect people, as it 
always has, and it needs to be paid attention to. Part of my 
concerns is that resetting the human dimension, not just the 
hardware but the fact that people's recuperation time, their 
time to reintegrate and to do those things, is one of the very 
real concerns that I have about the level at which we are 
asking our soldiers to operate.
    In terms of what we are doing in anticipation of casualties 
and management of casualties, I believe that--you know, I 
believe what I have been told by the medical professionals that 
are looking at such issues as different distribution across the 
country of those that we could distribute. Overflight when it 
is not necessary to bring somebody to Walter Reed. It may be 
able to be dealt with someplace else. And there are probably a 
lot of other techniques, things out in the medical regulation 
system, how they regulate casualties, and maybe perhaps the 
Vice has some ideas on what else.
    General Cody. Yes, sir. We, too, are worried. We have been 
very, very fortunate right now that we haven't had mass 
casualties. Every time--I will just say that every time a large 
aircraft flies, we are concerned, as well as any type of 
suicide bombers; and what we are doing right now is we are 
hiring many more caseworkers.
    I put that out as part of our action plan. I talked about 
restructuring the Med Hold Brigade, the Wounded Warrior 
Brigade. I have a colonel, a sergeant major and 126 leaders 
coming in in the next 2 weeks to, one, get the ratio between a 
platoon sergeant to the number of soldiers in the med hold we 
have right now.
    We have directed that Building 18 be evacuated--not 
evacuated but everybody leave it, and we are going to rebuild 
that facility and then have the permanent party soldiers live 
at Building 18, which gives us more on-campus capacity for our 
med hold so we don't have to put our soldiers off post. We are 
doing that.
    The Soldier Family Assistance Center, we have increased the 
number of finance people there, increased the number of 
caseworkers there so we can surge very quickly.
    I will pick and check with the Under Secretary by Friday a 
Deputy Commanding General, one-star, to be the Deputy 
Commanding General here at Walter Reed to help the new 
Commander with his duties not just at Walter Reed but he has 
seven other hospitals in the Northeast region. And my 
assessment is that he needs to have a Deputy Commanding 
General. So we are going to have that.
    This week, I will meet with all the hospital commanders; 
and we are going to talk about these things we are discussing 
right now. This is throughout the country as well as what 
happens if we have a mass casualty event.
    Mr. Lynch. Thank you, General.
    I know my time is used up, but, General Schoomaker, I just 
want to say I am heartened about your remarks regarding PTSD, 
and I hope that is a reflection of the entire armed services on 
that issue, because I think we need a lot of help on that.
    Thank you. I yield back.
    Mr. Tierney. Mr. Lynch.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Tierney.
    General Cody, your ending statement about the mass 
casualties leads into my question. To both General Schoomaker 
and General Cody, we have all heard some very disturbing things 
in the testimony that we have had today; and it is just as 
disturbing of the conditions of the circumstances as it is the 
round of ``I didn't know,'' ``I didn't know'' that relate to a 
system failure.
    It is not a policy failure. It is not a funding failure but 
a system failure when people say I don't know that a system was 
violating our policy or violating our standards. And that goes 
to leadership, which is why it has been characterized as a 
leadership failure because it is not an issue of what people 
were handed. It is what they did with it.
    The most disturbing, I think, statement that I heard today 
was from General Kiley when he said, we were not--he said, the 
complexity of the injuries of these soldiers was not fully 
realized. General Schoomaker, you have been the Chief of Staff 
since August 1, 2003, and, General Cody, you just described a 
scenario to us that would be catastrophic, and I guess I am 
just at a loss as to what types of injuries could the system 
have been anticipating if it didn't anticipate these types of 
injuries? Because I didn't hear of any injury in the testimony 
today that was not anticipatable.
    And, General Schoomaker, certainly from the beginning of 
this conflict these types of injuries would have been those 
that would have easily been projected; and, General Cody, you 
just gave us a scenario that you think might occur in the 
future. We have, we were told, 371 outpatient rooms that are 
caring for individuals who were transferred from inpatient to 
outpatient and still General Kiley is saying that the 
complexity of these injuries were not fully realized. Can't we 
anticipate this?
    General Schoomaker. Sir, I didn't hear General Kiley's 
statements, so I don't know from what context they were in. But 
from what you are saying it sounds like it is not that we 
didn't anticipate the fact that we would have traumatic 
injuries. It is that the people that have survived some of 
these injuries, that in the past never would have survived 
them, people that--I mentioned that I have been down to the 
polytrauma center where people have traumatic brain injuries, 
amputations, lost their sight and hearing, burns, a variety of 
very complex things that in previous wars they never would have 
survived.
    Mr. Turner. From what point since August 2003, did that 
dawn on us?
    General Schoomaker. Well, I think that the reason----
    Mr. Turner. Because it wasn't last week. It wasn't 2 weeks 
ago.
    General Schoomaker. Again, I don't know what General Kiley 
has led off, but 68 Whisky Medic, for instance, who we are 
training tens of thousands of at Fort Sam Houston that are the 
old squad medic, are now doing medicine that we would only see 
in Special Operations before. The combat lifesaver that we are 
now doing with all of the soldiers, the kind of first aid kit 
they carry, the kind of training they have, the trauma medicine 
that we have, the regulation system that gets them to Landstuhl 
so quickly and places like Walter Reed, the reason we have 
these things is because we are anticipating them. We are saving 
these lives; and, like I told you, I have had nothing but 
compliments about the way that we have been treating the 
people--the medical treatment of the people inside of our 
medical treatment facilities.
    Mr. Turner. General Schoomaker, I would invite you to look 
at that testimony. Because just about everyone on this 
subcommittee hearing was very surprised by it, and many people 
asked followup questions. Because to have that be the testimony 
today of some of the reasons of the circumstances is 
surprising, because it clearly seems to me that it is an 
anticipatable situation. But I appreciate you taking a look at 
that.
    Perhaps you could give us some greater--some additional 
follow-on to that post this hearing, Mr. Chairman.
    General Cody. Could I say something about being 
anticipatory?
    I am not a medical person, and so I can't speak for what 
Dr. Kiley said, but your Army looked at all the things on that 
battlefield as it emerged after the fall of Baghdad and when 
the IEDs first started showing up on the battlefield. That is 
what changed our ensemble for our soldiers. We used the medical 
experts here to help us design other things than the SAPI 
plates, the arm protectors, the lower extremity protectors, as 
well as the helmet design, as well as the additional plates 
that we put on the side.
    I won't get into details on this because, you know, we 
don't want to give away all of the things that we have done for 
the soldier. But the medical community helped us very quickly 
address those things as well as the type of wounds that we saw 
with IEDs in Humvees versus other vehicles.
    So we weren't as fast as we should have been, but we are 
certainly anticipatory, and that is why so many of our soldiers 
are surviving.
    The other thing we did back when we looked at the numbers 
of troops that were going to be needed for this fight, we put 
more medevac helicopter units than we normally would in 
country. We put in more forward surgical teams than we would 
have normally, which is a good thing. We put more combat 
support hospitals in. And because of that, that magic hour and 
that magic 2 hours, that is why our soldiers are surviving.
    Having that much pushed forward also puts a stress, and I 
think Dr. Kiley or General Weightman mentioned it, puts stress 
back here. Because we now have to have medical doctors so far 
forward, and that is why the medical doctor ratio here at 
Walter Reed to civilians is a little bit different than we have 
forward.
    So we were anticipatory in a lot of these things, but, 
clearly, I will go back and look at the testimony and see what 
he meant by the types of wounds. That is the first I have heard 
it of it.
    Mr. Tierney. Mr. Yarmouth.
    Mr. Yarmouth. Thank you, Mr. Chairman.
    One of the things that really disturbs me, listening to all 
of your testimony and the prior panel, is that while you 
minimize the question of funding, virtually every problem that 
we have talked about today and the media has talked about, 
involves something that costs money, whether it is fixing up 
facilities that have deteriorated, whether it is providing more 
staff to handle the workload, whether it is having part of your 
operation reclassifying people so as to minimize the ongoing 
disability cost. Every aspect of this either would cost more 
money or it involves an activity that is trying to save the 
government more money; and I wonder whether this entire problem 
area involves not necessarily a question of motivation or even 
a systemic failure but the idea that we are trying to do it on 
the cheap, as we have done so many other aspects of this war on 
terror.
    I suspect I know what the answer is going to be, but I want 
to raise that question. Because in one of the Washington Post 
articles, a man is quoted named Joe Wilson, not the Ambassador, 
a clinical psychologist here, who talked about the fact that he 
said they knew all about these problems, but there was 
something about the culture of the Army that didn't allow them 
to address it.
    I am wondering whether it is not the culture, that we can't 
afford to go in and ask anybody for more money because we have 
to hold the line somewhere, and we are spending it on bullets, 
and we are spending it in other ways. But it seems astounding 
to me that you can come here and say, we don't need more money 
or resources to correct these problems. That is just sounds 
inconsistent to me.
    Mr. Geren. If I could speak to that. The issues that we 
have identified so far are not questions of money. We are going 
to study this and look at some of the long-term policy 
implications.
    And it is possible that we are going to have to come back 
and redirect additional funding in this area. But our studies 
so far have indicated that failure of leadership from a very 
high level all the way down to the enlisted folks that are 
working with these wounded warriors, it identified just 
questions of management of the facilities, and then the other 
issues that we talked about in great length about how the 
various disabilities systems work together, the transition to 
the VA.
    At the end of the day we may come back. We are going to 
work within the department. The President has announced a 
study, the Secretary of the Army 2 weeks ago announced another 
study. We could come back to the Congress with a package to 
address this that would involve money. I am confident we are 
going to come back to the Congress with a package to address 
some of the policy issues.
    But as Mr. Waxman pointed out, what is going on around the 
rest of this country? Are we making sure we are looking under 
every rock? We have a tiger team going out--started 2 weeks 
ago--going to every single major medical facility any place in 
the country to make sure that the lessons that we have learned 
now are carried across the country so that we don't have 
something like this happen again.
    The new leader that was brought into Walter Reed was 
brought in because of his leadership skills, and specifically, 
to address the issues here. You can be sure he was appointed 
Friday afternoon, Saturday morning he was here on the ground 
working this issue and he has worked it nonstop since then.
    Will we ask for more money? Eventually, who knows? We can't 
tell you right now. But we have the resources to meet this need 
in the short term. In the long term, it raises additional 
issues and we will be back to you with that.
    Mr. Yarmuth. Let me followup just a minute because as 
Congressman Waxman mentioned, today's Washington Post mentioned 
problems in San Diego and my own State Fort Dix, North 
Carolina, Fort Bragg seems like there is a lot of these 
problems. And I am wondering whether there is some kind of 
mentality--maybe it is at the lower levels too--that says we 
know we are strapped. We know we can't have any more money, 
therefore we are not going to bother reporting these. Is that 
potentially a problem or not?
    General Schoomaker. I hope not.
    Mr. Yarmuth. I hope not too.
    General Schoomaker. Anybody that has watched what we have 
been through over the last several years and has watched the 
Army fight for money and saw what we did last year pushing back 
on submitting a program until we could rectify some things and 
get it through, I believe I heard General Kiley say that he 
felt that his area of MEDCOM that he was fully funded under the 
global war on terror. I don't think there is a mentality that 
we are shy to ask for the resources we want. But I can tell 
you, it is extraordinarily difficult sometimes to understand 
what it is that is needed, where it is needed and to work 
through the process to get it.
    And, so, you know, I don't know. You know, perhaps there 
may be places out there that you could find people don't have 
confidence that if they ask for things that they can get it, 
but we certainly been fighting tooth and nail to get the stuff 
we need.
    Mr. Tierney. Gentleman's time has expired.
    Mr. Geren. Congress has been very responsive. If we need 
money for soldiers, you all have stepped up to the plate. We 
are not shy about asking and you all haven't been shy about 
delivering.
    Mr. Tierney. Thank you, Mr. Secretary. Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. General Schoomaker 
Secretary Geren, General Cody, General Kiley is an 
obstetrician, and one of the things I learn going through 
Lamaze classes with my wife is that it is helpful to have a 
focal point to get you through periods of pain and discomfort 
and take your mind off what you are dealing with.
    And I don't know if the three of you are familiar with this 
publication, Stripe, but I would encourage you to pick up a 
copy of it and use this as your focal point in the months 
ahead. This is the published in the interests of the patients 
and staff at Walter Reed Army Medical Center. This is the March 
2, 2007 issue, the most recent issue. And you will see here in 
the upper left hand corner, a picture of Secretary Gates 
visiting Walter Reed to talk about some of the very issues we 
have been talking about today. And up here in the upper right-
hand corner, there is a story about Major General Weightman 
being relieved of his command. And if you follow down here to 
what is happening in a real touch of irony, I think you will 
see that today is patient safety week.
    And here in this publication, it is encouraging people to 
remember this year's theme, patient safety a road taken to 
together, a collective effort for safer health care. And it 
talks about the ongoing efforts here at Walter Reed to promote 
patient safety.
    One of the concerns this committee has is that we have 
heard these claims before. We have heard how post traumatic 
stress disorder is not perceived the way it was in the movie 
Patton.
    We would like to think that now, post traumatic stress 
disorder is perceived the way it was portrayed in Band of 
Brothers when we saw Sergeant Buck Compton, a very real hero, 
deal with the stress of post traumatic stress disorder.
    What I need to know, and what the other members of this 
committee need to receive assurances on, is how the Army is 
going to put backbone behind the stories we see on the front 
page of Stripe and assure the brave men and women in uniform 
serving this country that their biggest challenge won't be 
facing the hardships they face overseas, but the hardships they 
face when they return to this country.
    And one of the things that I am concerned about is in this 
story that appeared in the Washington Post, General Weightman 
was quoted as discussing that one of the responses that is 
going to take care of some of these problems is an increase in 
the numbers of case managers and patient advocates to help with 
the complex disability process, which is one of the biggest 
sources of delay.
    And can any of you tell us how many patient advocates 
currently serve the patients here at Walter Reed?
    General Schoomaker. I think we have an exact number on the 
thing.
    General Cody. I don't have it. I do know the case worker 
load that we are trying to get to, Congressman, is 1 to 35. And 
it has not been that and I heard the other testimony, and I, 
quite frankly, I don't have the numbers with me. But we are 
increasing our caseworkers. But it is not just increasing 
caseworkers. It is the quality.
    Mr. Braley. I want to make sure we are talking about the 
same thing. I am not talking about case managers, which is a 
separate function. I am talking about case advocates. You 
understand there is a difference between the two. So when you 
are talking about that ratio, are you talking about case 
managers to patients or patient advocates to patients?
    General Cody. Case managers to patients. The case managers 
deal with the process and what we have to do is increase the 
number of advocates that we have for the patients when they go 
through this MEB PEB process not just that, but also their stay 
here. And that is the piece we have to work on.
    Mr. Braley. Going back to my original question, can any of 
you tell me how many patient advocates--not case managers--are 
currently employed to serve the patients at Walter Reed?
    General Schoomaker. I cannot tell you.
    Mr. Braley. That's a crisis that needs to be dealt with 
because everything we heard during the first panel shows and 
the news articles that we are reading that is one of the No. 1 
obstacles facing veterans returning with disability claims. And 
I will be working very hard with my staff to see that it gets 
addressed. And I will welcome your further input on that 
subject.
    Mr. Tierney. Gentleman yield back?
    Mr. Braley. Yes.
    Mr. Tierney. Thank the gentleman. Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here. Again, I have been listening very 
carefully to the kinds of things that are being talked about 
here. And it seems to me that in my short time of being in 
office that I hear very many of the same kinds of complaints 
from the civilian population when it comes to dealing with 
disability and how the Social Security system works.
    So I do think that it is a widespread problem that we are 
talking about. I think that what has happened here has gotten 
the attention of the American people. And it should get the 
attention of the American people. It should get the attention 
of Congress.
    Again, I want to ask you about your commitment to making 
this a systemwide effort and say to you, perhaps you can show 
us outside the military how we can improve what happens with 
disability. Because I know in my office, we have people who are 
trying to get on disability, we have had people who have died 
waiting to get on disability through the Social Security 
system.
    Because I think that is a broken system too.
    I am not sure your system is as broken as the one that we 
have outside the military.
    So I hope that you will look for ways to fix your system, 
make it better. And I think it has gotten your attention. And 
I, again, want to just hear you say--you have said it before--
that you are going to work to make it such that the system you 
have will be a model not just for the military but for the 
civilian system too.
    General Schoomaker. That has always been our objective to 
have military health care be a model for the world. And that is 
what is so disappointing about where we find ourselves on this.
    Ms. Foxx. Thank you.
    Mr. Tierney. Gentlelady yield back.
    Ms. Foxx. Yes, sir.
    Mr. Tierney. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. Well I asked the 
question earlier the first panel about ombuds people being able 
and ombudsmen. And my answer back was that there is zero. There 
is no one here that is seen as an impartial entity that people 
can go to where they really feel that sides haven't been taken. 
And in the VA they have veterans county service offices. But 
they are being overwhelmed right now with being able to do what 
they need to do.
    I appreciate what you gentlemen have said about working to 
be better prepared. We were not prepared with the conflict we 
found ourselves into because of poor planning, and I will say 
that is my opinion.
    But I think it is beared out that this is not the war that 
many of those who in Congress who voted for thought it was 
going to be. I am glad I didn't vote for it. We saw injuries to 
eyes, burns, amputees, all quite often due to equipment failure 
and not having the right gear available for the soldiers, and 
yes, the Army and the rest of the service has reacted and tried 
to address those issues.
    But when it comes to the traumatic brain injury and with 
the post traumatic stress syndrome, I am feeling some alarms 
going off. And I know that there was discussion about doing 
further study.
    One alarm is, with cognitive skills tests that are being 
given, as we have lowered the educational standards to meet 
recruitment needs, we are going to have soldiers coming in who 
are not going to be high school graduates in all cases. And I 
don't know what kind of testing you are using, but I don't want 
to see someone who signs up, who has a GED, penalized later on 
by a test that is given to decide whether or not their 
cognitive ability is up to speed.
    With post traumatic stress syndrome, it wasn't that long 
ago that someone was going to sit at a desk and review 
documentation and take veterans off--off the rolls for being, 
for having been originally clinically diagnosed with post 
traumatic stress syndrome.
    So I am a little concerned about how these unseen, 
untouchable injuries are going to be handled.
    And so as you are preparing, and I heard what you are going 
to try to do here, and I pray that you are able to do it, I 
want to know what you are going to tell the VA that they need 
to do in order to be prepared. What kind of funding are they 
going to need? What kind of bed space are they going to have to 
start reopening? What is their staffing levels going to have to 
be? What is the handoff here?
    Because General Cody, I appreciate the fact, and I think it 
is magnificent that there is a wounded warrior program. But 
years after these men and women come home, they are just called 
veterans by many.
    And there are still many of them for Korea and World War II 
are still waiting to get into the VA system today. What are you 
telling the VA to be able to hand these warriors off to them 
for their care?
    General Cody. First, Congresswoman, I couldn't agree with 
you more. We are going to fix this. We have a passion for it. 
These are our soldiers. These are our veterans.
    The ombudsman I brought up I guess a week ago when they 
started talking about the handoff. And I said well, who is the 
advocate during this process? And who does the soldier turn to 
if he agrees or disagrees or has a problem? And I didn't get 
the satisfactory answer, so I directed that we come up with a 
ombudsman type program for the soldiers going through the 
system.
    The coordination that we have to do with the Veterans 
Administration is ongoing. I will have to go look into it. 
Quite frankly, I have been focused here on Walter Reed, and I 
have not looked at what our service surgeon generals have done 
informing the Veterans Administration as to what type of more 
bed space or what type of more type of specialist they need as 
our soldiers transition into the Veterans Administration.
    I do know on the traumatic brain injury that a lot of work 
has been done. But PTSD and some of these other types of 
injuries we will have to go back--I will have to go back and 
find out what our surgeon generals are telling--all the surgeon 
generals are telling the VA.
    Ms. McCollum. Thank you.
    Mr. Tierney. Gentlelady yield back?
    Ms. McCollum. I yield back.
    Mr. Tierney. Thank you. Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here today.
    As you know, the administration has proposed a increase in 
troop strength in Iraq.
    And if that moves forward, it means that folks who have 
been deployed and redeployed may be redeployed again with 
increasingly shorter timeframes between their deployments.
    What steps are you taking in terms of the medical system to 
ensure that people with PTSD and traumatic brain injuries are 
not being inappropriately redeployed to active service?
    General Cody. We have a followup, once a--first off, we 
screen soldiers before they come out of theater. And then we 
screen them as part of the, if they are active duty soldiers as 
part of their redeployment back at their home station. And if 
they are reserve component soldiers, we have a screening upon 
their--before we demobilize them. Then we have another program, 
after 120-day followup program to re-evaluate any soldiers that 
have problems.
    Now, I will report to you today that program is not going 
as well. I just got the Inspector General's report today, the 
outbriefing this morning before this hearing, and we need to do 
better at training our leaders. We can put all the medical 
specialists out there, but our leaders are the ones that are 
going to see that soldier first and say Specialist Jones has a 
problem.
    And so because of the op tempo, we have not trained some of 
our leaders as well as we should to be looking for these type 
of things. And that is something that I have directed that we 
readdress. But we screen them when we come out. They have a 
reintegration program right after they come back from combat 
and then 120-day followup program.
    I don't know if those measures are right. That is what our 
doctors have told me and that is one of the things I am looking 
at right now.
    Mr. Hodes. Is the screening that you are talking about 
being done by physicians, psychiatrists.
    General Cody. Yes. We have a questionnaire and they tell me 
that there is questions there that will indicate that there are 
problems. And I am not deep enough into it, Congressman, to 
give you an accurate assessment.
    Mr. Hodes. What do you think is the timeframe for your 
figuring out what the problems are with this process and for 
fixing it?
    General Cody. I think we know we have a problem because of 
the op tempo. As the chief has said, you know we are--the op 
tempo of the Army is just like you said, 1 year in about 12 
months out and then you are going back in. So that puts a 
stress to make sure that we get this post deployment assessment 
done.
    So I am sure that it is not as good as it should be. I 
probably will find out here when I talk to our hospital 
commanders this week and that will be part of our army action 
plan to address soldiers that would not necessarily be eligible 
to deploy again.
    Mr. Hodes. I anticipate that there may be some tension 
between the need to redeploy people and determining whether or 
not they are suffering from severity of PTSD or TBI that would, 
in the order course, prevent or argue against their deployment.
    What guidance is coming from the top down the ranks to give 
our soldiers the benefit of the doubt so that they are not 
getting sent out with PTSD and TBI that ought to disqualify 
them from having to go back into active service?
    General Cody. I don't know if we have any guidance out. You 
are talking about leadership 101 here. You are talking about 
first sergeants, platoon sergeants, company commanders, the 
first line supervisors. My experience in the last 2 years of 
being here at Walter Reed and talking to soldiers that are 
still in units but have PTSD is I am heartened by the fact that 
our first line supervisors recognize that a soldier has PTSD, 
and in one case when I was up talking to a soldier and asked 
him if he was afraid to come forward, he said no, my leadership 
took good care of me. My platoon sergeant has been here and my 
first sergeant has been here and they know that I need to get 
well and they are supporting me.
    That is just a small sample size. Clearly we had better go 
back and check this. But I will tell you we have great leaders 
in charge and we have a very seasoned set of leaders that has 
been in combat several times. My son is a company commander 
getting ready to go back to his fourth combat tour. I am sure 
he is not going to deploy with any soldier that has these 
problems and my hope is he and other company commanders will 
see that and make sure the medical personnel are properly 
alerted. But it is something we are going to have to go back 
and check.
    Mr. Tierney. Thank you Mr. Hodes. Your time has expired. I 
am sorry. Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. Generals I am sure you 
agree that the cost of the war has to include the cost of 
paying for treatment for the warrior. And there's a report from 
Peter Garibaldi, the garrison commander, about the 
privatization that occurred about services here at Walter Reed. 
And what I understand the decision to privatize support 
services, there was 300 Federal employees, doing facilities 
management and related work and then IAP which is a company run 
by someone who used to be with Halliburton. They eventually 
took over and the number of personnel dropped in the range of 
one report is 60 and I think an earlier witness today said it 
was closer to 100.
    Has the decision to move to privatization and essentially 
replace contract Government employees who have experience and 
have been doing a good job as I understand it, with private 
contractors been detrimental to the delivery of services that 
our returning veterans need?
    General Schoomaker. Sir, if I could take one swing at that, 
and I am not expert in privatization but I can tell you that 
there's a lot of demand on the force and we have been trying to 
grow the operational force of the Army. And there has been a 
lot of effort to make sure that anyplace that we have soldiers 
doing things, have soldiers doing things or somebody else could 
do them, we want soldiers doing things that only soldiers can 
do.
    Now I don't think that is the case here at Walter Reed. I 
think what we went through at Walter Reed was this A-76 thing, 
study, that basically competed the DPW against a private 
entity, and this thing went on, I think, since what, 2004, 
Dick?
    General Cody. It is the A-76 competition against the 
department of public works which was an entity of Government DA 
civilians. And they initially won the competition. And then it 
was protested. And then in the protest, IAP won and then it was 
protested again. So this thing started from 2004 and finally 
got to where IAP, which won the contract, I guess they took 
over about February 7th.
    General Schoomaker. That is the point I was trying to make 
is this was a very unusual kind of transaction that took place. 
And then you have BRAC on top of this which people then are 
concerned about their future.
    Mr. Welch. That is my point. It seems very unusual. You 
have competent employees who won the bid, then their bid was 
reversed for no explicit or clear reason, and then IAP, which 
gets $120 million contract, then downsizes further more 
obviously boosting profits but apparently compromising service 
that presumably is a concern to you. Correct?
    General Schoomaker. Totally a condition. But it is also 
something that we normally would not have any visibility into 
or anything you know that we can't influence that process once 
that starts.
    Mr. Welch. Thank you. I understand that. That goes on 
outside of you.
    You know, General Weightman served here for 6 months and he 
was the person in charge at the time these reports came out 
from the Washington Post. But the information that we have 
received so far is that the conditions pre-existed his arrival 
and that he was, in fact, taking some concrete steps to address 
them.
    Obviously once this story gets front page news, it creates 
an enormous amount of anxiety and turmoil and demands a public 
response. But bottom line question is this: Has General 
Weightman been treated fairly or has he been a scapegoat?
    General Schoomaker. First of all, I wouldn't take part in 
something that was a charade. I think it addresses one's 
integrity, OK, and the Secretary of the Army looked at this 
situation. All of us were very upset with what we saw and 
concerned about it and felt that the kinds of conditions that 
were here that we were not aware of should have been 
highlighted in the timeframe that--regardless of when they 
started--with the commander that is here.
    When you take a look at who is accountable and the 
Secretary had said he had lost confidence in General Weightman 
and he made the decision to do it. Nobody pressured anybody to 
do it. And nobody was lobbying to do it or looking for 
anything.
    But you know it is clear that there were issues here that 
were bigger than a couple of platoon sergeants and a company 
commander. Listen, General Weightman has a tremendous 
reputation. He is a fine doctor. I have known him for a long 
time. You know, my view is he has a lot that he can do yet for 
us. But the Secretary of the Army felt that this was what was 
required and he made that decision. I supported it.
    Mr. Welch. Thank you, General. I yield.
    Mr. Tierney. Thank you. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I don't know which of 
you I should speak to, but I think it is at your level, this 
GAO report--literally just out--challenges encountered by 
injured service members during the recovery process. One of the 
things we have been trying to get to the bottom of is the 
frustration that we heard in testimony from veterans caught in 
what I can only call the indecision of the bureaucracy where 
the soldier doesn't really know his fate and he feels caught in 
a bureaucratic tangle.
    Virtually, all the testimony from the brass has essentially 
said this was a leadership problem whereas the Members have 
identified a systemic problem they say is nationwide. Where as 
the testimony seems to say change the people that will change 
the system.
    The GAO, it seems to me, points to really a quite pregnant 
example. It says in here, I am quoting, VA's efforts may 
conflict with the military's retention goals.
    Interestingly, I don't know who put this chart here, but 
there's a chart I tried to find out who it was from, disability 
rating, different, differences example where they put an 
example from the VA and an example from the PEB or the health 
system, and, where the same soldier with the same disabilities 
is rated 40 percent disabled by one and 70 percent disabled by 
another.
    Now that says to me that not only do computers not talk to 
one another, but even freshly injured soldiers--we are not 
talking about soldiers whose problems may have developed since 
the release and therefore they have been in the system.
    General Schoomaker. I think you will see 2 different laws 
involved, one for the VA and one----
    Ms. Norton. I am not suggesting that somehow they should be 
the same, so please don't misunderstand me nor does GAO it says 
in particular, DOD was concerned about the timing of VA's 
outreach to service members whose discharge from military 
service is not yet certain.
    DOD was concerned that VA's efforts may conflict with the 
military's retention goals. It seems, obviously who pays for 
what between these two agencies comes into play here. And here 
we have a surge about to happen. In fact, some say the surge 
may be over by May, then the soldiers may all be there.
    Until now, these people were not--our soldiers clearly were 
not--there was an attempt to keep them out of the middle of 
what was increasingly a civil war. Now we send them right into 
the middle of it. And I am concerned we are going to get more 
people who come back and need to talk to both systems at the 
same time, and wonder what you can do to keep a soldier from 
experiencing two different rating systems and then to ask you 
who in the world--whose job is it to figure out what the 
soldier finally gets fairly?
    General Cody. Madam Congressman, let me take that on, 
because I am as frustrated with it as you are, and really gets 
to the heart of the issue. First, let me be clear that it is 
not just a leadership problem. We understand that when we talk 
about leadership failure, it dealt with just the one symptom of 
Building 18 and the Med Hold unit. We all recognize it is a 
much larger bureaucratic morass that our wounded soldiers have 
to face.
    The chart you just held up is an interesting chart. You are 
talking about Title 38 for the VA and Title 10 for the 
military. When we look at a disability rating for the military, 
it deals with being unfit for service in the military. So if 
Sergeant Jones loses an eye like we have on that chart, but he 
has vision in his other eye, we assess him as 40 percent 
disability. He may have lost hearing. He may have lost some 
lower teeth, and he may have some scars. Those particular 
things would not make him unfit for military duty. However--so 
that is why he get assessed by 40 percent under the rules of 
Title 10 on how we look at disability. I don't agree with it, 
but that is how it is.
    The VA under Title 38 can assess all those things and so 
the soldier sits there and says, service will give me 40 
percent, VA will give me 70 percent. And that is the first 
confusion.
    The second confusion is depending upon disability, if you 
are a lower enlisted soldier, you probably fare better under 
those circumstances than a E 7 or an officer because it is 
based upon--for the military based upon years of service and 
base salary.
    Ms. Norton. So does the soldier gets to choose? Who 
chooses?
    General Cody. What we do is and this gets to the point what 
we talked about between the MEB process and the PEB process, 
the process that the last Physical Evaluation Board we have a 
liaison officer. That is a clutching mechanism. And that is the 
piece we have to fix. And we have to do a better job educating 
the soldier, because it is very, very confusing. Let me give 
you one more that will just upset you.
    Ms. Norton. You haven't answered me who gets to say which--
these numbers are----
    General Cody. The soldier gets to pick. The soldier picks. 
And you are sitting there. And it is very complex. I had a 2-
hour session on it one night and had to come back and give it 
to me again just on one thing.
    Ms. Norton. Who advises the soldier who has to pick?
    General Cody. The liaison officer. And if he does not like 
the ruling of the Physical Evaluation Board, then he can appeal 
it. And then the lawyers--because it is a process, a discharge, 
the lawyers come and advise him as to what is best for him or 
her.
    But at the end of the day it looks unfair and quite 
frankly, we are being a little stingy as a Nation. And we have 
to look at this whole thing.
    General Schoomaker. And soldiers have said they feel 
disrespected because they have to go through that. They have 
said that.
    General Cody. They have to demand and fight for it. And 
they shouldn't have to.
    Ms. Norton. Thank you very much, Mr. Chairman. If I may say 
so, we talked about all kinds of computers not talking to one 
another. We talked about all parts of the system we could 
understand not being fixed. What concerns me about these 
soldiers is that they are fresh out of war. And whether or not 
you can fix this throughout the system and not focus on short-
term versus long-term fixes, the burden being on the soldier to 
then appeal and the rest of it, these were not people who had a 
mental difficulties.
    And it seems to me that one of the first orders of business 
would be to get your two departments of the government so that 
they agree on a way to deal with these soldiers that would 
reduces considerably not only the confusion but the time spent 
in two systems trying to figure out which one is best for you.
    It is more than we ought to ask a soldier to do.
    Mr. Tierney. Thank you, Ms. Norton.
    Gentlemen, I understand all the confusion that has taken 
place since we started having these hearings scheduled, 
including our requests for documents that were sent out some 
time ago. But we, since then, had two commanders out here at 
the facility. So can I have your assurance that our request for 
documents will be provided to us in short order? And we have an 
additional request that will be going out since learning that 
this may be a little more systemic than we thought of just 
Walter Reed, we will be expanding that out and we would like to 
know we will have your cooperation getting the information with 
respect to complaints that might have been made or efforts to 
resolve those complaints. Do I have that?
    Mr. Geren. Let me say about the document, I have not had an 
opportunity to review the document request. And there may be 
some issues we would have to discuss with the committee. So I 
don't want to make a blanket commitment until we have an 
opportunity to----
    Mr. Tierney. Too bad. I liked it better when General 
Schoomaker and General Cody nodded their heads. I understand. I 
don't believe you will find there is any problem. It is pretty 
straightforward, and we would expect that they should be met 
without much difficulty on that.
    One last thing, in the privatization process, it is not a 
decision for General Weightman when he was here. It wasn't a 
decision for his superior, General Kiley. It wasn't a decision 
for General Cody. And it is not a decision for General 
Schoomaker. So this whole thing is what, a political decision? 
It kicks up to the suits? I mean, who decides whether something 
is going to get bid off? This is a medical facility within our 
armed services. I would think that each of you gentlemen and 
then the surgeon general and then the commander here would have 
the best idea of what kind of service our patients need.
    General Schoomaker. Because it is a legal process, and in 
this particular case it was challenged, the decision.
    Mr. Tierney. But it is not your process, you didn't start 
it.
    General Schoomaker. It is not. It is law and policy.
    Mr. Tierney. The Secretary is the one that operates that 
process on down?
    Mr. Geren. I don't know how the decision is made to engage 
the A-76 project for a specific function of government. I will 
get back to the committee.
    Mr. Tierney. It is amazing that the people most involved in 
the care don't.
    Ms. Norton. Mr. Chairman, could I ask that they get back to 
us on how much privatization of army facilities is going on at 
this time? We had here the entire base, garrison base being 
privatized. It does seem to me the committee needs to know how 
systemic that process is throughout the Army hospitals 
throughout the United States.
    General Schoomaker. We will have to respond for the record.
    Mr. Tierney. If you would. Thank you.
    Ms. Foxx. Mr. Chairman, could I get one clarification, too, 
on this chart here. Is it such that if a person has 40 percent 
disability from the left side that they are able to remain in 
the military and draw their disability as opposed to becoming a 
veteran and drawing the other disability? Is that the 
distinction that is being made here?
    General Cody. No, ma'am. It is very complex, but 30 percent 
and above you get to be medically retired. If you are less than 
30 percent, you don't get to be medically retired and you could 
get more percentage from the VA than you could from the 
military, based upon the VA data tables. And that is the 
confusion.
    But in this case here because this soldier--this is a 
sample--this soldier lost an eye. He was 40 percent disabled so 
he was medically retired. However, based upon the other 
injuries, they did not render him unfit for the military duty 
so he wasn't scored. Against VA tables he was scored and he 
would be better off going into the VA as a medical retired 
soldier.
    General Schoomaker. But ma'am, you know there are amputees, 
for instance, that fight to stay on active duty that have 30 
percent and greater, and they have to fight through the process 
to be able to do that and prove their abilities, their fitness 
to stay.
    Mr. Tierney. Specialist Duncan, in fact, was one that was 
fighting through the process on that.
    Ms. Foxx. And how many people do you have currently? Excuse 
me, Mr. Chairman.
    General Cody. I have that number.
    Ms. Foxx. You can give that to me later, that is OK.
    Mr. Tierney. Let us thank Mr. Secretary and Generals, and 
all those who helped make this facility available and to 
accommodate us here today. We also want to thank all of the men 
and women who are patients here and fair families to allow us 
to use this as a forum to dig deeper into those matters. We 
appreciate the fact that this is a complex problem, one that we 
have to work on together. It is not partisan and it is 
certainly not anything that is going to be done overnight. But 
we will be come back, as we said to General Kiley, in about 45 
days or so looking for followup on this and hoping that we will 
have good news on that and good news that could come from all 
of that is that we focus and get to work on it, and together we 
come to a resolution for our men and women who have served us 
so well and to whom we owe so much. So thank you very much with 
that, the meeting is adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
